<html>
<title> - EXAMINING TRIBAL TRANSPORTATION IN INDIAN COUNTRY</title>
<body><pre>[Senate Hearing 111-917]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-917
 
           EXAMINING TRIBAL TRANSPORTATION IN INDIAN COUNTRY

=======================================================================

                             FIELD HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 15, 2010

                               __________

         Printed for the use of the Committee on Indian Affairs


                  U.S. GOVERNMENT PRINTING OFFICE
65-034                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6502150a25061016110d0009154b060a084b">[email&#160;protected]</a>  

                      COMMITTEE ON INDIAN AFFAIRS

                BYRON L. DORGAN, North Dakota, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
DANIEL K. AKAKA, Hawaii              TOM COBURN, M.D., Oklahoma
TIM JOHNSON, South Dakota            MIKE CRAPO, Idaho
MARIA CANTWELL, Washington           MIKE JOHANNS, Nebraska
JON TESTER, Montana
TOM UDALL, New Mexico
AL FRANKEN, Minnesota
      Allison C. Binney, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 15, 2010.................................     1
Statement of Senator Tester......................................     1

                               Witnesses

Baxter, John R., Associate Administrator for Federal Lands, 
  Federal Highway Administration, U.S. Department of 
  Transportation; accompanied by Robert Sparrow, Jr., Manager, 
  Indian Reservation Roads Program, Federal Highway 
  Administration.................................................     7
    Prepared statement...........................................     9
Echo Hawk, Hon. Larry J., Assistant Secretary for Indian Affairs, 
  Department of the Interior; accompanied by Michael S. Black, 
  Director, Bureau of Indian Affairs, Department of the Interior 
  and Leroy Gishi, Chief, Division of Transportation, Bureau of 
  Indian Affairs.................................................     3
    Prepared statement...........................................     4
Keel, Hon. Jefferson, President, National Congress of American 
  Indians (NCAI).................................................    14
    Prepared statement...........................................    15
Moran, Hon. E.T., ``Bud'' Chairman, Confederated Salish and 
  Kootenai Tribes................................................    26
    Prepared statement...........................................    27
Rosette, Sr., Timothy W., Chief, Environmental Health Division, 
  Chippewa Cree Tribe, Rocky Boy Reservation.....................    33
    Prepared statement...........................................    34
Steele, Jr., James, Chairman, Montana-Wyoming Tribal Leaders 
  Council........................................................    32
Smith, John P., Director, Division of Transportation, Eastern 
  Shoshone and Northern Arapaho Tribes...........................    39
    Prepared statement with attachment...........................    40

                          Additional Testimony

Begay, Sampson, Chairman, Transportation and Community 
  Development Committee, Navajo Nation...........................    77
    Prepared statement with attachment...........................    79
Hostler, Jacque, California Primary Representative; Vice 
  Chairperson, Indian Reservation Roads Coordinating Committee...    70
    Prepared statement...........................................    72
Howlett, Kevin, Commissioner, District 1, Montana Department of 
  Transportation.................................................    65
    Prepared statement...........................................    67
Kirn, Rick, Member, Fort Peck Assiniboine and Sioux Tribe; 
  Member, Fort Peck Tribal Council...............................    97
Knaus, Shirley, Vice Chairperson, Trinidad Rancheria.............   121
Lynch, Jim, Director, Montana Department of Transportation.......    64
Palmer, Richard, White Mountain Apache Tribe.....................    96
Penney, Tim, Tribal Transportation Coordinator, Federal Highway 
  Administration, Office of Policy...............................   122
Red Tomahawk, Hon. Pete, Director of Transportation Planning and 
  Development; Great Plains Region Primary Member, Indian 
  Reservation Roads Program Coordinating Committee, Standing Rock 
  Sioux Tribe....................................................    76
Russell, Scott, Secretary, Crow Nation...........................    68
Spoonhunter, Hon. Harvey, Chairman, Wind River Indian Reservation    96
St. Goddard, Jay, Blackfeet Tribal Business Council..............    69
Whatoname, Sr., Hon. Wilford, Chairman, Hualapai Tribe...........    97
    Prepared statement with attachment...........................    98

                           Listening Session

Allison Binney, Majority Staff Director/Chief Counsel, Senate 
  Committee on Indian Affairs, presiding.........................   119

                                Appendix

Black Eagle, Hon. Cedric, Chairman, Apsaalooke (Crow) Nation, 
  prepared statement.............................................   129
Hinton, Sr., Hon. Timothy P., Vice Chairman, White Mountain 
  Apache Tribe, prepared statement...............................   148
King, Tracy ``Ching'', President, Fort Belknap Indian Community 
  Council, prepared statement with attachment....................   151
Murphy, Hon. Charles W., Chairman, Standing Rock Sioux Tribe, 
  prepared statement with attachment.............................   133
North Coast Tribal Chairmen's Association (NCTCA), prepared 
  statement......................................................   144


           EXAMINING TRIBAL TRANSPORTATION IN INDIAN COUNTRY

                              ----------                              


                        Friday, October 15, 2010


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                        Polson, MT.
    The Committee met, pursuant to notice, at 2 o'clock p.m. in 
the Best Western KwaTaqNuk Resort Building, Hon. Jon Tester, 
presiding.
    [The hearing opened with the Pledge of Allegiance and a 
blessing of the proceedings.]

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. I'd like to call this Senate Committee on 
Indian Affairs Field Hearing on tribal transportation to order.
    First of all, I would just say welcome to Montana to all of 
you. I want to thank the members of the Confederated Salish and 
Kootenai tribe for hosting us here on the beautiful Flathead 
Lake at the KwaTaqNuk Resort on the shores here of the 
Flathead. A beautiful spot to be. And want to thank everybody 
who traveled across the country to be here today. Thank you 
very much for that.
    I think this is a very important hearing. And we have a 
great couple panels that we're going to hear from shortly.
    Once again, I want to thank Chairman Moran. I want to thank 
Reuben and Tony very much for helping us open this Committee 
hearing.
    Today's hearing is to look into the current status of 
Tribal transportation. And I look forward to sharing our 
discussion today with my colleagues on the Senate Indian 
Affairs Committee.
    As the folks in this room know all too well, our 
transportation infrastructure is critical to economic 
development, creating jobs and improving the lives of everybody 
who lives in Indian country.
    As with other challenges facing Indian country, the 
situation is getting better. Our hearing today is progress. But 
we have more work to do, much more work to do.
    The Committee last addressed this topic back in July of 
2007. Since then we've consulted with tribes around the 
country. Chairman Dorgan released draft legislation in March 
2009 called the TRIP Act. The bill seeks to address many of the 
issues raised at that hearing back in July of 2007 and with the 
consultations that have been held. So I look forward to hearing 
the views of the witnesses on that draft.
    As we move forward, my priorities for any legislation are 
safe roads, responsibly invested taxpayer dollars, stronger 
transportation infrastructure, and more American jobs in that 
process.
    As with almost every issue facing Congress today, the 
simple solution seems to be more money. Of course that's easier 
said than done. Today's financial reality is that we're going 
to have to make fewer dollars go much further. But even if we 
can't find more money, it's good to ensure that it's invested 
fairly and smartly. And I want to make sure we maintain roads 
in Indian country to the same standard that we maintain other 
roads.
    I also want to make sure that community members are working 
together to solve community challenges. In many instances, 
reservation roads serve Indians and non-Indians alike. We need 
to encourage government-to-government partnership between 
tribes and state and federal agencies at every level. We have 
good examples of those partnerships in Montana, and I look 
forward to our witnesses talking about them today.
    While we fight wars all over the world, Montanans should be 
able to work across the fence with one another. I am willing to 
lend a hand in that process however I can.
    Today's hearing is organized slightly different than most 
committee hearings. Like others, we'll have two panels of 
witnesses. The first panel is comprised of government 
witnesses. The second panel is comprised of tribal leaders.
    The tribal leaders will tell us about their priorities for 
reauthorizing the upcoming Highway Bill, their fight to 
maintain funding equity and provide examples of how the 
Recovery Act has improved roads and created jobs in Indian 
country.
    Administration witnesses will report on their efforts to 
ensure funding equity, to ensure transportation dollars stretch 
as far as possible in Indian country, and their plans for 
including tribal leaders from the very beginning of the process 
to craft the next Highway Bill.
    The last part of this hearing is going to be just a bit 
different. Assuming we have time, and we will have time because 
we will hold our presenters to the allotted amount of time, we 
will dedicate the last half hour to take public comments.
    I am going to give preference to tribal officials in the 
public comment period, and then we'll go to everybody else.
    So with that I want to introduce the first panel. We have 
the Honorable Larry J. Echo Hawk, Assistant Secretary for 
Indian Affairs, Department of the Interior, Washington, D.C. 
Larry, welcome to Montana. I very, very much appreciate Larry 
being here today. I supported his nomination for this position 
and his confirmation in the Senate. Larry is a quality 
individual. He has testified before this Committee several 
times, and we very much appreciate you being at this important 
hearing. Thank you, Larry.
    He is accompanied by Mr. Michael Black, who is the Director 
of the Bureau of Indian Affairs in the Department of the 
Interior in Washington, D.C. Michael, thank you very, very much 
for being here today. I appreciate you guys making the trip.
    We also have John R. Baxter, Associate Administrator of 
Federal Lands Highway Program at the Department of 
Transportation in Washington, D.C., a very, very important 
position as it applies to federal lands, roads, highways and 
the like.
    He is accompanied by Robert Sparrow, Jr., who is the 
manager of the Indian Reservation Roads Program for the Federal 
Highway Administration in Washington, D.C., and your title 
talks about the importance of your position in particular as it 
applies to this hearing. So thank you for being here, Robert.
    And then last but certainly not least, we have the 
Honorable Jefferson Keel, who is the President of the National 
Congress of American Indians in Washington, D.C.
    Although, in past hearings we have included NCAI on the 
second panel, we thought it more appropriate for them to 
testify on today's first panel. Not only to honor the 
principals of government-to-government relations, but also 
because NCAI faces some of the same challenges that our 
agencies do. They represent both urban and rural tribes with 
sometimes very different perspectives and priorities. So 
perhaps Jefferson can shed some light on that and how to 
prioritize some of these important, yet very complex issues.
    Once again, before I call on you, Larry, let me remind the 
witnesses to restrict your oral testimony to five minutes. We 
will make sure that your complete written testimony is a part 
of the official record. But, you know, use your judgment and 
try to make it--and I'm not going to be absolutely, smack-on, 
cut you off, but if you tend to keep going, I'll remind you of 
that.
    And by the way, it's not that we don't want to hear 
everything you've got to say. We do want to hear everything you 
got to say. So you've got to make it as concise as possible. 
And we appreciate that.
    We want to thank you very much. And with that, Larry.

        STATEMENT OF HON. LARRY J. ECHO HAWK, ASSISTANT 
        SECRETARY FOR INDIAN AFFAIRS, DEPARTMENT OF THE 
          INTERIOR; ACCOMPANIED BY MICHAEL S. BLACK, 
DIRECTOR, BUREAU OF INDIAN AFFAIRS, DEPARTMENT OF THE INTERIOR 
 AND LEROY GISHI, CHIEF, DIVISION OF TRANSPORTATION, BUREAU OF 
                         INDIAN AFFAIRS

    Mr. Echo Hawk. Thank you, Senator Tester. I appreciate the 
invitation to be here, especially when you made the personal 
call to me. I do appreciate that personal invitation you gave 
me. I wanted to mention that not only do I have the BIA 
Director with me today, but the Division Chief over at BIA 
Transportation, LeRoy Gishi is also with me. We want to make 
sure that whatever questions are presented to us, that we give 
you a detailed answer.
    I want to highlight just a few points from my written 
statement that's been submitted. I'll begin by just stressing 
the importance of the roads in Indian country. President Obama 
and Secretary Salazar have identified their top priorities as 
being education, public safety and economic development. Roads 
and highways are involved in all three of those top priorities.
    It is vitally important that we have an adequate 
transportation system in Indian country, because roads connect 
tribal citizens to vital services, they provide travel to and 
from school, access to medical facilities, delivery of 
emergency services, access to jobs and economic markets. So the 
transportation system in Indian country must be adequate and it 
must be safe.
    Unfortunately, we still have great needs in Indian country. 
I want to note that we are very blessed to have been able to 
have the ARRA funding that has made a significant difference in 
our ability to repair and restore roads in the BIA Roads 
Program. We have received $141 million, which led to 400 
projects under that program. Under the IRR program, we've 
received $225 million, which has funded 420 projects. In 
addition, $50 million is being awarded to tribes contracting 
directly with Federal Highways Administration. I'm very pleased 
to say that the deadline that we were facing for obligating 
these funds on September 30th of this year, we were able to 
obligate 99.9 percent of those funds. So that is a very nice 
thing to be able to report. And I want to thank all people who 
made that possible.
    Our next challenge is to achieve a timely outlay of these 
projects. Our staff is working very hard to accomplish that.
    I want to make a few comments with regard to Question 10 
and the distribution of the IRR Program funds. I've been 
fortunate to have some very hard-working people involved in our 
coordinating committee that is spread across Indian country 
representing all regions. They provide recommendations, not 
only to BIA, but to the Federal Highway Administration on 
policies and procedures. I thank them for their service.
    But when it came to Question 10, they could not resolve the 
recommendation that they would like to present. And there are 
differences in Indian country about what ought to be done. So I 
recall going to a meeting at the National Congress of American 
Indians over a year ago in Palm Springs, and NCAI tried to 
resolve that and were unable to do it. So when I was asked to 
join with the Federal Highways Administration and try to 
resolve that, we did it. We didn't want to be involved in any 
kind of disagreement among tribes, but we were asked to do it 
and we did our best.
    So we have generated a proposal to try to move that 
Question 10 forward. And I want to thank all the people that 
have been involved in that process. We have done consultation 
sessions throughout Indian country where we heard from numerous 
tribal leaders. I went to assure everyone that all of those 
comments are being considered. This morning we once again heard 
from tribal leaders who testified and spoke at the end of our 
discussions this morning to assure them that their comments 
will be heard and considered as we decide how to move forward 
with our proposal.
    Lastly, I just want to assure the Senate Indian Affairs 
Committee that within Interior and Indian Affairs, we will be 
working diligently to ensure that tribal needs are met as the 
reauthorization of the safety move moves forward.
    Thank you very much, Senator.
    [The prepared statement of Mr. Echo Hawk follows:]

Prepared Statement of Hon. Larry J. Echo Hawk, Assistant Secretary for 
               Indian Affairs, Department of the Interior

    Good afternoon Mr. Chairman and members of the Committee. My name 
is Larry Echo Hawk and I am the Assistant Secretary for Indian Affairs 
at the Department of the Interior. With me today is Michael Black, the 
Director of the Bureau of Indian Affairs (BIA). And also with me today 
is LeRoy Gishi, the Division Chief for the BIA's Division of 
Transportation. We are pleased to be here today to provide you with an 
overview of the BIA's Road Maintenance Program and the Indian 
Reservation Roads (IRR) Program.

Background
    The BIA has been involved in the repair, construction and 
reconstruction of roads on Indian Reservations since the 1920s. From 
1950 until 1983, Congress appropriated annual construction and 
maintenance funds to the BIA to maintain, repair and construct roads on 
Indian Reservations. During this time, approximately $1.2 billion were 
provided for both construction and maintenance of reservation roads. 
The Surface Transportation Assistance Act of 1982 (Public Law 97-424) 
created the Federal Lands Highways Program (Title 23 U.S. Code, Chapter 
2) which established the IRR Program as a category of public roads 
providing access to or within Indian reservations, lands, communities 
and Alaska Native villages. This funding contributed to the improvement 
of roads and the replacement or rehabilitation of deficient bridges on 
or near reservations throughout Indian country. Shortly after the 
establishment of the IRR Program, only road maintenance funds were 
appropriated through the Department of the Interior. Since the 
establishment of the IRR Program, the federal construction investment 
has exceeded $6 billion in the IRR system that is comprised of BIA, 
tribal, state, county and local roads and bridges. The IRR Program is 
jointly administered by the BIA and the Federal Highways Administration 
(FHWA), which is within the Department of Transportation.
    There remains a great and continued need for improving the 
transportation system in Indian country. The BIA views this as a joint 
responsibility, not only of federal agencies, but a shared 
responsibility of state and local governments with transportation 
investments on or near Indian and Alaska Native communities. Improved 
and maintained transportation systems provide increased public safety 
and economic opportunities in Indian communities. Safe roads are 
important when transporting people in rural areas to and from schools, 
to local hospitals, and for delivering emergency services. In addition, 
transportation networks in Indian and Alaska Native communities are 
critical for economic development in such communities because these 
transportation networks provide access to other economic markets.
    The IRR Program comprises over 126,000 miles of public roads with 
multiple owners, including Indian tribes, the BIA, states and counties. 
Coordination among all of these owners is required in order to maximize 
available resources to address transportation needs.

Road Maintenance in the BIA
    The BIA currently implements both the Department of 
Transportation's Highway Trust Fund-funded IRR program as well as the 
Department of the Interior's (DOI) funded Road Maintenance Program. The 
DOI's Road Maintenance Program has traditionally been the 
responsibility of the agency owning the road. Of the 126,000 miles 
roads in the IRR Program, the BIA has responsibility for 28,000 miles 
of roads designated as BIA system roads. The BIA receives Tribal 
Priority Allocation (TPA) funding annually for the administration of 
the road maintenance program for those roads. Further, approximately 30 
percent of tribes with BIA system roads within their reservation 
boundaries currently operate the road maintenance program under a P.L. 
93-638 self-determination contract or agreement. And of the 28,000 BIA 
road miles, approximately 20,500 miles are unpaved roads. Therefore, 
over 73 percent of the BIA roads are unpaved, and are, thus, considered 
``inadequate'' from the perspective of the Level of Service index used 
to assess roads and bridges in the BIA road system.
Question 10 of 25 CFR Part 170
    In 2004, the Department of the Interior published the Final Rule 
establishing the policies and procedures governing the IRR Program. See 
69 Fed. Reg. 43090 (July 19, 2004), codified at 25 CFR Part 170. 
Question 10, in Appendix C to Subpart C of the Final Rule, addressed a 
question regarding the IRR Program's funding formula. Since 2004, the 
IRR Program and Tribes have been struggling with ``Question 10'' and 
the BIA and FHWA have worked to clarify the interpretation.
    As background, and for the purposes of the tribal shares formula, 
an ``Indian reservation road'' is a public road that is located within 
or provides access to an Indian reservation, Indian trust land, 
restricted Indian land, or Indian and Alaska Native villages. All 
tribes receive a portion of the $450 million annual IRR Program funding 
through a ``tribal share'' approach for their approved inventory of 
``Indian reservation'' roads. These tribal shares are computed by a 
formula based on each roads' Cost To Construct (CTC), Vehicle Miles 
Traveled (VMT), and population of the tribe. Every road in the 
inventory has a value associated to its CTC and VMT.
    Question 10 (Q10) addresses whether a road's CTC and VMT is to 
count at 100 percent in the formula calculation, or at the non-Federal 
share if the road is otherwise eligible for Federal-aid funds. See 69 
Fed. Reg. at 43121. The non-Federal share is the local match percentage 
as established by the FHWA for federal aid system highways, which 
varies from 5 percent to 20 percent. The non-Federal share is the 
percentage of cost of Federal-Aid projects payable by the Federal 
Government.
    While the answer specified in the Final Rule was that a non-Federal 
share percentage should be applied, the BIA has administered the 
program with all costs counting 100 percent (except for State-owned 
roads), since there was no data in the inventory to clearly distinguish 
roads which were eligible for Federal funds.
    The Final Rule on IRR established an IRR Program Coordinating 
Committee (IRRPCC), to provide input and recommendations to both the 
BIA and the FHWA in the development or revision of the IRR Program's 
policy and procedures. The IRRPCC has been reviewing the Q10 issue 
since August 2006 and has been unable to agree on a recommendation on 
this issue. As a result, representatives from the IRRPCC requested that 
the BIA and the FHWA develop a proposed clarification for Q10. This 
proposal eliminates road ownership from consideration and places the 
determination strictly on roadway classification. This clarification 
will allow the non-Federal share percentages to be applied to the roads 
that are determined to be otherwise eligible for Federal funds which 
will result in a consistent application of the non-Federal share across 
all roads in the IRR Program inventory.
    This proposed clarification recognizes that except for BIA and 
tribally owned roads (which contribute 100 percent to the CTC and VMT 
regardless of functional classification, as referenced elsewhere in the 
regulation) any road with a functional classification above local road 
or rural minor collector will contribute its CTC and VMT at the non-
Federal share rate. This interpretation is aligned with the original 
language of Q10. Given the length of time this provision has been 
administered under a less than clear interpretation, any change will 
create questions from various locations where tribes may lose funding. 
However, until the work during the transition year is complete, the 
overall impacts to specific tribes will not be known. Nonetheless, 
since June of this calendar year, the BIA and the FHWA have held 10 
regional tribal consultation meetings on this proposed interpretation 
of Q10.
    It is anticipated that the proposed clarification of Q10 will 
appropriately move the focus of discussions surrounding the IRR Program 
roads inventory and funding process from Q10 to the broader issues of 
the quality, physical size and composition of the IRR Program roads 
inventory. Achieving consistency in the IRR Program roads inventory is 
an on-going effort involving training, process improvements, and 
establishing consistent parameters that will require a dedicated effort 
from all parties over the next 2 to 3 years.

American Recovery and Reinvestment Act (ARRA)
    On February 17, 2009, President Obama signed into law the American 
Recovery and Reinvestment Act of 2009 (Public Law 111-5) (ARRA). ARRA 
provided supplemental funding for infrastructure investment in Indian 
Country. A portion of ARRA funding was provided to the IRR Program 
within Indian Affairs, subject to certain restrictions and 
requirements. ARRA offered a unique opportunity to make tangible 
improvements to Indian communities, while promoting economic recovery 
through the preservation and creation of jobs.
    As of September 30, 2010, 99.9 percent of the available funds for 
both Repair and Restoration of BIA roads and bridges and the 
construction and reconstruction of IRR Program facilities were 
obligated to projects approved by the Secretaries of the Department of 
the Interior and the Department of Transportation. Within the Repair 
and Restoration of BIA roads program, approximately 400 projects were 
awarded over $141 million. Within the IRR Program, approximately 420 
projects were awarded over $225 million. In addition, over $50 million 
was awarded to tribes contracting directly with the FHWA. Outlays for 
these programs under ARRA funding within the Department were 37 percent 
or $83 million for the IRR program and 53 percent or $75 million for 
the Repair and Restoration program.
    ARRA funds made a significant contribution to improving 
transportation facilities in Indian Country. Each eligible tribe was 
given the opportunity to receive maintenance and construction 
improvements on their BIA and IRR Program facilities (roads, bridges, 
transit structures, docks, boardwalks, etc). In addition, the 
provisions of ARRA authorized the Secretary of Transportation to 
redistribute unobligated funds to projects submitted by tribes based on 
a call for projects in February 2010. The total ARRA funding 
redistributed by both agencies was approximately $22.5 million. One 
such project from redistributed unobligated funds was a project 
submitted by the Chippewa Cree Tribe of the Rocky Boy Indian 
Reservation in Montana. This project was a priority project for the 
Tribe because of the unsafe nature of the roadway alignment, which 
resulted in several severe accidents. This project was reviewed and 
scored in accordance with the provisions established by the BIA and the 
FHWA. The Chippewa Cree Tribe's project was awarded the amount 
requested by the Tribe, in the amount exceeding $1.7 million. Likewise 
other tribes with annual allocations that were not enough to meet the 
needs of their priority projects were able to submit projects for 
review and consideration. These tribes received funds totaling over $15 
million.

Reauthorization of SAFETEA-LU
    The BIA, along with other Federal Land Management agencies within 
the Department, have and will continue to coordinate with each other in 
the development of the Administration's proposal for the 
reauthorization of the Safe, Accountable, Flexible, Efficient 
Transportation Equity: A Legacy for Users (SAFETEA-LU Act). The need 
for prompt and immediate reauthorization of the SAFETEA-LU Act is 
crucial to tribal governments who rely on early notification of their 
tribal shares from the funding formula to plan their priority projects. 
The numerous short term extensions of SAFETEA-LU result in infrequent 
and delayed allocations to the tribes and have also resulted in late 
planning and obligations to tribal contracts. These delays force 
projects to be delayed as much as one year. The BIA commits to work 
with the Department to advance the reauthorization of SAFETEA-LU in the 
near future.

Conclusion
    Thank you for the opportunity to present testimony on an issue that 
is an important part of the economic infrastructure for tribes. We will 
be happy to answer any questions you may have.

    Senator Tester. Thank you, Larry. And we will have 
questions after everybody gets done on the first panel.
    John Baxter's next.

            STATEMENT OF JOHN R. BAXTER, ASSOCIATE 
       ADMINISTRATOR FOR FEDERAL LANDS, FEDERAL HIGHWAY 
ADMINISTRATION, U.S. DEPARTMENT OF TRANSPORTATION; ACCOMPANIED 
               BY ROBERT SPARROW, JR., MANAGER, 
           INDIAN RESERVATION ROADS PROGRAM, FEDERAL 
                     HIGHWAY ADMINISTRATION

    Mr. Baxter. Senator Tester, thank you for inviting me to 
testify today on the transportation issues facing the Native 
American communities and the programs that the Federal Highway 
Administration administers to this tribe in addressing these 
challenges. I thank you for making my full statement part of 
the record for this hearing.
    The Indian reservation road system consists of more than 
126,000 miles of road and 8,000 bridges that link housing, 
schools, emergency services and work places as well as 
facilitate tourism and resource use. Millions of vehicle miles 
are travelled annually on the Indian reservation road system, 
even though it's among the most rudimentary of any 
transportation at work for the United States.
    More than 60 percent of the system is unpaved and about 24 
percent of the bridges are classified as deficient. These 
conditions make basic travel associated with the community 
difficult for residents of tribal communities. We are committed 
to providing safe, efficient transportation to both residents 
and visitors to and within Indian lands and Alaska Native 
villages, while protecting the environment and cultural 
resources.
    The Indian Reservation Roads Program administered by FHWA 
in partnership with the Bureau of Indian Affairs serves over 
560 federally recognized Indian tribes and Alaska Native 
villages in 32 states.
    In many cases this is the only program where we have a 
source of funds for transportation improvements.
    Today I'd like to focus on three key areas where our agency 
has been working to address transportation challenges in Indian 
country. These areas include safety, outreach and capacity 
building, and implementation of the Recovery Act.
    Despite reaching record-low traffic deaths last year on all 
the nation's roads, the annual fatality rate on Indian 
reservation roads is still more than three times the national 
average. To address this serious problem the FHWA has co-
sponsored seven state-based safety summits in the past two 
years focused on this issue and to bring safety partners 
together. More of these summits are planned for this year.
    The agency also continues to implement safety-based 
programs such as the Highway Safety Improvement Program and the 
Safe Routes to School Program, which benefits tribes as well as 
states and are aimed at reducing crash fatalities and injuries 
on public roads through the implementation of infrastructure 
improvements.
    The Highway Safety Improvement Program funds have been used 
in Montana to provide improvements such as the installation of 
variable message signs on U.S. 2 on the Blackfeet reservation 
and the addition of a left-turn bay on U.S. 93 on the Flathead 
reservation. And the Montana Department of Transportation 
provided over $50,000 for Safe Routes to School funds for the 
city of Ronan for the design and construction of hard-surfaced 
bicycle and pedestrian paths, lighting, and installation of 
seven bike racks at the Ronan Elementary School within the 
Flathead reservation just south of here.
    In addition, FHWA supports tribes for outreach and 
capacity-building programs. The agency maintains seven tribal 
technical assistance program centers that provide a variety of 
training and professional and development programs, technology 
updates and technical assistance to improve road management and 
safety. These centers are a key resource for basic services and 
have helped many tribes to become self-sufficient as sovereign 
nations in transportation delivery.
    The Recovery Act supplemented safety funding for tribal 
communities by providing additional $310 million for the Indian 
Reservation Roads Program. FHWA and BIA have worked diligently 
to ensure that the Recovery Act funds for these projects were 
distributed quickly and wisely. And as it has already been 
noted, nearly 99.9 percent of the Recovery Act were obligated 
to tribes for eligible and other infrastructure-related 
projects, including improving roads that provide critical links 
between tribal residences and vital community services such as 
schools and health care facilities.
    In addition, the Recovery Act TIGER funds are being used in 
the Mission Valley and Lake County for road paving and 
construction and will improve connectivity and create a safer, 
more convenient transportation system for residents of the 
county and the Flathead Indian Reservation.
    We recognize that transportation is a critical tool for 
tribes to improve the quality of life and the economy in our 
communities. FHWA is committed to improving transportation 
access to and through tribal lands by providing safe and 
innovative roadways that blend into or enhance the existing 
environment by providing technical services to the 
transportation community and by coordinating our efforts with 
partnering agencies and tribes such as BIA.
    We're also focused on building more effective day-to-day 
working relationships with Indian tribes with respect to rights 
of self-government and self-determination based on the 
principals of tribal sovereignty.
    Senator Tester, thank you for the opportunity to testify 
and I'll be pleased to answer your questions.
    [The prepared statement of Mr. Baxter follows:]

   Prepared Statement of John R. Baxter, Associate Administrator for 
   Federal Lands, Federal Highway Administration, U.S. Department of 
                             Transportation

    Chairman Dorgan, Senator Tester, and Members of the Committee, 
thank you for the opportunity to testify today regarding transportation 
issues facing Native American communities and programs administered by 
the Federal Highway Administration (FHWA) that provide support to 
Tribes for addressing these issues.
    President Obama's meeting in November 2009 with tribal leaders from 
across the Nation signaled the start of a new and stronger relationship 
between the Tribes and the Federal Government. The President made very 
clear that Native Americans will not be forgotten by this 
Administration, and he gave his strong commitment to addressing tribal 
issues and concerns. By establishing an Office of Tribal Liaison within 
the White House, the President has made sure that Native Americans will 
have a seat at the table when issues, including the economy, education, 
health care, and the environment, are being discussed--issues which can 
all involve transportation.
    Secretary LaHood shares President Obama's commitment to addressing 
tribal issues and concerns. This past spring, the Secretary spoke 
before the National Congress of American Indians, emphasizing the 
Department's commitment to improving existing tribal transportation 
programs by seeking tribal input on important regulations, providing 
timely technical assistance, and ensuring tribes are given ample 
opportunities to compete for grants. The Department also finalized its 
Tribal Consultation Plan, a detailed plan of action the agency will 
take when developing, changing, or implementing policies, programs, or 
services with tribal implications.
    In addition, Secretary LaHood has made livability a key objective 
for transportation. This initiative is not a one-size-fits-all 
approach--we recognize that transportation needs for tribes are often 
different than what we see needed elsewhere in the U.S. transportation 
network. In much of this country, we take for granted that roads and 
highways will be there for children to reach their schools, for 
emergency vehicles to reach those in need of medical care, and for 
members of the community to get to work. But, in Indian Country, you 
cannot always make that assumption. Moreover, tribal communities need 
good roads to support their economic development.
    FHWA has a long history of supporting tribal governments' rights to 
self-determination and working directly with Tribes in a government-to-
government relationship. FHWA's top leadership continues to meet 
directly with tribal government elected officials and transportation 
staff, and is committed to delivering a transportation program that 
works for all Tribes whether they are large or small.
    FHWA has sought to improve the state of tribal transportation by 
working directly with tribal governments to improve Tribes' technical 
capacity, to improve safety on reservations and native communities, and 
to foster partnerships between tribal governments, Federal agencies, 
and State DOTs.
    The Indian Reservation Roads (IRR) program, administered by FHWA in 
partnership with the Bureau of Indian Affairs (BIA), is critical to 
tribal communities to support tribal transportation needs. In many 
cases, it is the only source of revenue for transportation 
improvements. In working through FHWA's partnership with the Tribes and 
the BIA, the IRR program seeks to balance transportation mobility and 
safety goals with the environmental and cultural values of tribal 
lands. FHWA also works with the Federal Transit Administration and the 
National Highway Traffic Safety Administration (NHTSA) in coordinating 
transportation programs that focus on planning, safety, and 
construction of roads and transit services to and on reservations and 
serving Alaska Native villages.

Overview
    The IRR system of roads provides access to and within Indian 
reservations, Indian trust land, restricted Indian land, eligible 
Indian communities, and Alaska Native villages. The IRR system consists 
of more than 120,000 miles of roads which link housing, schools, 
emergency services, places of employment, and facilitate tourism and 
resource use. Almost eleven billion vehicle miles are traveled annually 
on the IRR system, even though it is among the most rudimentary of any 
transportation network in the United States. More than 60 percent of 
the system is unpaved. If only BIA and tribal roads of the IRR system 
are considered, this number increases to over 80 percent. Within the 
system, there are more than 8,000 bridges and approximately 24 percent 
of these bridges are classified as deficient. These conditions make it 
very difficult for residents of tribal communities to travel to 
hospitals, stores, schools, and employment centers--the most basic 
needs for a livable community.
    The poor road quality on tribal lands also affects safety. Last 
year, Secretary LaHood announced that the number of traffic deaths on 
U.S. roads reached a record low. Despite the gains we have made on 
other systems, the annual fatality rate on Indian reservation roads 
continues to be more than three times the national average. Safety 
continues to be the Department's top priority, and FHWA is working 
closely with tribes, the BIA, NHTSA, and others to address this 
disproportionate level of fatalities on tribal roads.
    The IRR program, established in section 204 of title 23, United 
States Code, is the largest Federal Lands Highway (FLH) program, and it 
is unique due to the relationship with Federally-recognized Indian 
Tribal Governments under the program. The IRR program serves over 560 
Federally-recognized Indian Tribes and Alaska Native villages in 32 
States. FHWA co-administers the IRR program with the BIA under an 
agreement originating in 1948 and a Stewardship Plan from July 1996.
    IRR program funding has grown significantly under the Safe, 
Accountable, Flexible, Efficient Transportation Equity Act: A Legacy 
for Users (SAFETEA-LU), from a program size of $275 million annually 
under the Transportation Equity Act for the 21st Century (TEA-21) to 
$450 million annually today. This equates to a total of $2.42 billion 
over the life of SAFETEA-LU, including the recent extensions through 
the end of this calendar year. These funds have been distributed 
according to a tribal shares formula, which was developed through a 
negotiated rulemaking with tribal governments. SAFETEA-LU also 
increased the eligible uses of IRR program funds by allowing a Tribe to 
use up to 25 percent of its share of funds for road and bridge 
maintenance activities. This change allowed Tribes to supplement the 
funding they receive annually from the Department of the Interior (DOI) 
for maintenance activities. It allowed the Tribes to address critical 
safety, snow removal, and pavement preservation issues that otherwise 
could not be addressed. The increased funding and programmatic changes 
provided in SAFETEA-LU for the IRR program, along with an additional 
$310 million provided by the American Recovery and Reinvestment Act of 
2009 (Recovery Act), discussed below, have provided tools and resources 
to substantially improve tribal transportation. Despite progress, 
however, much work remains.

Safety Programs
    Safety remains a significant issue in Indian Country. Native 
Americans are overrepresented in several fatality categories--including 
individuals under the age of 35, unbelted drivers, and individuals 
driving under the influence of alcohol. Seven State-based summits have 
been held in the past two years to focus on the subject and to bring 
the many safety partners together to discuss the safety issues 
affecting them. FHWA and NHTSA will continue these summits in the 
future to promote safety strategies across the four E's of safety--
engineering, enforcement, education, and emergency medical services. 
Strategies such as Road Safety Audits and community based enforcement 
are proving to be effective tools for reducing fatalities.

Highway Safety Improvement Program
    The Highway Safety Improvement Program (HSIP) was established by 
SAFETEA-LU with the overall purpose of achieving a significant 
reduction in traffic fatalities and serious injuries on all public 
roads through the implementation of infrastructure-related highway 
safety improvements. Since the program's inception, HSIP funding has 
been utilized for tribal lands projects across the country.
    In Montana, for example, two HSIP construction projects totaling 
$1.88 million provided improvements such as the installation of 
Variable Message Signs on US-2 on the Blackfeet Reservation and the 
addition of a left-turn bay on US-93 on the Flathead Reservation.
    A $107,650 HSIP project in North Carolina along US-74 from the 
Haywood County line to NC-28 (North), in Cherokee Nation, funded the 
installation of milled rumble strips on the median and outside 
shoulders.
    In North Dakota, two HSIP projects totaling $300,000 provided 
improvements along State highways within reservation boundaries of 
Standing Rock Reservation and Fort Berthold Reservation. Such 
improvements included the installation of shoulder and centerline 
rumble strips along State Highways 23 and 24.
    In Wisconsin, a $316,000 HSIP project was undertaken by the 
Wisconsin DOT along with the Forest County Potawatomi Tribe to improve 
a Tribal owned intersection at Everybody's Road and USH 8 in Forest 
County. The intersection project was combined with $900,000 BIA funds 
and $74,000 Tribal funds to construct a newly relocated intersection 
and frontage road (Everybody's Road) that leads to the Tribal 
headquarters offices and Tribal Community Center.

Safe Routes to School
    The Safe Routes to School (SRTS) program is a Federally-funded but 
State managed and administered grant program established by section 
1404 of SAFETEA-LU. Each State receives not less than $1 million each 
fiscal year to fund planning, design, and construction of 
infrastructure-related projects that will improve the ability of 
students to walk and bicycle to school. A portion of each State's SRTS 
funding must also be used for non-infrastructure-related activities to 
encourage walking and bicycling to school. Federally-recognized Tribes 
are eligible sub-recipients of this State administered program.
    Several States are working with Tribes to promote the SRTS program. 
For example, the Montana DOT provided $51,823 in SRTS funds to the City 
of Ronan for the design and construction of approximately 400 lineal 
feet of hard-surfaced bicycle and pedestrian path, lighting, and 
installation of 8 bike racks at the Ronan elementary school within the 
Flathead reservation. The Washington DOT provided SRTS funds to the 
Taholah School District, serving the Quinault Indian Nation, for 
infrastructure, enforcement and education activities. In South Dakota, 
the DOT provided $15,815 in SRTS funds to the Sisseton-Wahpeton Oyate's 
Enemy Swim Day School for a trail to the school.
Section 402 State and Community Highway Safety Grant Funds
    NHTSA provides safety grant funds to the Secretary of the Interior 
to save lives, prevent injuries, and reduce economic loss due to motor 
vehicle related crashes on Tribal land. The BIA administers the funds, 
known as the Section 402 State and Community Highway Safety Grant 
Funds. NHTSA provides technical assistance to Tribes through 
partnership with BIA.

SAFETEA-LU Funding for Tribal Transportation
    Although the IRR program is the principal funding source for tribal 
roads, these roads are eligible to receive funding under other SAFETEA-
LU programs as well.

Indian Reservation Roads Bridge Program (IRRBP)
    The Indian Reservation Roads Bridge Program (IRRBP) was established 
under TEA-21 and funded through a $13 million takedown from the primary 
IRR Program. The program's purpose was to provide funding for 
reconstruction or rehabilitation of structurally deficient or 
functionally obsolete IRR bridges. SAFETEA-LU amended the IRRBP by 
establishing it as an independently funded program, authorized at $14 
million per year, and allowing design activities to be funded. FHWA 
coordinated with the Indian Reservation Roads Program Coordinating 
Committee to implement these legislative changes. Since its inception 
in TEA-21, the IRRBP has provided more than $165 million in funding to 
nearly 300 different bridge projects in Indian Country.

National Scenic Byways Program
    Indian Tribes have participated in the National Scenic Byways 
Program since its inception under the Intermodal Surface Transportation 
Efficiency Act of 1991 (ISTEA). SAFETEA-LU authorized the Secretary of 
Transportation to make grants from this program directly to Indian 
Tribes and to allow Tribes to nominate Indian roads directly to FHWA 
(without going through a State department of transportation) for 
possible designation as a National Scenic Byway or an All-American 
Road.
    FHWA has participated in tribal transportation conferences to 
inform Tribes of these changes to the National Scenic Byways Program. 
FHWA also worked with the America's Byways Resource Center (in Duluth, 
Minnesota) to establish a tribal liaison position within the Resource 
Center to provide technical assistance to Indian Tribes for 
establishing tribal scenic byways programs and designating roads as 
Indian Tribe scenic byways.
    In addition, FHWA has modified its grant application procedures so 
Indian Tribes may submit grant applications directly to FHWA. In fiscal 
year 2009, Tribes submitted 10 applications directly to FHWA and two 
applications through the State departments of transportation, 
requesting a total of $1.85 million. The Department selected seven of 
the projects, providing a total of $945,232 in funding.

Public Lands Discretionary Program
    The Public Lands Highway Discretionary program provides funding to 
any project eligible under title 23, United States Code, which is 
within, adjacent to, or provides access to tribal or Federal public 
lands. It is another source of funding that is available to Tribes for 
their transportation needs. During SAFETEA-LU, nearly $480 million 
dollars was made available through this program. Of the $480 million, 
$52 million was provided for 62 tribal related transportation projects.

FHWA Implementation of SAFETEA-LU Requirements for Tribal 
        Transportation
    In addition to increased funding, SAFETEA-LU brought about many 
changes in how the IRR program is administered and to the roles and 
responsibilities of all parties involved in transportation delivery to 
tribal communities. Prior to SAFETEA-LU, FHWA's role was to provide 
stewardship and oversight to the IRR program from a national 
perspective, and the BIA's role was to work with the Tribes by 
delivering the funds and providing technical assistance. With the 
passage of SAFETEA-LU, Tribes now have the option to enter into IRR 
Program Funding Agreements and work directly with FHWA for their IRR 
Program share as long as they meet financial audit and management 
capacity requirements. The number of Tribes electing this option has 
grown from three the first year to more than 75 Tribes today, with 
several more Tribes expressing an interest to FHWA.
    In response to this increase in the number of Tribes, and increased 
stewardship and oversight responsibilities, the Federal Lands Highway 
(FLH) Office, which has direct responsibility for administering the IRR 
program, has increased staffing and worked closely with the Tribes to 
develop program guidance. In addition to carrying out numerous face-to-
face meetings with each Tribe and conducting outreach and training 
through webinars, regional conferences, and organized classes, FLH 
developed a new program manual for all Tribes, States, counties, and 
Federal agencies that communicates program expectations, roles and 
responsibilities, and best practices.

National Indian Reservation Road Inventory
    SAFETEA-LU directed FHWA to complete a comprehensive national 
inventory of IRR eligible transportation facilities and submit a Report 
to Congress. The purpose of the inventory study was to develop the true 
need and cost for tribal transportation, to ensure that the data in the 
existing inventory is accurate, and to help streamline the procedures 
that Tribes utilize for updating their inventory. The inventory is the 
most significant factor used to calculate the tribal shares of IRR 
program funding; thus, it is critical that data in the inventory be as 
accurate as possible.
    FHWA completed and delivered the required Report to Congress in 
2008. The Report outlined our assessment of the inventory process, 
including its accuracy and consistency of application. The Report 
included the identification of more than 100,000 miles of road as well 
as recommendations for improvement and additional study areas. Since 
issuance of the Report, the inventory has grown to more than 125,000 
miles of road. As a result of the Report and issues that have arisen 
from the Question 10 series of consultations, FHWA and BIA will work 
together to review more than 75 percent of the inventory data this 
coming year. This work will clarify programmatic definitions and 
correct inventory errors and omissions to produce a more accurate data 
system. Ultimately, the inventory will reflect the needs of tribal road 
transportation and serve as an important tool to help make the program 
fair and equitable for all tribes.

Outreach and Capacity Building
Road Safety Audits and Safety Trainings
    Strategies such as Road Safety Audits (RSAs) and community based 
enforcement are proving to be effective tools for reducing fatalities 
on tribal lands. The FHWA Office of Safety sponsors training on Road 
Safety Fundamentals and RSAs, and works with State and local 
jurisdictions and tribal governments to integrate RSAs into the project 
development process for new and existing roads and intersections.
    RSAs examine the safety performance of an existing or future road 
or intersection by an independent, multidisciplinary team. They 
estimate and report on potential road safety issues and identify 
opportunities for improvements in safety for all road users. RSAs 
enable localities and Indian tribes with little or no safety data to 
get an expert assessment on how to improve the safety of their roads.
    RSAs were funded by FHWA's Office of Safety from the Surface 
Transportation Research Development and Deployment Program for the 
following tribal organizations-- Tohono O'odham and Navajo Nations in 
Arizona; Santa Clara Pueblo and Jemez Springs Pueblo, New Mexico; 
Standing Rock Sioux, North Dakota; the Eastern Band of Cherokee 
Indians, North Carolina; the Navajo Nation, Utah; and Red Cliff Band of 
Lake Superior. These RSAs were carried out in cooperation with State 
DOTs.

Research and Development
    FHWA has launched a cross-functional initiative to address tribal 
transportation safety problems through research and practical 
applications. The project will support the development and adoption of 
the Tribal Safety Management System, which has been identified by a 
multi-agency committee as a key strategy to assist Native American 
Tribes in addressing transportation safety problems. The initiative 
will develop and implement comprehensive safety program templates that 
Tribes can use and tailor to their specific needs. The initiative also 
includes a pilot program in 3 tribal nations, the results of which will 
be included in a report showing the benefits, challenges, and lessons 
learned from the implementation of highway safety programs.

Tribal Technical Assistance Program
    Tribes report that education and training remain significant 
challenges. Many Tribes do not have a sustainable level of 
transportation expertise, given their size and resources. The FHWA 
supports a tribal transportation assistance program with seven centers 
serving Indian Country. These Tribal Technical Assistance Program 
(TTAP) centers provide a variety of training and professional 
development programs, technology updates, and technical assistance to 
enhance road management and safety. They are a key resource for basic 
services and to help many Tribes become self-sufficient as sovereign 
nations in transportation delivery. The purpose of our seven TTAP 
centers is to foster a safe, efficient, and environmentally sound 
surface transportation system by improving the skills and increasing 
the knowledge of local transportation professionals.
    FHWA, through the TTAPs, continues to provide technical assistance 
and training to Tribes on conducting their own RSAs. For example, FHWA 
has provided funding and support to the Northern Plains TTAP to sponsor 
a Road Safety Audit Outreach Coordinator, who has provided training and 
RSAs for the Spirit Lake Nation, the Winnebago Tribe of Nebraska, and 
others.
    While FHWA has remained focused on implementing SAFETEA-LU since 
its enactment, the Agency has also been recently hard at work ensuring 
that Tribes use the much needed supplemental resources provided by the 
Recovery Act.

American Recovery and Reinvestment Act of 2009
    In addition to SAFETEA-LU funding, the Recovery Act has 
supplemented funding for tribal communities by providing an additional 
$310 million for the IRR program. Since the Recovery Act was signed 
into law by President Obama on February 17, 2009, FHWA and BIA have 
worked diligently to ensure that the funds for these projects are 
distributed quickly, wisely, and with unprecedented transparency and 
accountability. The Federally-recognized Tribes were eligible to 
receive Recovery Act funding based on the IRR formula, which takes into 
account the highway projects' estimated construction cost, volume of 
traffic along the route, and the Tribe's current population. Much of 
the IRR portion of the Recovery Act has been dedicated to improving 
roads that provide critical links between tribal residences and vital 
community services such as schools and health care facilities. More 
than 99.9 percent of these Recovery Act were obligated.
    In the summer of 2009, the Blackfeet Indian Tribe awarded a project 
for $916,068 to improve a 14-mile segment of road known as the Starr 
School Road. This nearly-completed project will provide for a safer 
facility for school buses and other school traffic through sign 
replacement, new right of way fences, and new roadway striping. 
Drainage and pavement improvements will extend the life of the 
facility.
    On February 17, 2010, the one-year anniversary of the Recovery Act, 
Secretary LaHood announced $1.5 billion in Transportation Investment 
Generating Economic Recovery (TIGER) Grant awards for 51 projects 
nationwide. The Department could provide awards to fewer than 3 percent 
of the more than 1,400 applicants, who submitted more than $60 billion 
in applications for this $1.5 billion program.
    TIGER funds are being used for an important project in the Mission 
Valley in Lake County, Montana which overlays most of the Flathead 
Indian Reservation. This $12 million project is to upgrade city and 
county roads and increase the safety and transportation options in this 
predominantly rural area. Road paving and construction will improve 
connectivity and create a safer and more convenient transportation 
system for residents of the county and the Flathead Indian Reservation, 
including the Confederated Salish and Koontenai Tribes. The project 
also includes vital improvements to Skyline Drive, a road near the city 
of Polson, which the Montana DOT identified as a safety risk.
    FHWA, along with BIA and with input from Tribes, developed a 
process that described the requirements for Tribes to receive and 
obligate their share of Recovery Act funding and focused on assuring 
obligation of the majority of the $310 million before the end of this 
past fiscal year. FHWA and BIA developed guidance to ensure a fair and 
transparent process to redistribute funds for cases where funds would 
otherwise not get obligated. The redistribution of more than $22.5 
million to approximately 25 Tribes nationwide helped ensure the 
efficient and effective use of Recovery Act funds.

Conclusion
    Transportation is a critical tool for Tribes to improve the quality 
of life in their communities. The challenges are to maintain and 
improve transportation systems serving Indian lands and Alaska Native 
villages in order to provide safe and efficient transportation options 
for residents and access for visitor enjoyment, while at the same time 
protecting environmentally sensitive lands and cultural resources. The 
Department is committed to improving transportation access to and 
through tribal lands through stewardship of Federal Lands Highway 
programs by providing balanced, safe, and innovative roadways that 
blend into or enhance the existing environment; and by providing 
technical services to the transportation community. We are also 
committed to building more effective day-to-day working relationships 
with Indian Tribes, reflecting respect for the rights of self-
government and self-determination based on principles of tribal 
sovereignty.
    Members, thank you again for this opportunity to testify. I will be 
pleased to answer any questions you may have.

    Senator Tester. Thank you, John. Next we'll hear from the 
National Congress of American Indians, Jefferson Keel.

STATEMENT OF HON. JEFFERSON KEEL, PRESIDENT, NATIONAL CONGRESS 
                       OF AMERICA INDIANS

    Mr. Keel. Thank you, Senator. On behalf of National 
Congress of American Indians, I want to thank you for the 
opportunity to testify and provide information regarding the 
tribal transportation infrastructure. Thank you.
    Indian reservation roads comprise over 120,000 miles of 
public roads with multiple owners including the Bureau of 
Indian Affairs, Indian tribes, states and counties.
    Indian reservation roads are the most underdeveloped road 
network in the nation, yet it's the primary transportation 
systems for all residents of and visitors to American Indian 
land and Alaska Native communities.
    Over 66 percent of the system is unimproved earth and 
gravel. Approximately 24 percent of Indian reservation bridges 
were classified as deficient. In many places there are no roads 
and bridges to begin with, forcing huge travel distances on 
inadequate roads. These conditions make it very difficult for 
residents of tribal communities to travel to hospitals, stores, 
schools and employment centers.
    Next year we anticipate that Congress will reauthorize the 
federal transportation programs. And it's vital that the Indian 
Reservation Roads Program receives significant increases in 
funding. Lives and livelihoods depend on it.
    NCAI urges Congress to increase the funding for all tribal 
transportation programs to address the deficiency with road 
construction and maintenance, to continue to build upon the 
current infrastructure, and increase technical assistance to 
tribal governments.
    Indian people suffer from injury and death by driving and 
walking along reservation roadways with rates far above the 
national average, as you've already heard. Shocking data showed 
thousands of fatal motor vehicle crashes on Indian reservation 
roads and the trend is increasing. While the number of fatal 
crashes per year has declined 2.2 percent nationally, the 
number of fatal motor vehicle crashes on Indian reservations 
increased over 52 percent.
    American Indians also have the highest rate of pedestrian 
injury and death per capita of any racial or ethnic group in 
the United States.
    NCAI recommends that Congress use the 2 percent tribal 
funding set aside within the High Risk Rural Roads Program to 
create a new Tribal Traffic Safety Program. And increase the 
funding for Tribal Safety Program to $50 million annually and 
to improve the unsafe road systems on tribal lands.
    Indian country has over 741 public schools and over 82,000 
native students. The Bureau of Indian Education serves over 
50,000 students and 181 elementary and secondary schools. Many 
of these schools are located in remote and rural areas.
    The Safe Route to School program provides funds to states 
to improve the ability for primary/middle school students to 
safely walk and bike to school. Unfortunately BIE schools are 
not eligible for this program. There's no information on 
whether public schools in Indian country receive anything from 
the program.
    NCAI is encouraged that Congress is exploring alternate 
sources of revenue for the Highway Trust Fund. Simply put, the 
system is founded on a combination of federal gas taxes and 
state gas taxes. Indian reservation roads have not equitably 
benefitted from either of these sources of revenue.
    Given the dire conditions of reservation roads, it is 
unconscionable that the Reservation Roads Program does not 
enjoy parity with the amount given to other governments through 
the Highway Trust Fund. NCAI feels strongly that this inequity 
of distribution must be addressed in any system devised to fund 
transportation systems across the nation.
    NCAI is working with tribal governments to improve and 
build upon the successes of the last transportation 
reauthorization, because transportation infrastructure is vital 
to the enhancement of Indian governments and sovereignty.
    We look forward to working with this Committee on tribal-
specific transportation issues. Thank you.
    [The prepared statement of Mr. Keel follows:]

Prepared Statement of Hon. Jefferson Keel, President, National Congress 
                       of American Indians (NCAI)

    On behalf of the National Congress of American Indians (NCAI), 
thank you for the opportunity to testify on tribal transportation in 
Indian Country. NCAI is the oldest and largest national organization in 
the United States and is steadfastly dedicated to protecting the rights 
of tribal governments to achieve self-determination and self-
sufficiency. NCAI applauds the Senate Committee on Indian Affairs for 
examining the tribal transportation infrastructure. NCAI looks forward 
to working with members of this Committee to enhance investments in 
infrastructure development such as transportation.
    Indian Reservation Roads comprise over 120,000 miles of public 
roads with multiple owners, including the Bureau of Indian Affairs, 
Indian tribes, states and counties. Indian Reservation Roads are the 
most underdeveloped road network in the nation \1\--yet it is the 
primary transportation system for all residents of and visitors to 
American Indian and Alaska Native communities. Over 66 percent of the 
system is unimproved earth and gravel. Approximately 24 percent of 
Indian Reservation Roads Program (IRR) bridges are classified as 
deficient. These conditions make it very difficult for residents of 
tribal communities to travel to hospitals, stores, schools, and 
employment centers. \2\
---------------------------------------------------------------------------
    \1\ Bureau of Indian Affairs, Transportation Serving Native 
American Lands: TEA-21 Reauthorization Resource Paper (2003).
    \2\ Statement of John Baxtor, Administrator of Federal Lands, FHWA, 
U.S. DOT, Hearing on Transportation issues in Indian Country Before 
Senate Comm. on Indian Affairs, 110th Cong. 1 (2007).
---------------------------------------------------------------------------
    In 2005, the enactment of the Safe, Accountable, Flexible, 
Efficient Transportation Equity Act: A Legacy for Users (SAFETEA-LU), 
Public Law 109-59, authorized the U.S. Department of Transportation 
(USDOT) to administer and distribute billions of dollars of highway, 
transit and other transportation-related funding to federal, Tribal, 
state and local transportation departments. Included in SAFETEA-LU were 
several significant tribal provisions: providing an increase in funding 
for Indian Reservation Roads Program; creating a new specific funding 
set-aside to address the condition of bridges on tribal lands; 
initiating a new tribally-specific transit program that would provide 
much needed funding for tribes; and establishing within the office of 
the Transportation Secretary, a Deputy Assistant Secretary for Tribal 
Government Affairs to plan, coordinate, and implement the Department of 
Transportation policy and programs. In addition, SAFETEA-LU provided 
important changes in the IRR program. IRR funding can now be provided 
through a funding agreement in accordance with the Indian Self-
Determination and Education Assistance Act as long as the requesting 
tribal government has satisfactorily demonstrated financial stability 
and financial management to the Secretary of Transportation.
    Transportation infrastructure development is critical to economic 
development, creating jobs, and improving living conditions for 
individuals and families in Indian Country. Construction of 
transportation systems that allows for safe travel and promotes 
economic expansion will help us strengthen our tribal communities while 
at the same time making valuable contributions to much of rural 
America. Surface transportation in Indian Country involves thousands of 
miles of roads, bridges, and highways. It connects and serves both 
tribal and non-tribal communities.

Funding
    In SAFETEA-LU, tribal transportation programs within the Department 
of Transportation have received the following funding levels. Funding 
for the Indian Reservation Roads Program (IRR) was $300,000,000 for 
Fiscal Year 2005, and steadily increased each fiscal year to 
$450,000,000 for Fiscal Year 2009; funding for the IRR Bridge Program 
stayed at $14 million for Fiscal Years 2005 through 2009; Public 
Transportation on Indian Reservations Section 5311(c), was funded at 
$8,000,000 for Fiscal Year 2006, and gradually increased each fiscal 
year to $15,000,00 for Fiscal Year 2009. These funding levels were 
maintained in FY 2010 for tribal transportation programs through DOT.

Indian Reservation Roads Program
    The officials at the Departments of Interior and Transportation 
have recognized that transportation systems within Indian Country are 
suffering from a nearly $40 billion construction backlog. An equaling 
distressing deferred maintenance backlog exists for Tribal 
transportation facilities. Rising construction inflation rates continue 
to diminish the purchasing power of the limited federal funds currently 
provided to the IRR Program and other Tribal transportation programs. 
Even solid Tribal roads and bridges fall into disrepair and require 
costly reconstruction years before the end of their design life due to 
a lack of more cost-effective maintenance funding. Under any 
assessment, Tribal transportation programs remain severely underfunded 
and the construction and maintenance funding backlog will only get 
worse without significant funding increases during the next highway 
reauthorization period.
    To address the deficiencies of road construction and maintenance in 
the upcoming reauthorization, we encourage this Committee to recommend 
to Congress an increase in the funding level for IRR Program to 
$800,000,000 for Fiscal Year 2013; $850,000,000 for Fiscal Year 2014; 
$900,000,000 for Fiscal Year 2015; $950,000,000 for Fiscal Year 2016; 
$1,000,000,000 for Fiscal Year 2017; and $1,050,000,000 for Fiscal Year 
2018. For the IRR Bridge Program, NCAI recommends $75,000,000 for 
Fiscal Year 2013; $87,500,000 for Fiscal Year 2014; $100,000,000 for 
Fiscal Year 2015; $100,000,000 for Fiscal Year 2016; $100,000,000 for 
Fiscal Year 2017; and $100,000,000 for Fiscal Year 2018.

Public Transportation on Indian Reservations
    Since the enactment of SAFETEA-LU, the Transportation on Indian 
Reservations Section 5311(c), also known as the Tribal Transit Program, 
has been very successful. In the first year of operation, 63 tribes 
were awarded transit funding. This program brings severely needed 
transit services to Indian Country so that tribes can provide much 
needed transportation access to employment, health services, education, 
and business opportunities for tribal members.
    While tribal transit systems continue to develop and thrive, the 
funding authorized in SAFETEA-LU barely addresses the transit needs in 
Indian Country and tribal governments need additional funding to 
adequately address the transit services in Indian Country. NCAI 
recommends funding for the Tribal Transit Grant Program to be increased 
to $35 million for Fiscal Year 2013 with continuing increases of $10 
million for every year thereafter to $85 million. NCAI also recommends 
raising the cap for Transit Planning Grants to $50,000. Currently, 
tribes are capped at $25,000 to use for planning and design. This cap 
is a hindrance for tribes who do not possess the financial resources to 
initially establish a reliable transit system on their tribal land. 
SAFETEA-LU allowed Indian tribes to pursue improved public 
transportation for their tribal communities, however there continues to 
be significant need in Indian Country.

Tribal Technical Assistance Program (TTAP)
    The TTAPs are the only technical assistance program that provides 
much needed education, research, and training to tribal governments. 
There are currently 7 TTAP centers located around the country that 
serve all the tribes in different regions. TTAP is funded by both the 
Federal Highway Administration (FHWA) and Bureau of Indian Affairs 
(BIA). Currently, each TTAP receives $280,000 a year in total funding, 
which is comprised of $140,000 from the Local Technical Assistance 
Program and $140,000 from the IRR program. This totals about $1.9 
million for the overall TTAP funding each fiscal year to serve all 565 
federally-recognized tribes.
    To ensure that the TTAPs are able to meet the increased demand for 
their services as additional tribes assume responsibility for 
administering their transportation programs, NCAI recommends Congress 
to have the Department of Transportation institute a TTAP for each of 
the twelve BIA Regions. Additionally, NCAI recommends an increase to 
the overall funding of TTAPs from $1.9 million to $4.2 million each 
fiscal year. This much needed funding will assist each TTAP center to 
adequately address the increasing need for transportation technical 
assistances.

Safety
    State governments spend between $4,000 and $5,000 per road mile on 
maintaining state roads and highways. While in Indian Country, by 
contrast, road maintenance funding is less than $500 spent per road 
mile. Indian Country has an unmet immediate need of well over $258 
million in maintenance funding for roads and bridges, and $310 million 
in unmet need for new roads and bridges projects.
    Tribal members and communities are threatened by unsafe and often 
inaccessible roads, bridges and ferries. Indian people suffer from 
injury and death by driving and walking along reservation roadways at 
rates far above the national average. Data shows 5,962 fatal motor 
vehicle crashes were reported on Indian reservation roads between 1975 
and 2002 with 7,093 lives lost. \3\ The trend is on the increase, up 
nearly 25 percent to over 284 lives lost per year in the last five 
years of study. While the number of fatal crashes in the nation during 
the study period declined 2.2 percent, the number of fatal motor 
vehicle crashes per year on Indian reservations increased 52.5 percent. 
American Indians also have the highest rates of pedestrian injury and 
death per capita of any racial or ethnic group in the United States.
---------------------------------------------------------------------------
    \3\ Fatal Motor Vehicle Crashes on Indian Reservations, 1975-2002, 
April 2004, DOT HS 809 727, U.S. Department of Transportation, National 
Highway Traffic Safety Administration,
---------------------------------------------------------------------------
    Tribal communities share many similar concerns and obstacles as 
rural communities in addressing how to improve the safety needs. NCAI 
has worked diligently with tribal governments to find solutions for 
improving the safety and infrastructure of Indian Country. Presently, 
tribes receive a two-percent set aside of the total allocation from the 
National Highway Traffic Safety Administration; the funding is then 
allocated to BIA where the BIA Highway Indian Safety Program 
administers the programs. The purpose of this program is to assist 
tribes with their proposed highway safety projects, which are intended 
to reduce traffic crashes and impaired driving crashes; increase 
occupant protection education; provide emergency medical service 
training; and increase police traffic services. The two percent set 
aside is equivalent to $14 million annually, and it is a competitive 
grant process. NCAI has received concerns from tribal leaders about the 
inadequate effectiveness of the BIA Highway Indian Safety Program. In 
the past, there has been turnover of the directorship of the office and 
lack of guidance and support to tribes. For example, tribes have been 
denied the grant funding but they were not informed of the reasons for 
the denial, and tribes have contacted the office, and no one seems to 
be returning their phone calls.
    NCAI recommends Congress assist in confronting the high injury and 
fatalities on tribal roadways and to resolve the concerns about the BIA 
Highway Indian Safety Program by establishing a 2 percent Tribal 
funding set-aside within the High Risk Rural Roads Program, and create 
a new Tribal Traffic Safety Program within the FHWA-Federal Lands 
Highways office and within NHTSA, each funded at $50 million annually 
to dramatically reduce the incidence of death and injury on America's 
Indian reservation roads. The creation of these new programs would help 
to reduce the safety and behavioral problems that contribute to the 
high rates of death and injury on Indian reservation roads.

Safe Route to School
    The Safe Route to School Program \4\ was created under SAFETEA-LU 
within the FHWA and is administered by State Departments of 
Transportation. Each State has its own administering guidelines for 
applying for Safe Routes to School program. This program received a 
total of $612 million for the fiscal years of 2005 to 2009, and each 
State funding is formula based. The Safe Routes to School Program 
essentially provides funds to States to improve the ability for primary 
and middle school students to safely walk and bike to school. 
Furthermore, the program assists schools within a two-mile square 
radius, to plan, develop, and implement safety projects and activities 
to reduce traffic and fuel consumption; and encourage active 
lifestyles.
---------------------------------------------------------------------------
    \4\ Safe, Accountable, Flexible, Efficient Transportation Equity 
Act: A Legacy for Users, Pub. L. 109-59, Sec. 1404, 119 Stat. 1228, 86-
88 (2005)
---------------------------------------------------------------------------
    There are over 741 public schools located in American Indian and 
Alaskan Natives areas, with a total of 82,406 native students; and the 
Bureau of Indian Education serves approximately 50,155 native students 
at 181 elementary and secondary schools. \5\ Many of these schools are 
located in remote and rural areas, where students have to be bused for 
more than 50 miles.
---------------------------------------------------------------------------
    \5\ IES National Center for Educational Statistical Common Core of 
Data, Public and BIE elementary and secondary schools: number of 
schools and enrollment in the American Indian and Alaska Native Areas, 
2005-2006 and 2007-2008, Table 1, (2010), http://nces.ed.gov/ccd/
tables/ccd07_aia_schools.asp
---------------------------------------------------------------------------
    NCAI is supportive of programs that promote safety and active 
healthy lifestyles of school students. However, NCAI is concerned about 
the inability to know the number of schools on tribal lands who have 
successfully applied and been awarded funding under the Safe Route to 
School program. Since each State Transportation Departments and their 
coordinators administered the program, it is difficult to determine who 
and how many public schools on Indian reservations have benefited from 
this program. In addition, the Bureau of Indian Education (BIE) schools 
are not eligible to receive this funding.
    NCAI recommends this Committee consider amending the statutory 
language of the Safe Route School Program to enable BIE schools to be 
eligible to receive funding; to create a tribal set-aside for public, 
bureau, charter, impact-aid and grant schools on tribal lands to be 
able to participate in this program; and to increase two mile radius 
requirement. Naturally, this produces additional questions on the issue 
of who would administer this program for these schools, and the amount 
of funding. NCAI looks forward to working with this Committee on this 
matter.

Gas Excise Tax
    To date, there are over 120,000 miles in the Indian Reservation 
Roads (IRR) system but yet it is the most underdeveloped road network 
in the nation, \6\ and it is the primary transportation system for all 
residents of and visitors to American Indian and Alaska Native 
communities. Over two-thirds of the roads on the system are unimproved 
dirt or gravel roads, and less than 12 percent of IRR roads are rated 
as good. \7\ The condition of IRR bridges is equally troubling. Over 25 
percent of bridges on the system are structurally deficient. \8\
---------------------------------------------------------------------------
    \6\ Bureau of Indian Affairs, Transportation Serving Native 
American Lands: TEA-21 Reauthorization Resource Paper (2003) 
(attached).
    \7\ Id.
    \8\ Id.
---------------------------------------------------------------------------
    Tribal economies, education systems, health care and social service 
programs are threatened by unsafe and often inaccessible roads, bridges 
and ferries. A recent Federal traffic safety study showed that Indian 
tribes suffer the highest per capita traffic fatality rate in the 
Nation, more than four times the national average. \9\ Each year, 
drivers on the IRR system travel over 2 billion vehicle miles on a 
system that is a clear health and safety hazard for our communities and 
an impediment to meaningful economic development. \10\
---------------------------------------------------------------------------
    \9\ National Center for Statistics and Analysis, Fatal Motor 
Vehicle Crashes on Indian Reservations: 1975-2002, (2004)
    \10\ BIA Paper, supra note 1.
---------------------------------------------------------------------------
Funding for Tribal Transportation Systems
    The current scheme for funding surface transportation in the United 
States is based on a federal-state motor fuel taxation regime that 
precludes tribes from participating in the system on an equitable 
basis. While the system of using federal fuel tax revenue for road 
construction and state fuel tax revenue for maintenance has worked to 
dramatically improve roads in many parts of the nation, it has failed 
miserably in Indian Country.
    Like states, Indian tribes receive some funding for road 
construction from the federal Highway Trust Fund, but the amount given 
to tribes is much less than what states receive. Currently, Indian 
Reservation Roads make up nearly three percent of federal roadways, but 
they receive less than 0.5 percent of total federal highway funding. 
\11\ At the current funding levels, the IRR program receives only about 
half the amount per road mile that states receive.
---------------------------------------------------------------------------
    \11\ U.S. Dept. of Transportation, Federal Highway Administration, 
TEA-21, A Summary (1998).
---------------------------------------------------------------------------
    The Federal Government also makes some funds available to tribes 
for IRR maintenance under the BIA Maintenance Program. This Program is 
also woefully inadequate. The BIA spends less than $1000 per mile for 
road maintenance, compared to estimates of $4000-$5000 per mile used by 
states to fund non-IRR maintenance. \12\ Moreover, the states, who 
receive federal funding for their own roads that fall within 
reservations, frequently shirk their obligation to improve or maintain 
these roads and instead siphon off the funds for use elsewhere. \13\
---------------------------------------------------------------------------
    \12\ Brief of Amicus Curiae the Inter-tribal Transportation 
Association in Wagnon v. Prairie Band of Potawatomi, available at 
http://www.narf.org/sct/richardsvpbp/ITA%20amicus%20final.pdf.
    \13\ Id.
---------------------------------------------------------------------------
    Faced with a severe inadequacy of funding from federal and state 
sources, tribal governments have looked for other sources of revenue, 
including levying their own motor fuel taxes. While tribes have the 
same authority as other governments to collect taxes, the ability of 
tribes to tax fuel on tribal lands has been severely diminished by the 
Supreme Court. The Court has upheld the authority of the states to 
reach onto tribal land to collect a state motor fuel tax. The dual 
taxation that would result if both states and tribes impose a motor 
fuel tax makes it impractical for tribes to generate revenue through 
motor fuel taxes. Although some tribes and states have been able to 
negotiate motor fuel tax revenue-sharing agreements, those cases are 
the exception rather than the rule. In most areas, the state 
governments' collection of motor fuel taxes in Indian country displaces 
the ability of tribal governments to collect motor fuel taxes.
    NCAI encourages this Committee to explore alternate sources of 
revenue for reservations roads. Given the dire conditions of 
reservation roads, it is unconscionable that the IRR program does not 
enjoy parity with the amount given to other governments through the 
Highway Trust Fund. NCAI feels strongly that this inequity of 
distribution must be addressed in whatever new system is devised to 
fund transportation systems across the nation. In addition, if motor 
fuel taxes are to remain the primary source of funding for road 
construction and maintenance, we urge the Committee to recommend that 
Congress clarify authority of Indian tribes to collect this tax on 
tribal lands. Finally, if the Committee recommends a dramatic change to 
the way revenue is raised for transportation costs, NCAI recommends 
that any such system be devised in a manner that treats Indian tribal 
governments equitably and gives them the same authority as state and 
local governments to raise revenue to fund the costs associated with 
building and maintaining transportation infrastructure.

Conclusion
    NCAI is committed to working with tribal governments to improve and 
build upon the successes of the last authorization of SAFETEA-LU 
because transportation infrastructure is vital to the enhancement of 
Indian tribal governments. Strengthening tribal governments and their 
communities by providing safe and reliable transportation 
infrastructure is essential for communities to prosper.

    Senator Tester. Thank you, Jefferson. We'll start out with 
you, Larry. You talked about the Question 10 and that you've 
had ten consultation sessions, and correct me if I'm wrong, 
across the U.S. Can you give me an idea of where you've held 
them and what kind of participation you've had. Because tribal 
consultations are critically important as we move forward and 
address that issue.
    Mr. Echo Hawk. Senator Tester, we've had ten of those 
consultations sessions. We tried to make sure they were located 
in different regions to provide tribal officials access. And we 
presently have going about, I think, more than half a dozen 
different subjects on consultations. And I'm not able to attend 
personally all. I did attend one in Alaska.
    And I'd like LeRoy Gishi maybe to respond to more details 
about how those consultation sessions were carried out.
    Senator Tester. That would be great. LeRoy.
    Mr. Gishi. Thank you, Senator Tester.
    Yes, we had ten consultation sessions in the 12 regions 
that are associated with the BIA Region offices. And we can 
provide a list of those. Off of my head, I can think of only a 
few. But we did have those.
    Primarily, what we did is the same presentation. So it gave 
the opportunity for tribes to be able to get the same content 
of what is in the presentation and publish the agenda and the 
presentation was published as part of the Federal Register, so 
that everybody had an opportunity to ask questions and also 
comment. And that process will continue as we go through the 
implementation process.
    Senator Tester. Couple questions. How much participation?
    Mr. Gishi. We generally got on the average of about 50 to 
60 at each location with a high of 138 in one of the locations.
    Senator Tester. Do you have plans to do many more?
    Mr. Gishi. We will continue as a part of the process of 
this consultation to make sure that meetings like this morning 
are available where we're able to come and provide questions. 
And as the process continues, as more information is provided, 
it will be provided in the consultations.
    Senator Tester. Okay. And you can continue or you can kick 
it back to Larry. Is there any sort of pattern starting to 
develop as far as the Question 10 as far as solutions for it?
    Mr. Gishi. In general, what we were doing was providing 
information for the purposes, of course, for the tribes to be 
able to have input into this. As we've gone through these ten 
sessions, we received various comments that are generally 
everywhere from in favor to opposition. That's part of the 
process that we're hoping to be able to get. We realize as we 
go through this, we will continue to get more, because for 
tribes in many cases to provide a final assessment or comment 
on things, at this point is premature because this 
implementation process has been over a year, and basically over 
the next two years.
    Senator Tester. So maybe I should rephrase the question. 
Has the input been positive towards it, negative towards it, or 
what has the input been towards Question 10?
    Mr. Gishi. In general what we've found is that the tribal 
leaderships have identified and always and certainly reserve 
the right to continue to have comments. But in many cases have 
indicated that they understand that there is a process. That 
this was referred to the leadership of both Indian Affairs and 
the Federal Highway Administration for the purpose of providing 
a plan. And for that reason, they were in favor of moving 
forward with what was there.
    Senator Tester. Okay. Larry, you talked about the Recovery 
Act briefly in your statement today. You talked about the fact 
that there were hundreds of millions of dollars put out, 99.9 
percent. And you need to be commended for that as obligated.
    Can you give me an example of some of the projects? Were 
they primarily highway projects, bridge projects? What kind of 
projects are we talking about? And you can pass that over to 
Michael if you want.
    Mr. Black. Thanks, Senator. We were able to, through the 
ARRA program, work approximately 400 repair and restoration 
projects, probably about 141 million, which was largely through 
the Road Maintenance Program on bridges and roads. And in 
addition, over 420 projects through the IRR Construction 
Program and for a total of about $225 million.
    It has enabled us to make a big difference out there on our 
transportation systems. A good example of that would be the 
Chippewa Cree Route 6 project, which was brought to us as a 
proposed project to be funded through ARRA. It had a lot of 
major safety concerns. We were able to reach a distribution 
process of approximately $1.7 million toward that project.
    Senator Tester. Overall, do you have any idea of how many 
jobs were either saved or created by those dollars?
    Mr. Black. I don't have that figure. We can provide that to 
you.
    Senator Tester. That'd be great. Thank you.
    Last question as it applies to your group, Larry. We will 
be working on a highway bill reauthorization. It's been talked 
about by the other panels up here. How do you plan to include 
tribes and getting their perspective as far as that Highway 
Bill when it comes up?
    Mr. Gishi. Thank you, Senator Tester. The process that we 
went through--The Indian Reservation Road Program and Highway 
Program, and we will continue to work with not only the Federal 
Lands Highway Program with Mr. Baxter and Mr. Sparrow, but also 
through the administration we have with other agencies' 
programs within Interior, including the National Parks Program 
of the National Park Service. And those will come through the 
Interior Department. And certainly in that process we have 
access to the TRIP Act, and we know what tribes are looking at 
relative to that. And those are things that are certainly a big 
part of what the administration will be looking at.
    Senator Tester. Well, I have a ton of different tribes, 
we're going to hear from some folks here in this next panel. 
And I guess the question is, do you have an outreach method 
that you utilize to reach out to tribes in both rural and urban 
America to make sure that the Highway Bill meets the needs once 
we get to the floor of the Senate or the Committee?
    Mr. Echo Hawk. Senator Tester, from my perspective the 
coordinating committee that we've got that represents all 
regions is a primary conduit that we have for receiving 
information. And I would hope that they would be very active in 
working with us to make sure that we're receiving guidance. In 
addition to that, I'd just like to assure the Senator that I'm 
travelling across Indian country, going into communities, and 
it seems like tribes regularly talk to me about the 
transportation needs. So I feel like I have a pretty good 
network of communications with tribal leaders.
    Senator Tester. Very good. Thank you, Larry. I appreciate 
that. And appreciate both you fellows for being here. John, do 
you want to add to that? John Baxter.
    Mr. Baxter. I want to add that over the past several months 
Secretary LaHood has had a series of town hall meetings on 
reauthorization. And as part of that process has invited the 
tribal community into that discussion and for testimony to be 
heard throughout that process. So we will continue to have that 
effective outreach with the tribal nations.
    Senator Tester. Okay. That's good and as long you've got 
the microphone, I'll just keep going.
    Mr. Baxter. Sure.
    Senator Tester. We've got the folks and Larry Echo Hawk 
that are doing some outreach obviously. You have methods and 
you're doing some outreach with Ray LaHood. Do you have the 
ability to gather the information that these guys are gathering 
when you're working on a proposal?
    Mr. Baxter. We do. And oftentimes, we're meeting with them 
and outreaching with them. We certainly have the Indian 
Reservation Roads coordinating committee as a critical 
communications piece for all of us to utilize.
    Senator Tester. Good.
    Mr. Baxter. We have the consultation process that the 
Department of Transportation recently adopted, which 
reinforces, I think, the outreach effort that we already had in 
the past.
    But in every effort we have opportunities with senior 
leadership to visit in Indian country and to participate in 
national conferences. And oftentimes at these conferences we 
will meet with tribal representatives and leadership to hear 
their issues face-to-face, one-on-one, and to get information 
on that process as well.
    Senator Tester. Because I think it's critically important, 
as you can tell by that question, that you have tribal 
consultations from the folks that are living it every day. So 
that's important. John, as long as you have the mic, one of the 
first statements you talked about in your testimony was that 
fatality is three times the national average on Indian roads. 
Can you pick out one or two things as to why this is the case?
    Mr. Baxter. There are a number of reasons the average is 
higher than you would see elsewhere. Native Americans are over-
represented in certain categories of fatalities. There's a 
mention of pedestrians as one of those categories. DUI 
fatalities is another category. Speed fatalities, 35 years and 
younger. So there are certain categories where we know that the 
Native American population is over-represented. And that's why 
our behavioral programs as well as our technical programs are 
targeted toward those areas where we see the greatest need.
    Senator Tester. Okay. We will get to Jefferson Keel. He has 
some statistics to define that. I'll get to Jefferson in a 
second. Have you been in on the Question 10 consultations over 
the summer?
    Mr. Baxter. Extensively, yes.
    Senator Tester. What have you learned?
    Mr. Baxter. Well, I think there's a couple things we have 
learned about Question 10. One is it's a complex issue. This 
has been in discussion since I've been in my position almost 
four years ago, and it wasn't resolved at the point through the 
Indian Reservation Roads Committee, and almost four years later 
we're still working that issue. So we know there's a complexity 
to it.
    We also know there's a divergence of opinion across Indian 
country as to what the next step should be. And that's also 
been a challenge to work through the issue and facilitate and 
negotiate that issue.
    We know that we need to resolve the issue. We need to move 
forward beyond Q-10. We are in the midst of looking at 
reauthorization needs for the next legislative cycle. And the 
more we're discussing and debated the Q-10 issue, that takes 
energy and time away from the more important broader concepts 
that we need to look forward towards the reauthorization needs 
of Indian country for the next several years.
    Senator Tester. Okay. Can you give me your perspective on 
the Recovery Act and what it's done for Indian roads?
    Mr. Baxter. I think the Recovery Act is a major success 
story in Indian country. As was already alluded to, we 
obligated 99.9 percent of over $310 million of funds that were 
given to us.
    What we haven't stated is that's on top of a program for 
regular Indian reservation funds program of $450 million. Three 
years ago we had unobligated funds of over $200 million. Now 
we've got that down to a very reasonable level from last year 
to this year. We've kept that balance down, so the net result 
is we delivered a $450 million-plus program, plus $310 million 
on top of that over the last year and a half. That is a 
tremendous accomplishment for this program, for the tribal 
nations that participated in the program and for the Bureau of 
Indian Affairs and Federal Highway Administration in delivery 
of that program.
    So I see it as a major success story. I think what it shows 
is that needs are great and the ability to deliver on the 
program is great as well. And it's growing. It's grown since 
the beginning of SAFETEA-LU, $275 million. This year we've 
delivered over $700 million. So that's a significant statement.
    Senator Tester. Yes. Are you familiar with the position, 
and I think I've got the name right, Deputy Assistant Secretary 
of Tribal Transportation?
    Mr. Baxter. Yes.
    Senator Tester. Can you give me any idea, is that position 
filled at this point in time?
    Mr. Baxter. It's not yet. I just checked on it this week, 
and understand that that position is in process with the White 
House and we expect the selection in the near future.
    Senator Tester. How near is ``near future?''
    Mr. Baxter. Don't know.
    Senator Tester. Well, I would just say that I encourage you 
to fill that position. I think it's really important as far as 
conduit goes.
    Mr. Baxter. Absolutely.
    Senator Tester. Okay. Jefferson, let's talk about Question 
10 for a second, because you're in an interesting position that 
you do represent urban and rural tribes. Can you just give me 
your perspective on that fix and if it's reasonable?
    Mr. Keel. Senator, in terms of the Question 10, NCAI 
doesn't officially take a position. We represent over 250 
tribes, and in that process there's going to be winners and 
losers if there's a change in the formula.
    The official position would be that NCAI believes that any 
fix should be coordinated with tribal leaders. It should be 
fair and equitable. And as you've heard, tribal leaders believe 
there is a fix on the way, and they understand that they're 
working through the program. But at the same time, there's a 
difference and there's no common ground in many areas.
    There are tribal leaders who are very staunchly opposing 
any fix. There are those who believe it should be changed 
immediately. So NCAI's position is that we will work to 
coordinate and facilitate any of those meetings and work with 
all of those parties concerned to make sure we get to the point 
where it is equitable and it's fair in how it's distributed.
    Senator Tester. Okay. We've heard from folks from 
transportation. We've heard from folks from Interior about 
outreach. Honest assessment is--You know, this is an age of 
cooperation we live in. And I think it's critically important 
we have collaboration. How has the tribal consultation been 
from your perspective as it applies to highways?
    Mr. Keel. I believe that the consultations, as you've 
heard, have been positive. I'm not so sure that we've had 
enough. I know that those consultations need to continue. There 
are often concerns about the level of consultations in terms of 
how the information is distributed, how it's received and the 
inclusion of the tribal leaders in trying to develop a fix.
    In terms of collaboration, I think that it's very difficult 
to get consensus in every or any region regardless of where 
those consultations occur. I believe honestly that tribal 
leaders will agree that there needs to be a fix. But I believe 
there is still going to be a process where it's going to be 
very difficult to change the formula to something that not only 
is easily understood, because I believe that many tribal 
leaders simply don't understand how that formula is derived and 
developed.
    Senator Tester. And for good reason.
    Mr. Keel. Probably so. Well, historically tribes have never 
been involved in the process. And so I think tribal leaders are 
now are becoming more and more sophisticated and more and more 
involved, and they're able to not only acquire or hire or get 
experts to come and assist them, but they're actually more and 
more able to participate in those developments. And I think 
that's a positive.
    Senator Tester. I agree. And I'll just tell you from my 
perspective that reaching out, getting input is critically 
important. I think you guys are doing it. I think you need to 
do more of it and do it to the best of your ability.
    It was pointed out to me earlier today at a meeting I was 
at, and that is, the legislative process isn't such where 
everybody wins. I mean, you go in and negotiate and collaborate 
and take input and you make the best call you can. And that's 
the best you can do.
    Jefferson, from your position with NCAI, do you guys have 
priorities for the next Highway Bill, and if you do, what are 
they?
    Mr. Keel. Well, again we would ask that there be a 2 
percent set aside for the safety program. I think I outlined in 
my oral testimony what some of those priorities were. We would 
ask that the tribes receive some of the equitable funding from 
the federal and state gas taxes, how that highway trust fund is 
developed and how it's distributed.
    Senator Tester. Okay. Last thing, and then we'll move on. 
In your testimony you put forth some information that said 
fatalities throughout the country were decreasing at 2.2 
percent and increasing in Indian country by 52 percent. That's 
a stunning statistic.
    First question is, what period was that gauged over, number 
one? And number two, why?
    Mr. Keel. The period was actually from 2000--Those are 2007 
numbers.
    I believe that there's $14 million set aside for the Tribal 
Safety Program. That's a competitive process. Many times tribes 
have to apply for grants. Many times tribes aren't able to 
apply for those grants in a timely fashion, therefore they 
don't receive the funding. Oftentimes when tribes don't receive 
the grant and they call to find out why, they don't receive an 
adequate answer. That's not the reason why fatalities 
increased. That's the reason we don't get technical assistance 
to help us plan better and utilize the systems that we have 
within.
    Senator Tester. Okay. Well, thank you very much. I want to 
thank all the folks that were on this panel. I very much 
appreciate it. Thank you very much for being here.
    Now, we'll have the next panel come up. We're going to do 
this transition real quick.
    Thank you all very much. The next panel consists of the 
Honorable E.T. Bud Moran who is Chairman of the Confederated 
Salish and Kootenai tribes right here in this neck of the 
woods, Pablo, Montana.
    Beside him we have Mr. James Steele, Jr., Chairman of the 
Montana-Wyoming Tribal Leaders Council. And that organization 
is headquartered in the town of Billings.
    Beside him we're going to have Timothy Rosette, who's Chief 
of the Environmental Health Division of the Chippewa-Cree tribe 
of the Rocky Boy reservation. And there's Mark Selder.
    And then once again, last but certainly not least, we've 
got John Smith, the Director of the Division of Transportation, 
Eastern Shoshone and Northern Arapaho Tribes in Fort Washakie, 
Wyoming.
    The same rules apply here. Before I start with Chairman 
Moran, I want to remind you all to restrict your oral comments 
to five minutes. We will make your complete written statement a 
part of the official record. But for your testimony, I'd like 
your statements to be about five minutes. And if you could do 
that, we'd be forever grateful.
    So, Bud, you're first.

 STATEMENT OF HON. E.T. ``BUD'' MORAN, CHAIRMAN, CONFEDERATED 
                   SALISH AND KOOTENAI TRIBES

    Mr. Moran. Senator Tester, George Waters wanted to be here 
to accompany me.
    Senator Tester. Absolutely. George Waters is welcome 
anywhere.
    Mr. Moran. Senator Tester and distinguished guests, I have 
submitted a detailed statement for the record and will now 
summarize my testimony.
    It is an honor to be hosting this hearing on our 
reservation. I'm pleased to present this statement representing 
the position of my tribes on transportation issues of the 
Salish and Kootenai people.
    I ask that you please relay my regards to Committee 
Chairman Dorgan. He's been a great advocate for the Indian 
people with his pending retirement from the Senate. Please let 
him know we will miss him and wish him the best of luck.
    I also have to send my regards to Senator Barrasso. We have 
also appreciated his support.
    For too long much of the basic infrastructure of almost 
every Indian reservation in the United States was simply 
overlooked. The things most Americans take for granted are 
lacking on our homelands. Many do not have decent roads, 
drinking water, sanitation systems or communications. Many do 
not have broadband or decent cell phone coverage. While all of 
us, and I'm sure every member of the U.S. Congress, would like 
to see Indian people become more self sufficient and to raise 
levels of employment on our reservations, these things are not 
possible without basic infrastructure.
    Nationally there's a lacking backlog of about $13 billion 
for BIA road systems and tribal roads to bring existing roads 
up to adequate design standards. Indian tribes still have the 
highest vehicle and pedestrian fatality rates found anywhere in 
the country, and in a number of areas they are three to four 
times the national average.
    Beyond the issue of road construction is a profound problem 
of road maintenance. Not only has the Bureau of Indian Affairs 
road maintenance been underfunded but it has been stagnant at a 
rate of $26 million annually for the entire United States for 
at least two decades. This is really a serious problem on the 
Flathead Reservation, as I am sure it is elsewhere. We have 
been getting only $190,000 a year for road maintenance for the 
past six years.
    Over the course of the last two years, Senator Dorgan 
circulated a discussion draft known as the TRIP Act. The 
discussion draft contained many provisions that would be 
tremendously helpful to the Indian tribes. And I've highlighted 
some of these sections in my written statement.
    I understand the positive nature of many provisions 
contained in the TRIP Act; I would not support it being 
introduced next year without a number of changes.
    The Indian reservation road formula is broken. It will gain 
nothing from the TRIP Act if it is not fixed. Let me give a 
rather startling example of why I feel this strongly. Prior to 
the enactment of SAFETEA-LU, the national funding level for the 
Indian reservation roads was $275 million a year. Of that 
amount the tribes in the Rocky Mountain Region, all tribes in 
Montana and Wyoming except Salish-Kootenai who are in the 
Northwest Region, got $20 million.
    With the increase authorization in SAFETEA-LU, the national 
funding level for Indian reservation roads increased to 450 
million. After that significant national increase, the Rocky 
Mountain Tribes' total allocation was 19 million. Yes, with 175 
million national increase, the Rocky Mountain Region lost 
money. This is the region with most of the largest reservations 
and the most miles of roads of any in the country.
    On the Flathead Indian Reservation in 2006, we received 1.3 
million from the formula. In 2010 we will likely be receiving 
only 750,000 for a 1.3 million reservation.
    I don't understand how this is possible or how the BIA has 
not put an immediate halt to this drain of money from Tribal 
and BIA roads. This is because the Indian Reservation Roads 
Inventory is being unethically and improperly manipulated by 
tribes and states that have learned how to game the system by 
adding thousands of miles of roads to the inventory. This needs 
to stop and it should stop today.
    It does not require an act of Congress or even a new 
regulation. It simply requires the BIA to stop pretending this 
is not a crisis and to stop allowing the Indian Reservation 
Roads Inventory System to be manipulated.
    So while there are Indian people on the reservations who 
can't get to their jobs or their schools or to the hospital due 
to impassable roads, we have a situation where BIA roads funds 
are being used to supplant a state's responsibility for its own 
interstate highway system. A system and a road for which the 
state undoubtedly receives Federal Highway Trust Funds.
    Mr. Chairman, my submitted testimony also discusses an 
Interior Inspector General's report that found major 
inaccuracies in BIA road inventory and its claimed increases in 
roads in the inventory. My testimony discusses roads that are 
proposed to be constructed in areas that will never allow such 
construction. These discrepancies cannot be ignored and should 
not continue.
    In conclusion, I want to again thank the Committee and 
Senator Tester for convening this hearing. Transportation 
directly affects health, safety, and economic matters including 
jobs and the ability to attract businesses. Safe roads allow us 
to remain connected as a tribal people. I want to thank you. 
And we will continue our support of positive changes to the 
Indian Reservation Road System. And we will keep current.
    [The prepared statement of Mr. Moran follows:]

 Prepared Statement of Hon. E.T.``Bud'' Moran, Chairman, Confederated 
                       Salish and Kootenai Tribes

    Senator Tester and distinguished guests; as I said in my welcoming 
statement, it is an honor to be hosting this hearing on our Reservation 
and I am pleased to present this statement representing the position of 
my Tribes on transportation concerns and priorities of the Salish and 
Kootenai people. I ask that you please relay my regards to Committee 
Chairman Dorgan. He has been a great advocate for the Indian people and 
with his pending retirement from the Senate, please let him know that 
we will miss him and we wish him the best of luck in whatever venture 
he decides to pursue. I also ask that you send my regards to Senator 
Barrasso of Wyoming, the Ranking Member on this Committee. We have also 
appreciated his advocacy and understanding of our issues.
    Let me start by stating that for far too long much of the basic 
infrastructure of almost every Indian Reservation in the United States 
was simply overlooked. The things that most Americans take for granted 
often are lacking on our homelands. Many do not have decent roads, 
drinking water and sanitation systems, or communications. Many do not 
have broadband or decent cell phone coverage. While all of us--and I am 
sure every member of the U.S. Congress--would like to see the Indian 
people become more self sufficient and to raise levels of employment on 
our Reservations those things often are just not possible without basic 
infrastructure. I am always glad when Congress enacts legislation that 
might, for instance, include tax breaks or accelerated depreciation for 
businesses that locate on Indian reservations, however the truth is 
that you can enact tax breaks all day long but until we can ensure a 
business that they will have access to good infrastructure, none of 
them are likely to chose to build a business on reservation lands. You 
have probably heard the old story about a tourist out west who pulls 
into gas station and asks where the local Indian reservation starts. 
The answer is ``the reservation starts where the highway ends.'' For 
many decades that was not just a joke but a pretty accurate portrayal 
of the roads in Indian County. Now things have gotten better, 
particularly on the Flathead Reservation but there are still many roads 
here--and it is worse on most other Indian reservations--where the 
roads are severely substandard. The FY 2009 Indian Reservation Roads 
Program Relative Needs Distribution Factors Report found a backlog of 
$13 billion for BIA system and Tribal roads to bring existing roads up 
to adequate design standards. Indian tribes still have the highest 
vehicle and pedestrian fatality rates found anywhere in the country and 
in a number of areas are three to four times the national average. The 
leading cause of death in many Indian communities is fatal car crashes 
and much of that is related to road conditions including both design 
and lack of maintenance. The problem is worsened when a responding 
ambulance (when there even is one), has to deal with the same roads and 
is delayed in its response. There are many studies showing the extent 
to which reservation roads are underfunded and poorly maintained when 
compared to comparable roads in off-reservation communities and urban 
areas.
    The $310 million included in the American Recovery and Reinvestment 
Act for Indian reservation roads was most appreciated and we thank 
President Obama and the Congress for enacting that bill. We were able 
to address some of our backlog of needed road repair and in so doing 
created much needed employment. We also were able to use ARRA funds for 
a bus transit project we've worked on together with the State of 
Montana.
    Beyond the issue of road construction is a profound problem 
throughout all of Indian country relative to road maintenance. Not only 
has the Bureau of Indian Affairs (BIA) road maintenance program been 
underfunded but it has been stagnant at a rate of $26 million annually 
for the entire United States for at least two decades. This is really a 
serious problem on the Flathead Reservation as I am sure it is 
elsewhere. We have been getting only $190,000 a year for maintenance 
for the past six years. When some of earlier highway bills such as TEA-
21 were enacted that included construction money from the Department of 
Transportation for Indian Country there was an understanding that those 
funds would supplement the budget of the Transportation Office of the 
Bureau of Indian Affairs, that the BIA would not be allowed to use new 
DOT funding to supplant existing BIA roads funds and that the BIA would 
continue to be primarily responsible for maintenance. The BIA did not 
live up to its end of that bargain and now, due to the totally 
unrealistic funding for maintenance from the Bureau, tribes had to 
secure a provision in the SAFETEA-LU bill of 2005 allowing them to 
reprogram up to 25 percent of their road construction money for 
maintenance. That legislation included language directing the BIA to 
continue to be primarily responsible for maintenance but as you can see 
from the stagnant $26 million figure, the BIA, no doubt with pressure 
from OMB, has shirked that responsibility. So as a result, not only are 
roads in Indian County dangerous due to lack of maintenance but they 
fall apart more quickly and then have to be rebuilt at far greater 
costs than if they had been maintained and resurfaced.
    This year Congress was not able to enact a Highway Bill and the 
present program is funded only through the end of calendar year. We 
certainly hope it will be extended and that during the next Congress 
you will enact a Highway Reauthorization Bill. It is critical that such 
a bill includes a major Indian title, as has been the case for at least 
the last three Highway Authorization bills, and that you include Indian 
tribes throughout as much of the bill as is possible ensuring that we 
can access all appropriate programs. Over the course of the last two 
years Senator Dorgan circulated a discussion draft which was a 
comprehensive amendment to SAFETEA-LU known as the Tribal 
Reauthorization of Indian Programs or simply the TRIP Act. The 
discussion draft contained many provisions that would be tremendously 
helpful to Indian tribes including increased appropriations for the 
Indian Reservation Road (IRR) program to $800 million with stepped 
increases that would take the program to $1 billion annually by FY 
2015. It included significant increases for the Tribal Transit Program 
and the Tribal Bridge Program and established a Reservation Safety 
Program. It ensured increases in reservation road maintenance funding; 
allowed tribal access to other Federal programs and allows utilization 
of the Indian Self Determination Act as a vehicle for directly 
accessing DOT funds. Beyond these positive provisions that were in the 
TRIP Act there are various additional provisions we would like to see 
in the next highway bill. We support the increases proposed for transit 
and as stated above we used some ARRA funding to upgrade and purchase 
transit equipment but that money came through the State of Montana and 
they require matching funds on our part to operate the buses, so we 
hope there can be some money dedicated to tribal transit services in 
addition to equipment.
    Somehow there also needs to be a requirement for counties and 
states to coordinate with tribes relative to roads that cross 
reservations where there are varying governmental entities, state, 
tribes and counties that might have jurisdiction over a the same but at 
various points along that road. We can't have one entity maintaining a 
road for a two mile stretch and then have a different entity ignore 
that same road in the next two mile segment. All transportation 
agencies need funding but there needs to be some direction for 
coordinating. Perhaps with the acceptance of Federal funds would 
require a commitment for coordination and an annual report describing 
that coordination.
    Senator Tester, while I hope that you introduce the TRIP Act early 
next year, and while I understand the positive nature of many of the 
provisions contained in the conceptual Dorgan draft, I would not 
support your actions in introducing it if you did not first make a 
number of key changes. The IRR formula that the BIA is using, and that 
the Federal Land Highway Office is supporting, is now broken and we 
will gain nothing from the TRIP Act if you don't fix it. Let me give a 
rather startling example of why I feel this strongly.

        Prior to the enactment of SAFETEA-LU, the national funding 
        level for the IRR was $275 million a year. Of that amount the 
        Tribes in the Rocky Mountain Region (all tribes in Montana and 
        Wyoming, except CSKT who are in the NW Region), got $20 
        million. With the increased authorization in SAFETEA-LU the 
        national funding level for the IRR increased to $450 million. 
        After that significant national increase the Rocky Mountain 
        Tribes total allocation was $19 million. Yes, with a $175 
        million national increase, the Rocky Mountain Region tribes 
        lost money! This is the region with some of the largest 
        reservations and the most miles of roads of any in the country. 
        On the Flathead Indian Reservation in 2006 we received $1.3 
        million from the formula. In 2010 we will likely be receiving 
        only about $750,000 for a 1.3 million acre reservation. I don't 
        understand how this is possible or how the BIA has not put an 
        immediate halt to this drain of money from Tribal and BIA 
        lands. This is because the IRR Inventory is being unethically 
        and improperly manipulated by tribes and states that have 
        learned how to game the system by adding thousands of miles to 
        IRR Road Inventory for roads that should not qualify to be on 
        such a list. The TRIP Act did nothing to change that. Senator, 
        if this is not corrected and if the next Highway Authorization 
        bill did manage to increase the funding level for the IRR to 
        $800 million, the tribes in Montana and Wyoming might end up 
        going down to a $15 million share! This needs to stop and it 
        should stop today. It does not require an act of congress or 
        even new regulations. It simply requires the BIA to stop 
        pretending this is not a crisis and to stop allowing the IRR 
        Inventory system to be manipulated. Despite contentions to the 
        contrary the changes they are suggesting in Question 10 of the 
        IRR formula will not fix this problem. The Question 10 changes 
        contain some improvements but nowhere near enough.

    In 2006, 76 percent of the roads generating share in the BIA's 
nationwide Road Inventory were Tribal or BIA roads. Certainly these are 
the roads the program is intended for. That is why it is called the 
``Indian Reservation Road'' program (emphasis added). This program is 
intended to construct, repair and maintain roads on Indian reservations 
and traveled by the Indian people who live on those reservations. These 
roads are on lands that the United States holds in trust and the 
program is a part of Federal governments fiduciary trust responsibility 
to federally recognized Indian tribes. The injury and death statistics 
used to justify the program certainly come from those on-reservation 
roads. Yet, in 2010 only 24 percent of the roads generating share in 
the BIA's nationwide Road Inventory are Tribal or BIA roads. Instead of 
being called the Indian Reservation Road program it should be changed 
to the ``State and County Road Program Being Supplemented by the BIA.'' 
This is happening because certain tribes are adding thousands of miles 
of off-reservation state and county roads to their IRR inventories. In 
2004 there were 62,000 miles in the national IRR Inventory. In 2010 
there are 126,000 miles on this same inventory. So while we have 
remained stagnant or lost funds during times of large appropriations 
increases, tribes that are gaming the system are doing just the 
opposite. There is a tribe in Minnesota whose IRR funds went from 
$700,000 to $7.3 million over the course of two years. A tribe in 
Oklahoma gave $20 million of IRR funds to the state of Oklahoma for 
Interstate Highway 44, a road that the State of Oklahoma is clearly 
responsible for. This will apparently help customers get to one of this 
tribe's numerous casinos. So while there are Indian people on 
reservations who can't get to their jobs, or their schools or to the 
hospital due to impassable roads, we have a situation where BIA roads 
fund are being used to supplant a state's responsibility for its own 
interstate highway system, a system and a road for which that State 
undoubtedly receives Federal Highway Trust Funds.
    The formula used to allocate IRR funds is known as the Tribal 
Transportation Allocation Methodology (TTAM). The BIA continues to tell 
the Congress and the public that TTAM was a bi-product of a Negotiated 
Rulemaking Committee called for in the TEA-21 highway bill. What is not 
discussed is that after that rulemaking committee submitted its work to 
the BIA, the BIA made some rather substantial changes on its own. Those 
changes resulted in the manipulation of inventory data that has skewed 
the Cost to Construct (CTC) and Vehicle Miles Traveled (VMT) 
calculations for those tribes located near urban area and high volume 
highways.
    IRR funds are allocated under formula known as the Relative Need 
Distribution Factor and it has three basic components: (1) Costs to 
Construct (CTC) (2) Vehicle Miles Traveled (VMT) and (3) Population 
(POP). In addition to on-reservation roads the formula allows tribes to 
include roads that ``access'' the reservation. Unfortunately, access is 
not defined. Without a definition the possibilities are endless. 
Senator, when you are in DC and fly out of Dulles Airport and are 
heading west on I-66 if you kept going far enough and connected to 
other highways you would eventually ``access'' an Indian reservation 
wouldn't you? Highway 93 crosses our reservation but just south of our 
reservation and slightly north of Missoula it intersects I-90. Should 
we claim that as accessing our reservation? It gets better. Think if 
instead of Missoula there was a much larger urban city there, and think 
of the Vehicle Miles Traveled--the VMT part of the formula--on I-90. 
How many vehicles that traveled such a road and that didn't have a 
single Indian person inside can be claimed? The BIA is allowing tens of 
thousands of miles of such roads into the inventory including 
Interstates, National Highway System Roads, State, County and Township 
Roads. Most of these routes do not legitimately provide direct access 
to an Indian Reservation. A tribe in Wisconsin whose total land base is 
4,600 acres now generates 800,878 Vehicles Miles Traveled on 2,436 
miles of claimed roads in its inventory. This VMT is greater than the 
entire VMT for each of five BIA regions of the country.
    Lest you think that these are simply the observations of a tribe 
who has seen nothing from the Congressional increases let me quote from 
a memo by the Interior Inspector General who examined this issue in a 
report entitled ``Department of the Interior Roads Programs--The 
Dangers of Decentralization,'' dated February 1, 2010. The IG wrote: 
``We found significant inaccuracies in roads inventories that affect 
the ability of bureaus to identify needs correctly and inefficiencies 
in the processes that bureaus use to prioritize their needs''. The 
report indicated that the BIA Roads Program ``lacked sufficient 
safeguards to adequately detect misuse and mismanagement of funds.'' 
The report further indicated that the BIA did not have adequate 
inventories of its roads and it referenced the large increases in the 
BIA's national inventory of roads as being ``unexplained.''
    Another major area of concern that tribes have can be found in the 
many miles of ``proposed'' roads that have been added to a number of 
tribes' inventories. These are roads that a tribe would like to build 
someday so they ask for and get funds from the IRR formula for them. 
The problem is that many of them will never be built. We have seen 
situations where Alaskan Villages are claiming proposed roads in 
wilderness areas or in areas where the terrain is such that 100 German 
engineers could not build a road. Yet as long as that proposed road 
remains on a tribe's list it will continue to get funded, year after 
year after year. There does not appear to be anything in the BIA's 
proposed Question 10 revisions that will change these problems.
    When a road is added to a tribe's inventory it's pavement condition 
is supposed to be rated as to its actual degree of needed repair and 
for a paved road, if it gets a rating of 60 or less it can generate 
funding for the paved surface and the aggregate base under the surface 
at 100 percent. There are untold miles that have been added to the 
inventory that are all rated at exactly 60 which is nearly impossible. 
This means that someone sitting at a desk simply listed the road 
without a scintilla of a field examination. This practice has resulted 
in thousands of miles of non-BIA and non-Tribal roads generating 
funding at 100 percent with bogus data and at the expense of those 
tribes who choose not to cheat the system.
    What is equally amazing is that after claiming these roads in their 
inventories, these same tribes don't actually do any work on them. With 
the exception of the Oklahoma tribe that gave that state $20 million 
for I-44, we have never heard of a tribe actually doing work on the 
thousands of off-reservation miles claimed. They simply use the 
existence of the road to add it to their inventory and then spend it on 
something else, presumably transportation related but not on the 
claimed road. I am not an attorney but I wonder if this practice is not 
coming very close to being fraudulent. Additionally the statutes 
governing this program indicate that the funds are for road 
``projects'' and 23 USC 101(a) defines that term as ``an undertaking to 
construct a particular portion of a highway.'' It defines 
``construction'' as ``the supervising, inspecting, actual building and 
incurrence of all costs incidental to the construction or 
reconstruction of a highway.'' Senator, if there is no ``project'' and 
there is no ``construction'' how are these roads qualifying?
    Continuing with the remarkable situation is the fact that non-
tribal and non-BIA roads that are added to tribal inventories are 
supposed to be added at what is known as a ``Non-Federal Share'' of the 
costs of the project. 23 USC 201(1) says that funds appropriated to 
carry out the Federal lands highway program may be used to pay the Non-
Federal Share (NFS) of the costs of a project that provides access to 
or is within an Indian reservation. The non-Federal share is normally 
between 5 percent to 20 percent yet many of these roads are being 
funded at 100 percent of their costs. The issue of what percentage of 
costs a tribe should get is discussed in Question 10 of 25 CFR Part 
170, Subpart C a key part of the IRR formula. On February 12, 2009, 
Senator Jeff Bingaman forwarded a letter from the Navajo Nation to the 
Interior Department and to Federal Highway Administration. The Chairman 
of the Navajo Nation's Transportation Committee was expressing concerns 
similar to what you have heard from me today. Jeff Paniati, the Acting 
Administrator of the FHWA responded to the Senator on March 25, 2009 
and in addressing concerns about funding for such non-BIA and non-
tribal roads said,

        ``In the calculation that determines a Tribe's share of the IRR 
        Program funding, data from State routes generates funding only 
        at the local match rate (typically 10 to 20 percent of their 
        generated total.) `` [parenthetical included in original]

    If Mr. Paniati is correct, there is a major violation of the 
regulations ongoing as there are quite literally thousands of miles of 
such exact roads being funded at 100 percent, not 10 to 20 percent.
    The Paniati letter also said that,

        ``Interstates, although eligible for expenditure of IRR Program 
        funding, are not included in the data entered into the 
        distribution formula at all.''

    Again, if Mr. Paniati is correct, there are further ongoing 
violations of the regulations and laws as there many miles of 
Interstate highways that tribes are absolutely including in their 
inventories that profoundly affect the distribution formula. How else 
could the tribe in Oklahoma have gotten $20 million that it gave to the 
state?
    Question 10 ostensibly tells us that two key factors in the IRR 
formula (Cost to Construct, CTC) and the aforementioned VMT, should be 
computed at the Non-Federal Share for matching funds if the road in 
question is otherwise eligible for other Federal Highway funds unless 
(see subpart 3) the public authority (i.e. State or County) responsible 
for maintenance of the road in question provides a) a certification of 
maintenance responsibility and b) a statement that it is unable to 
provide funding for the facility. When States accept Federal Highway 
funds from the United States they are required under 23 USC 116 to 
certify that they will maintain the project that the federal funds were 
used to construct. If they do not do so the Federal Government may 
cease all funding for road work in the state. I do not understand how a 
state that has certified it is responsible for maintaining its roads 
can then turn around with a wink and a nod and tell a tribe that the 
state does not have the money to maintain the road so the tribe can 
claim it within its inventory. When tribes in Montana asked our State 
Highway Department if they would make such a statement they indicated 
that they would not and that they felt they would be perjuring 
themselves if they did. Beyond differing interpretations of the law by 
states, one of the many problems with how the BIA is implementing the 
formula is that it is not even being applied uniformly from one BIA 
Regional Office to another. Some regions will allow the inclusion of 
such roads and others will not.
    In conclusion, I want to again thank the Committee and Senator 
Tester for convening this hearing. Transportation is very important for 
the Indian people. It directly affects health, safety and economic 
matters including jobs and the ability to attract businesses. We hope 
that the TRIP Act will be reintroduced next year. If the BIA does not 
thoroughly fix the misapplication of formula by a large number of 
tribes and the widely varying application of the formula that change 
from one BIA Regional office to the next, the Congress will need to do 
so via amendments to the underlying statutes.

    Senator Tester. Well, thank you Chairman Moran. I want to 
thank you for hosting us here today and thank you for your 
testimony. And we will follow up with some questions after we 
get done with the rest of the presenters. Thank you very much. 
James Steele.

   STATEMENT OF JAMES STEELE, JR., CHAIRMAN, MONTANA-WYOMING 
                     TRIBAL LEADERS COUNCIL

    Mr. Steele. Thank you, Senator Tester. And I want to thank 
you for responding to our resolution dated August of 2010 
requesting this hearing on Indian reservation roads. And in my 
opinion, the term Indian Reservation Roads in this current 
system is not proper for this process.
    These roads in my opinion as Chairman of the Montana-
Wyoming Tribal Leaders Council, in large part in a lot of the 
regions of the nation are not Indian reservation roads. They 
are in fact other things. They are interstate highways, they 
are roads that do not exist, they are proposed roads, and in 
our opinion from the Montana-Wyoming Tribal Leaders Council, 
we're unified. Our region is not split on this issue. We are 
unified 100 percent in all of our member tribes.
    And it is our opinion that this system is broke as chairman 
Moran has stated, it's broken. We appreciate the hearings and 
the consultations sessions. We appreciate the session that we 
had last fall--I believe it was in California--on this issue. 
There was not consensus.
    But it is our opinion that the BIA has been interpreting 
data region-by-region in a different manner. And while we vary 
in manners of interpretation, some regions are allowing roads 
to be added, where other regions would reject the same road in 
a similar circumstance. Some regions are including interstate 
highways in clear violation of the BIA-DOT guidelines for the 
IRR program.
    The Montana-Wyoming Tribal Leaders Council has previously 
made its concerns known to the BIA and the Federal Highway 
Administration regarding the IRR data. So we still express 
those concerns. And you will hear testimony from Mr. Rossette 
and John Smith on this issue in more detail, but I want to give 
a general background that our tribal leaders and our tribal 
councils and governments that are part of the Montana-Wyoming 
Tribal Leaders Council are unified. And I take a little bit of 
exception to President Keel's comment that some regions are not 
unified. Maybe some are not. Ours is.
    And so with that, Senator Tester, I appreciate you holding 
this hearing. I appreciate your leadership on the Indian 
Affairs Committee. And I appreciate you including the Majority/
Minority staff here and Senator Barrasso's representative also.
    Senator Tester. Absolutely, James. Thank you for being 
here, too. I very much appreciate your work.
    Tim Rosette.

         STATEMENT OF TIMOTHY W. ROSETTE, SR., CHIEF, 
 ENVIRONMENTAL HEALTH DIVISION, CHIPPEWA CREE TRIBE, ROCKY BOY 
                          RESERVATION

    Mr. Rosette. Thank you, Senator Tester. I'm having throat 
problems here, a little congestion. I hope you guys can all 
hear me. It's never been a problem, me being heard.
    Senator Tester. First time I've heard you. Could you put 
the mic a little closer and it will help your throat and help 
people hear you, too.
    Mr. Rosette. Okay. While the SAFETEA-LU provided us a 
significant increase in IRR funding, we are dismayed that the 
land-based tribes saw little increases and a lot of times 
literally lost funding because of the misinterpretation, 
misapplication, whatever we want to call it, on controlled 
implementation on the formula that the BIA Federal Highways 
administers.
    Let me explain why funding decreases to our largest land-
based tribes in the U.S., why that has happened. Because 
certain BIA regions allow their road engineers to include all 
types of roads regardless of ownership, and Federal Highways is 
doing nothing about it since they directly benefit from the 
off-reservation roadwork being done. By allowing all roads into 
the BIA Roads Inventory System, the funding becomes diluted to 
the larger land-based tribes of the United States.
    All we have, sir, is all that we have in these rural areas. 
Every statistic that was presented to you today, Senator 
Tester, that came from reservations in Montana, Wyoming, North 
Dakota, South Dakota, all of the land-based reservations. These 
statistics come from them.
    The majority of the money goes to other places. That's one 
of the bottom line problems with this whole system. And they 
talk about statistics and increases in Indian country. Nobody 
answers questions directly. I mean, if you ask me a question, 
I'll answer you directly. You know me. I will be very direct, 
sir.
    The reason why deaths have increased on Indian reservations 
is because the funding's not coming to Indian reservations. 
That's why the increase. We're not able to fix our roads like 
we used to be able to fix our roads. We're not able to maintain 
our roads like we used to be able to maintain our roads. It's a 
major, major problem.
    The TRIP Act, you know, to me the TRIP Act is a good start 
at a piece of legislation, but until the problems are fixed 
within the formula, and it's been mentioned before, and 
Question 10 is a part of that, but there are lot of other 
things within the formula that lead to manipulation and so 
forth by those who really just try to build their inventories 
just to build their inventories.
    Mr. Chairman, IRR funding has been reduced from 76 percent 
of the IRR gross funding to larger rural-based tribes in 2006 
to 24 percent in 2010. This represents a significant loss of 
critical funding at a time of increases in roads funding.
    The increases are going to tribes in the urban areas that 
have more access roads to their reservation, have more BMTs, 
their cost to construct it considerably higher, and even with 
the changes presented forth by the Bureau of Indian Affairs 
with the non-federal share, instead of funding them at 100 
percent, funding them at the non-federal share, it still would 
be a considerable amount of money that would go to those areas.
    Taken out of Mr. Smith's report, I'd like to read a 
statement. It was reported specifically from the United States 
Office of the Inspector General, February 1st, 2010. ``We find 
significant inaccuracies in roads inventories that affect the 
ability of bureaus to identify needs correctly and 
inefficiencies in the process that bureaus use to prioritize 
their needs.'' The report further states, ``All bureaus have 
project implementation plans and the ability to track spending. 
Two of the bureaus, however, Bureau of Indian Affairs and 
Bureau of Land Management, lack sufficient safeguards to 
adequately detect misuse and mismanagement of funds.''
    As Chairman Moran has pointed out, we believe that there 
has been significant misuse and mismanagement of these 
programs.
    I'd like to throw a few more statistics at you, Mr. 
Chairman. Motor vehicle injuries are the leading cause of 
Native American deaths from ages 1 to 34. And they're the third 
leading cause of death in Indian country.
    Mr. Chairman, to date there have been at least two 
investigations by the Inspector General's office on the IRR 
program showing negative impacts. The one statement I read 
directly out of Mr. Smith's testimony, the other was an 
incident in Alaska.
    I don't like to just complain. I'd like to propose some 
solutions. I don't think it takes an act of Congress to fix 
this problem. I think it's an administration problem. I think 
administratively this thing can be handled. It can't be handled 
politely, sir. I know that. And I know the politics of this 
whole thing. When you take money from one place and 
redistribute it to another place, it's going to be daunting for 
the Senate and everybody involved. And has to be done to such a 
way that--I don't know.
    But to point out further, we weren't asked when it was 
taken from us. We were the third largest recipients of Indian 
reservations roads funding prior to SAFETEA-LU. Now we've 
became the smallest recipient of Indian reservations roads 
funds since its implementation.
    Thank you for your time.
    Senator Tester. I appreciate your testimony.
    [The prepared statement of Mr. Rosette follows:]

  Prepared Statement of Timothy W. Rosette, Sr., Chief, Environmental 
      Health Division, Chippewa Cree Tribe, Rocky Boy Reservation

I. Introduction
    On behalf of the Chippewa Cree Tribe, I want to express my 
appreciation to the Senate Committee on Indian Affairs, to you Senator 
Tester and to retiring Committee Chairman Dorgan, for convening today's 
hearing concerning Tribal transportation. Thank you for your advocacy 
on behalf of Indian tribes. With all the other problems in our country 
today, transportation needs can easily be overlooked. We are grateful 
that you are taking a leadership role to address the most basic 
protection that we can afford our members today--safe transportation 
through our lands.
    The Federal Lands Highway Program and the Indian Reservation Roads 
Program (IRR) provides funding for a coordinated program of public 
roads that serve Federal land transportation needs. The Indian 
Reservation Roads (IRR) Program is administered cooperatively by the 
Federal Highway Administration (FHWA), the Bureau of Indian Affairs 
(BIA), and the Indian Tribes that have self-determination contracts or 
self-governance compacts in place for the administration of IRR program 
functions and funds. The Chippewa Cree Tribe is a self-governance Tribe 
and we administer most Federal programs formerly administered by the 
BIA including the IRR Program. For most Indian tribes, the IRR program 
is the sole source of funding through which the local Indian 
communities receive critically needed transportation improvements to 
facilitate better access to jobs, health services, educational 
opportunities, and economic development. This program is vital to the 
well being of all Native people living on Indian lands throughout the 
United States
    Over the last five years, as a result of significant increases 
Congress has provided for the Indian Reservation Roads (IRR) Program, 
some Tribes have achieved many successes and improved transportation 
infrastructure throughout our communities and helped educate our 
members about road safety. The infusion of American Recovery and 
Reinvestment Act (ARRA) stimulus funds put our Members to work and 
accelerated road and bridge improvements.
    Because of ARRA funding, the Chippewa Cree Tribe was able to seal 
cracks, chip seal, replace fences, and replace traffic signs on 
approximately 30 miles of BIA system roads as well as providing 
temporary employment to approximately 40 tribal members.
    While SAFETEA-LU provided a significant increase in IRR funding, we 
are dismayed that the land based tribes saw little increase or lost 
funding because of the misinterpretation and misapplication of the 
regulations by the BIA and FHWA. The IRR program funding formula is an 
inventory-driven formula. The accuracy of the BIA's Road Inventory 
field Data System (RIFDS) is paramount to ensuring the integrity of the 
IRR Program. The misinterpretation and misapplication of the 
regulations has manifested itself as the uncontrolled implementation of 
the road inventory update process which is used to generate formula 
shares for all tribes. As a regional program, without standardized 
practices among the BIA Regions the integrity of the IRR program has 
suffered to the point that the IRR inventory has become an ``arms 
race'' to see who can generate the most funding regardless of who gets 
harmed by the process. This uncontrolled implementation of the 
inventory continues to go unchecked and is having a devastating effect 
on Land Based Tribes located in Montana, Wyoming, Arizona, New Mexico, 
Utah, the Dakotas and some tribes in Minnesota.
    Because of this uncontrolled implementation of the inventory update 
process, that part of the inventory which generates share amounts for 
the Land Based Tribes has been significantly reduced from 76 percent in 
2006 to 24 percent in 2010 and is declining at an accelerated rate. My 
colleague Mr. John Smith will elaborate more on the problems we are 
experiencing with the IRR inventory in his testimony which will follow 
mine.
    The following testimony highlights what the Chippewa Cree Tribe 
considers to be the most critical needs for the IRR program and 
requests that the Committee consider incorporating them in the new 
highway reauthorization bill.
    The successes we achieved with our recurring IRR Program funds and 
ARRA stimulus dollars must be sustained by Congress in the next surface 
transportation bill. I ask that you champion transportation issues for 
Indian country in the 112th Congress and introduce the Tribal 
Reauthorization of Indian Program (TRIP) legislation (including Land 
Based Tribes suggested revisions), which Indian tribes, the National 
Congress of American Indians (NCAI) and the Inter-Tribal Transportation 
Association (ITA) developed and which this Committee circulated for 
comment last year. Please give Tribes a seat at the table in the next 
Congress so that the authorizing committees know our needs and see 
Tribal consensus recommendations to improve our transportation 
infrastructure. We are anxious to contribute new ideas and 
recommendations to improve that draft legislation, to build on it and 
on the successes Tribes realized under TEA-21 and SAFETEA-LU.
    As I will detail more fully below, the proposed TRIP legislation:

  <bullet> increases annual appropriations for the IRR to $800 million 
        annually, with stepped increases of $50 million thereafter to 
        grow the IRR Program to just over $1.0 billion at the end of 
        the next reauthorization;

  <bullet> increases the Tribal Transit Program to $35 million 
        annually, with stepped increases of $10 million each fiscal 
        year thereafter;

  <bullet> increases the IRR Bridge Program to $75 million annually, 
        with stepped increases of $12.5 million thereafter;

  <bullet> establishes two new Tribal Safety Programs (within FHWA and 
        NHTSA) and appropriates $50 million annually for each program, 
        to address roadway structural and design safety flaws and 
        driver, passenger, and pedestrian behavioral issues;

  <bullet> authorizes Tribes to expend up to $500,000 annually for road 
        maintenance;

  <bullet> make Tribes direct recipients of Federal transportation 
        program funds;

  <bullet> develops and streamlines award instruments between Tribes 
        and federal agencies and between Tribes and the States in a 
        manner similar to the Indian Self-Determination and Education 
        Assistance Act (ISDEAA), P. L. 93-638, to better ensure that 
        Tribes actually receive federal transportation funding.

    The backlog of unmet transportation construction needs in Indian 
Country is in the tens of billions of dollars. Many of the jobs, 
educational opportunities, health care and social services for Native 
Americans are located at considerable distance from our Tribal homes 
and communities. To move closer to these opportunities, we would have 
to move away from our lands and homes, undermining the continuing 
viability of our communities, Tribal sovereignty, and our Native 
culture. This is unacceptable.
    Despite these limitations, Indian Country has achieved many 
successes in improving transportation infrastructure throughout our 
communities in recent years. Many of these successes were fostered by 
the passage of SAFETEA-LU which significantly increased program 
funding, created the Tribal Transit Grant Program, and authorized the 
Secretary of Transportation to enter into direct agreements with Tribes 
to receive IRR Program funds, Tribal Transit funds and Scenic Byways 
funds rather than requiring Tribes to access these funds through the 
Bureau of Indian Affairs (BIA) or as subrecipients of State Federal-aid 
funds.
    Tribal transportation successes are threatened unless the next 
highway reauthorization includes provisions specific to Tribal 
governments. We realize this is no easy task for Congress. But 
maintaining the status quo of third-world transportation infrastructure 
in Indian country comes at a terrible price which Congress must 
consider.

II. Current State of Transportation in Indian Country
    Indian Tribes have heard a lot about the Administration's ``livable 
communities'' initiative to decrease transportation costs, expand 
affordable housing, and improve economic competitiveness. Congress and 
the Administration need to understand that Indian country lacks basic 
transportation infrastructure to realize those goals. Congress must 
realize that Tribes have the most rudimentary transportation 
infrastructure in the country, and lack the funds needed to construct 
even the most basic road improvements such as safer intersections, 
railway crossings, breakdown lanes, and basic safety features such as 
guardrails, rumble strips, stripping, road reflectors, crosswalks, 
traffic lights and streetlamps. Just as importantly, Tribes lack the 
funds necessary to perform basic routine as well as emergency road 
maintenance to keep our roadways in a safe condition to protect our 
Members and other motorists.
    Tribal transportation infrastructure still lags far behind 
transportation infrastructure in the rest of the country--with tragic 
results. The poor condition of many Tribal roads and bridges 
jeopardizes the health, safety, security and economic well-being of 
Tribal members and all those who travel through Indian Country. Our 
inadequate transportation infrastructure hinders every priority of the 
Federal Government and Tribes which our respective governments have 
sought to achieve over the last few decades--economic development, law 
enforcement and other first responders, education, health care, and 
housing--because it raises the cost of doing business on reservations 
and in Indian communities in every aspect of our daily living.
    The unsafe conditions are reflected in our tragic statistics. 
Indian Country still has the highest vehicle and pedestrian fatality 
rates in the country which in some areas are 3-4 times the national 
average. Motor vehicle injuries are the leading cause of death for 
Native Americans ages 1-34, and the third leading cause of overall for 
Native Americans. The motor vehicle death rate for Native Americans is 
nearly twice as high as other races.
    Reservation roads also have the highest level of pedestrian 
fatalities in the country. American Indians have the highest rates of 
pedestrian injury and death per capita of any other racial or ethnic 
group in the United States. The leading cause of death for Tribal-
members and Alaska Natives between the ages of 10 and 64 is a motor 
vehicle crash. The fourth leading cause of death in these communities 
is pedestrian crashes.
    We are troubled by the disparity between national traffic safety 
statistics and the statistics coming out of Indian Country. The 
Government Accounting Office (GAO) and the US Department of 
Transportation have published studies that have proven that rural 
roads, especially those serving Tribal communities, experience a much 
higher rate of vehicle accidents and fatalities, but they receive much 
less federal funding than roads serving urban communities. In fact, 
Indian reservations and Tribal communities have the highest rate of 
vehicle fatalities in the country. While traffic fatalities in the rest 
of the nation have been decreasing, the number of fatal crashes in 
Indian Country has been continually increasing. In the period from 
1975-1979 there were on average 185 fatal crashes on Reservation-based 
and Tribal roads each year, with 231 fatalities. In the period from 
1998-2002, the number increased by 29.5 percent to 239 crashes per year 
with 284 fatalities. These statistics are obtained from data collected 
from on reservation crashes only and should not be used to justify 
adding off reservation facilities to the IRR system.

III. Roadblocks to Fulfilling the Need in Indian Country
    The number one roadblock to fulfilling the needs in our Tribal 
communities is lack of funding. Too often Congress, the Department of 
Transportation, and the Department of the Interior ignored their trust 
responsibility and treaty obligations to the Indian nations and Native 
people to provide safe and efficient transportation systems. While the 
Department provided $1.275 billion for the High Risk Rural Roads 
Program and $700 million for the Highway Safety Program to State and 
local governments in FY 2008 to address behavioral and design safety 
issues, the Department provided less than $5 million per year for all 
565 federally recognized Indian Tribes (which averages to $8,850/Tribe 
compared to an average of $40 million/State). Tribes had to compete for 
this wholly insufficient level of funding. After grant development, 
grant management and other transactional costs are taken into account, 
the few successful Tribal grant recipients typically have only a few 
thousand dollars remaining to begin to address the huge backlog of 
dangerous road conditions and unsafe driver behaviors. Even if 
considered on a per capita basis, Indian country receives pennies on 
the dollar for their transportation needs.
    We recognize that the nation is going through economic hardship. 
For most Tribes, it is our way of life. We further recognize that the 
budget will likely be tight for the next few years. One way to help 
fulfill Tribal funding needs for transportation infrastructure without 
raising the cost to the nation is to provide better access for Tribes 
to federal-aid highway system and other federal appropriations made to 
State and local governments. The layers of administrative bureaucracy 
that Tribes must go through to gain access to federal transportation 
funds passed through to the States increases our costs and provides us 
with far less money than we need to address our transportation needs.
    Unfortunately, many State and local funding agreements are ill-
suited for the unique government-to-government relationships that exist 
between Tribes and States and have become obstacles to the award of 
these much needed funds to Tribes. For example, State funding 
agreements are usually written either as standard commercial 
procurement contracts or as ``local use'' agreements designed to award 
funds to counties or municipalities. When these standard agreements are 
applied to Tribes, they often include broad indemnification provisions, 
unnecessarily broad waivers of sovereign immunity, and provisions 
imposing State administrative and accounting rules on Tribes. Nearly 
all of these agreements require Tribal governments to appear in State 
court in the event of a dispute. We are separate sovereign 
governments--not subdivisions of the States--and these provisions are 
wholly unacceptable and inappropriate for use in transferring State 
transportation funds to Tribal governments.
    While some State and local governments may be willing to modify 
funding agreements to accommodate Tribal concerns, negotiating such 
modifications can be costly and time consuming. Most often, State and 
local governments refuse to modify standard agreements to address our 
concerns. The solution is simple: make Tribes eligible direct 
recipients of federal transportation programs.
    Tribes are also faced with disproportionately burdensome 
administrative responsibilities that waste our already insufficient 
transportation funding. For example, the finance, procurement and 
auditing systems of Tribal governments are primarily geared toward 
ensuring compliance with the Indian Self-Determination and Education 
Assistance Act, P.L. 93-638, grant and contract requirements. It is a 
waste of precious resources for the Department to require Tribes to 
comply with redundant and sometimes conflicting grant and contract 
requirements.
    Also, the lack of access to funds for maintenance requires Tribes 
to expend a disproportionate amount of funds undertaking large 
construction projects because of the disrepair of reservation roads or 
bridges. Maintaining transportation infrastructure in a state of good 
repair extends the useful life of these critical routes. It improves 
safety at a much lower total cost than the reconstruction of long-
neglected roads and bridges. When Congress, in SAFETEA-LU, authorized 
Tribes to spend up to 25 percent of their IRR Program dollars for 
maintenance, it expressly stated that the BIA retained the primary 
responsibility, including annual funding request responsibility, for 
road maintenance programs on Indian reservations. Congress also 
expressly stated that the Secretary of Transportation must ensure that 
IRR Program funding be made available for maintenance of Indian 
reservation roads for each fiscal year and that these funds are 
supplementary to, and not in lieu of, any obligation of funds by the 
BIA for road maintenance on reservations.
    Unfortunately, these Congressional requirements have not been 
fulfilled. As funding for the IRR Program goes up, the Administration 
submits budgets to Congress to reduce funding for the BIA Road 
Maintenance Program. Newly built or reconstructed roads must be 
maintained if they are to meet their design life. Tribes must retain 
the authority to determine whether to expend a portion of its IRR 
Program funds on road maintenance. The agencies have let Indian Country 
down and not fulfilled their obligations.

IV. Specific Proposals
1. Increase Funding for the IRR Program, Road and Bridge Maintenance, 
        and Safety and Transit Program in the Next Highway 
        Reauthorization Bill
    The backlog of unmet transportation construction needs in Indian 
Country is in the tens of billions of dollars, and increases by tens of 
millions of dollars each year. The amount of funds provided to Tribes 
to address these unmet needs does not even come close to being 
adequate. As stated above, if Tribes are to maintain the positive gains 
we have made under TEA-21 and SAFETEA-LU and keep our progress going, 
we request that Congress authorize funding increases in the next 
highway reauthorization bill for the IRR Program, including road 
maintenance, Tribal Safety Programs, the Tribal Transit Grant Program, 
and the IRR Bridge Program. The state of infrastructure in Indian 
country, like anywhere else, determines the health and vitality of our 
economies and of our people. Congress must address the declining status 
of America's transportation infrastructure and must include Indian 
country in programs that will improve transportation infrastructure and 
transit and break down barriers between Tribes and surrounding 
communities.
    I would also like to advocate for additional funding for road 
maintenance. Tribes receive so little road maintenance funding that 
there is no allowance for emergency needs to address life threatening 
circumstances that result from ``a catastrophic failure or natural 
disaster.'' Every BIA Region experiences some form of emergency 
maintenance--ice and snow, traffic control, rock slides, washouts, 
flooding, wildfires, and hazardous waste spills--but lacks the 
resources to respond to them.
    On average, six cents of every dollar is spent on road maintenance 
in Indian Country. This does not protect the investment that the United 
States and Tribes have made in transportation infrastructure. This 
funding gap between construction and maintenance exacerbates the 
backlog of unmet construction need by cutting the useful life of new 
built or reconstructed roads in half and will lead to more traffic 
injuries and fatalities. It makes no sense to expend millions of 
dollars to construct a new road if that road is poorly maintained. No 
one knows the routes through our communities better than our Tribal 
governments. Our Tribal government should be authorized to decide what 
amount should be spent on maintenance--and receive adequate federal 
appropriations--to preserve the lifetime of the road and to protect the 
life and health of its members.

2. Tribes Must be Eligible Direct Recipients of Federal Transportation 
        Funds
    For these necessary transportation programs to work in Indian 
communities, the funds must reach the intended beneficiaries. 
Unfortunately, this is not the case. As mentioned above, when Tribes 
are not eligible direct recipients, they must apply for State 
transportation programs funded by the United States. More often than 
not, Tribes do not receive the federal funds awarded to States and 
local governments. This situation exacerbates the history of Tribal 
exclusion by State and local governments from participating in regional 
community development planning.
    It has long been recognized that regional planning works best when 
local government officials are allowed to establish their own 
priorities and to propose solutions that address local problems and 
needs. Recently, however, Tribal, State, and local governments have 
begun to seek a more collaborative approach to transportation 
challenges faced by their regions. These fledgling efforts make clear 
that where Federal programs provide funding to Tribes directly, State 
governments are more likely to work cooperatively with them.
    Including Tribes as eligible direct recipients in all of the 
transportation infrastructure grant programs would support the further 
development of these Tribal, State, and local relationships to address 
community development challenges, and would help all governments 
increase their available funding by making it possible to join forces, 
and funds, with other governmental entities. Such direct funding would 
also significantly cut down on Tribal administrative costs.
    I will say it again: Tribes are separate sovereign governments. 
Tribal governments have demonstrated that they possess the capacity to 
deliver successful transportation programs despite the many obstacles 
that stand in our way. Across the country, Tribes are increasingly 
serving our communities by assuming the Secretary of the Interior's 
responsibility for administering the IRR Program funds by entering into 
Self-Determination Contracts or Self-Governance Compacts with the 
Secretary of the Interior or by entering into FHWA IRR Program 
Agreements with the Secretary of Transportation. We are sovereign 
nations, we are responsible for providing basic governmental services 
to our members, and we are now accustomed to administering funds under 
these contracts, compacts, and agreements.

3. Streamline the Grant Award Process by Which Federal Transportation 
        Funds are Distributed to Tribes
    Streamlining the grant award process will reduce transactional and 
administrative costs associated with the award of federal 
transportation safety grants and will leave more funding available to 
us to do the ``on the ground'' work needed to provide safe 
transportation infrastructure for our members and guests in our 
communities. We ask that Congress work with the Department of 
Transportation on the next highway reauthorization legislation to 
develop a uniform set of Tribal grant and contract requirements based 
on the ISDEAA.
    Thank you for allowing me to present this testimony for the record. 
I hope my comments this afternoon will lead to productive action to 
improve the delivery of transportation services to all Indian tribes 
and correct the anomalies that are having a negative effect to the Land 
Based Tribes. I will be happy to answer any questions you may have.

    Senator Tester. John Smith.

       STATEMENT OF JOHN P. SMITH, DIRECTOR, DIVISION OF 
  TRANSPORTATION, EASTERN SHOSHONE AND NORTHERN ARAPAHO TRIBES

    Mr. Smith. Thank you, Senator.
    Mr. Chairman, I would like to request that you also forward 
my regards and appreciation to Senator Barrasso for being able 
to represent the great state of Wyoming. Tim calls it Southern 
Montana. It's easier than Northern Wyoming.
    It's a great pleasure to have you here and to actually 
discuss with people who can render the completion of this 
enormous problem. Our tribes here are working under the Indian 
Reservation Road System under two separate rules, Title 23 and 
Title 25, which is complex in tribal members' thinkings of what 
the responsibilities are when they are both shared equally, not 
only with the BIA, but also with the Federal Highway System and 
the administration in which oversees our road program on behalf 
of our great--my good Crow brother in Washington, D.C.--he was 
adopted by the Crow tribe--and to resolve these issues on his 
behalf and our behalf.
    When we talk about the $600 billion of need, we need to 
have definitions of need versus greed in the system. We have 
people putting on inventory items into the Road Inventory 
System that do not properly provide any services to Indian 
people. But we're asked in the Rocky Mountain Region to sit by 
and be patient.
    Many of our long-term road projects take four to five years 
to complete, as we develop them in segments. We have to clear 
earth, we have to clear the old road bed, put it to the side, 
widen the road to new standards. Our roads are narrow with 
maybe a foot off the road to a two-foot embankment, some places 
in lengths of 25 feet to 50 feet, which is a critical matter. 
If you go off that road by accident, bad weather, you're going 
to roll, sir. That is a honest safety situation for our tribes 
to egress onto medical facilities, emergency care, just going 
to get delivery of goods and services for their people back 
home in their household. Plus, our school children ride over 
those precarious roads.
    During the flood of last year we lost a bridge that got 
flooded out. We had to go for two months to dirt roads to get 
back onto the road situation, other than go 80-mile detour one 
way and a 95-mile detour to improved roads to get from one end 
of the reservation to the other end of the reservation because 
our conduit was destroyed by the flood. We do now have a 
temporary bridge in place. And we're not experiencing that 
condition presently, but it did take a toll on what our 
business could be done. We paved a road on the west-half of the 
river and our gravel sources and our asphalt was on the east-
half. We had to ensure extra cost to go through the town of 
Lander to deliver asphalt to our roadway in order to get it 
completed, and that road began construction in 2002 in 
segments. It was a BIA construction project when the tribes 
began to take over our own construction program under the 638 
Process. We now do operate our road construction program as 
well as our maintenance program on behalf of the Federal 
Government.
    We do have safety regulations in place that were put into 
by the tribe. We have a mandatory seatbelt use. We also have 
limited intoxication for alcoholic beverages to be a 0.5, 
rather than the 0.8 like the State of Wyoming, which has 
greatly curbed our alcohol use. And we've taken a concentrated 
effort to curb the driving while under influence.
    We participated in Bismarck, North Dakota, along with the 
other states, state transportation Officials from the States of 
North Dakota, South Dakota, Montana and Wyoming where we asked 
Mr. Secretary to consider funding programs along with road 
maintenance for increased funding for our programs. We were 
speaking for our needs. We believe that people as we progress 
along will have to come to an agreement of how they're going to 
submit inventory items. We were the first region that completed 
our inventory update. We were the first region that completed 
our IRR profit contracts for the use of those funds. Mr. 
Rossette here was the first tribe in the nation to complete his 
ARRA projects within one year of the same funding cycle. Sadly 
he lost a lot of that during flood season, all his beautiful 
work, and he's getting that restored.
    I know I'm running out of time. My council always gets 
after me for talking too much. And so I don't want to take up 
any more time. But it is a serious need, and we do need help in 
resolving this issue. It's not going to go away by itself, I'm 
afraid. Thank you.

      Prepared Statement of John P. Smith, Director, Division of 
      Transportation, Eastern Shoshone and Northern Arapaho Tribes

Introduction
    Good afternoon, Mr. Chairman and members of this Committee. My name 
is John Smith, Transportation Director for the Shoshone/Arapaho Tribes. 
I am also a member of the Indian Reservation Roads Coordinating 
Committee formed by various Indian Tribes to help shape federal policy 
and practice in this area.
    On behalf of Joint Business Council Chairmen Ivan Posey and Harvey 
Spoonhunter, and the people they represent who reside on the Wind River 
Indian Reservation in Wyoming, I thank you for this opportunity to 
provide testimony concerning Transportation Issues in Indian Country.
    The Federal Lands Highway Program and the Indian Reservation Roads 
Program represents for us a major avenue through which the United 
States Government fulfills its trust responsibilities and honors its 
obligations to the Eastern Shoshone and Northern Arapaho tribes and to 
other Indian tribes. This program is vital to the well being of all 
Native people living on or near Indian lands throughout the United 
States. Because of its great importance, reform of the Indian 
Reservation Roads Program has become a top legislative priority for 
many Indian Tribes.

Background on the Wind River Indian Reservation
    Compared to other Tribes, the Shoshone/Arapaho Tribes are medium-
sized with more than 14,500 enrolled members, most whom live on our 
Reservation. The Wind River Indian Reservation is located in a rural 
area within the boundaries of the State of Wyoming. Our Reservation has 
over 2.2 million acres of tribal land held in trust for our Tribes by 
the United States. While over time it has been diminished from its 
original 3.3 million acres, our Reservation has never been broken apart 
or allotted to individuals and lost to non-Indians. Nor has our 
Reservation ever been subjected to the criminal or civil jurisdiction 
of the State of Wyoming. Consequently, our Tribal Government has a 
large land area over which our Tribe exercises full and exclusive 
governmental authority and control in conjunction with the United 
States. At the same time, due in part to our location far from centers 
of population and commerce, we have few jobs available on our 
Reservation. While the unemployment rate in Wyoming is at approximately 
11 percent, unemployment on our Reservation remains at an outrageously 
high level of 85 percent. The lack of adequate transportation 
facilities, communications, and other necessary infrastructure 
continues to significantly impair economic development and job 
opportunities.
    Although great strides have been made in improving the IRR program 
under TEA-21 and SAFETEA-LU, several issues have arisen that that are 
negatively affecting the full implementation of the provisions of these 
Acts as intended by Congress.

Transportation Reauthorization of Indian Programs (TRIP) Act
    The Shoshone/Arapaho Tribes are grateful for the leadership role 
this committee has taken to support the Tribal initiatives in the 
upcoming reauthorization of SAFETEA-LU. Under this leadership we are 
certain that the issues and concerns of all tribes will be considered 
in the reauthorization of SAFETEA-LU. We are thankful for the 
opportunity to comment on the TRIP Act.
    IRR funding serves a crucial need in Indian country. While Congress 
has increased IRR allocations in recent years, the funding continues to 
lag far behind an even faster-growing need. When BIA officials abuse 
their powers and arbitrarily divert IRR funds to non-BIA system or non-
Tribal facilities, we fall farther behind.
    The Shoshone/Arapaho Tribes has reviewed the provisions of the 
proposed Reauthorization Bill, published by the Senate Committee on 
Indian Affairs, to amend the SAFETEA-LU, titles 23 and 49, United 
States Code, and the Indian Self-Determination and Education Assistance 
Act also cited as the ``Transportation Reauthorization of Indian 
Programs (Trip) Act''.
    While we agree with most of the provisions of the proposed TRIP 
document, we disagree with certain items as contained in the proposed 
Bill and we also find that there are many on going issues negatively 
affecting Land Based Tribes that are not addressed in the proposed 
bill. As such we offer our comments as Follows:
    The proposed TRIP Bill as written does not address the issues and 
concerns confronting the Land Based Tribes regarding the diversion of 
Indian Reservation Road Program funds meant for the benefit of Indians 
to non-Indian entities. The percentage of funding generated by non-
Reservation facilities is near 80 percent. We are concerned that if 
this trend continues, the IRR Program will cease to exist and Tribes 
will have to access their Road construction funding through the States.
    Of particular concern, we see that the injury and death statistics 
used in justifying funding increases are taken from statistics on roads 
actually located on ``Indian Reservations''. While this is all well and 
good to document the appalling conditions on Indian Reservations, we 
are dismayed when we see news articles of Indian Tribes giving millions 
of IRR dollars for construction of Interstate Highways and Bridges. We 
ask how does donating IRR funding for construction of an interstate 
highway address the appalling conditions on Indian Reservations.
    We firmly believe that the Indian Reservation Roads Program was 
established for benefit of Indians living on Indian Reservations. This 
is a Trust Responsibility of the Federal Government guaranteed by 
Treaties between Indian Tribes and the Federal Government when Indian 
Tribes gave up their land and were forced to live on Reservations.
    For the past 4 years the Council of Large Land Based Tribes has 
been attempting to correct the misinterpretation and misapplication by 
the Bureau of Indian Affairs (BIA) and the Federal Highway 
Administration (FHWA) of the recently enacted regulation of the Indian 
Roads Program as contained in 25 CFR 170. This misinterpretation and 
misapplication manifests itself as the uncontrolled implementation of 
the road inventory update process which is used to generate formula 
shares for all tribes. This uncontrolled implementation of the 
inventory continues to go unchecked and is having a devastating effect 
on Land Based Tribes located in Montana, Wyoming, Arizona, New Mexico, 
Utah, the Dakotas and some tribes in Minnesota.
    Because of this uncontrolled implementation of the inventory update 
process, that part of the inventory which generates share amounts for 
the Land Based Tribes has been significantly reduced from 76 percent in 
2006 to 24 percent in 2010 and is declining at an accelerated rate.
    We feel that the following critical issues are the root cause of 
the rapid decline in funding for the Land based Tribes and must be 
corrected in the Reauthorization Bill in order to return this program 
to what Congress intended it to be.
    Based on the above, the Shoshone/Arapaho Tribes have identified 
several critical items that must be incorporated into a new 
reauthorization bill in order to make 25 CFR 170 a useable rule that is 
not biased against Land Based Tribes constrained by reservation 
boundaries and geographical locations. Those items are as follows:

  <bullet> Define Access--The current statute and regulation does not 
        define ``access'' nor does it place any limit on to what extent 
        the route can be included in the IRR inventory. Because of this 
        ambiguity, the Bureau of Indian Affairs is allowing tens of 
        thousands of non-BIA miles or non-Tribal system routes into the 
        IRR inventory. These routes include Interstate Highways, 
        National Highway System Roads, State, County and Township 
        Roads, Federal Forest Roads, and proposed roads. Most of these 
        routes are not located within nor do they provide access to 
        Indian or Native lands with some even being located in 
        designated Road less and Wild areas.

  <bullet> Better define the term ``Project''--the current regulations 
        do not define ``Project''. Most of the non-Federal roads 
        included in the IRR inventory are generating funding regardless 
        if it is a project or not. The BIA and FHWA are allowing tens 
        of thousands of miles into the IRR Inventory only to generate 
        funding with no intention of ever building a project on these 
        facilities.

  <bullet> Define Relative Need--We believe that the term ``Relative 
        Need'' is being misinterpreted by certain tribes and the Bureau 
        of Indian Affairs Central Office personnel. By allowing 
        thousands of miles of State and County Roads in the IRR 
        Inventory (now in excess of 130,000 miles) this does not 
        accurately represent the actual transportation needs of tribes.

         How are the needs of a tribe that is located close to 
        Interstate highways, high volume US highways or urban areas and 
        surrounded by high volume roads and streets that are owned by 
        others relative to the needs of a tribe that is located on a 
        remote reservation and whose only source of funding is the IRR 
        program?

    Land Based tribes cannot compete with tribes that are located close 
to urban areas and whose needs are being addressed by other public 
agencies. A concise definition of ``Relative Need'' is essential in 
order to ensure the intention and to improve the consistency of the 
methodology applied by each BIA Region.

  <bullet> Restrict Proposed Roads in the IRR Inventory--Proposed roads 
        are being added indiscriminately to the IRR Inventory System. 
        The BIA and FHWA are allowing thousands of miles proposed roads 
        into the IRR inventory only to generate huge funding amounts. 
        The manner in which the BIA is allowing proposed roads into the 
        system is inconsistent whereby certain BIA Regions are allowed 
        into the inventory and other Regions are not.

  <bullet> Establish an IRR Inventory Oversight Committee--From the 
        uncontrolled and indiscriminate manner in which inventory data 
        is being added into the IRR Inventory, (33+ thousand miles in 
        2004 to 120+ thousand miles in 2009) it is obvious that neither 
        the BIA nor the FHWA are providing any quality control or 
        quality assurance of the inventory data that is being used to 
        calculate funding for IRR distribution. Or worse, the quality 
        control of the data is disparate or discriminating and is not 
        applied consistently across all tribal data. This is evidenced 
        by the fact that Tribes in certain Regions are being allowed to 
        input fraudulent data only to generate funding. The owing 
        agency has no intentions of doing a project on the route, yet 
        the tribe can put it on their inventory and generate funding 
        indefinitely.

    An Inventory Oversight Committee made up of Tribal Transportation 
Officials must be established to monitor the inventory data that is 
being submitted. This committee will review all inventory data and will 
decide what data is eligible to be included into the official 
inventory.

Indian Reservation Roads Inventory and Its Impact on Funding
    Under the negotiated rule making process required by TEA-21, Indian 
Tribes and the Federal agencies negotiated new rules (25 CFR 170) by 
which the IRR program would operate. These rules provide the process by 
which Tribes and the BIA update the inventory of roads and bridges on 
the IRR system. The negotiated rulemaking process took four and one 
half years to complete and it took the BIA another two and one half 
years to publish a final rule. Upon publication of the final rule, we 
were dismayed to discover that the BIA unilaterally left out or changed 
critical language affecting the inventory that was included in the 
proposed rule. The BIA has never explained why it decided, without 
consultation or involvement of the Tribes, to remove or change 
regulatory provisions proposed by the tribal negotiation team that 
would improve the integrity of the inventory system.
    It is our understanding that the Indian Reservation Roads Program 
was established by Congress primarily to fund the construction of roads 
and bridges on Indian reservations due to the fact that these roads and 
bridges are considered Federal Facilities and it is the Federal 
Government's responsibility to construct and maintain these facilities 
on Indian reservations. We believe that the IRR program should 
primarily address the construction and improvement needs of roads that 
are located within or provide primary access to Indian lands and that 
are not eligible for other Federal, State, or County funding sources. 
The final rule makes a lot more Federal, State and County supported 
roads eligible for IRR funding, if an Indian Tribe timely submits the 
data information required to place a highway on the IRR inventory 
system. While Congress and the Administration have substantially 
increased IRR funding, the number of roads that are eligible for 
funding has been increased at the same time. Some of these roads are 
eligible for substantial sources of other funding. As a result, roads 
for which the only source of funding is IRR program are receiving a 
smaller slice of the bigger funding pie.
    When Congress enacted Section 1115 (k) of P.L. 105-178 (TEA-21), we 
believe it intended that non-BIA or non-Tribal roads within or 
accessing an Indian reservation were to be included in the Indian 
Reservation Road Inventory to generate only part of the funding needed 
to improve those roads. Otherwise, the County, State and other Federal 
highway budgets would get a windfall. The law is quite specific: ``. . 
. [F]unds authorized to be appropriated to carry out the Federal lands 
highways program under section 204 may be used to pay the non-Federal 
share of the cost of any project that is funded under this title of 
chapter 53 of title 49 and that provides access to or within Federal or 
Indian lands.'' 23 USC 120(l). We believe this means IRR funds can only 
be used to pay the non-Federal share on a state or county route is if 
it is project funded under 23 U.S.C. 104 and that it is a designated 
IRR project.
    The unilateral BIA decision on the final rule favors those tribes 
who are located near urban areas, where transportation needs are the 
shared responsibility of tribes and their neighboring governments and 
where the Indians are overwhelmingly out-numbered by non-Indian users 
of these roads. The BIA system for on reservation roads has a 
documented construction backlog of thirteen billion dollars. In the 
face of that need, the BIA's unilateral final rule has the result of 
siphoning off scarce IRR dollars from areas where the greatest need 
exists.
    A study conducted by the National Center for Statistics and 
Analysis (NCSA) and sponsored by the National Highway Traffic Safety 
Administration found that 5,962 fatal motor vehicle crashes occurred on 
roads under the jurisdiction of Indian reservations between 1975 and 
2002, an average of 213 fatal crashes per year. In 2002, the number of 
crashes on reservations reached a new high of 276, representing a 4.5 
percent increase over the previous recorded high of 264 crashes in 1996 
and a 52.5 percent increase over the 181 crashes in 1975. Over the 
years, these crashes have resulted in the loss of 7,093 lives of which 
3,322 were drivers, 2,717 were passengers and 1,001 were pedestrians.
    The objective of the study was to examine the characteristics of 
fatal motor vehicle crashes that occurred on federal lands, 
specifically, those lands that have been designated as Indian 
reservations. Using data from 1975-2002 NCSA's Fatality Analysis 
Reporting System (FARS), Characteristics of these crashes were examined 
to better understand the circumstances that are involved in these 
particular types of crashes.
    Roads on Indian reservations are considered Federal roads due to 
the fact that Indian reservations are considered Federal lands and the 
Federal Government is responsible for constructing and maintaining 
these roads. State and County roads are not considered Federal roads 
and they have separate funding sources and should not be siphoning off 
critical funding meant for Indian Reservations. To allow the 
hemorrhaging of funds away from Land Based Reservation to continue is a 
travesty and Land Based Tribes will never be able to reduce these 
tragic statistics.
    Rural Tribes, including large land-based Tribes, have expressed 
their concerns in writing to the BIA and the IRR Coordinating Committee 
regarding changes to the final rule that have altered the intent of the 
negotiated rulemaking process. To date, they have received no responses 
addressing their concerns.

Need for a Tribal Transportation Facility Inventory That Is Truly 
        ``Comprehensive''
    The Federal Highway Administration (FHWA) has failed to meet the 
intent of Section 1119(f) of SAFETEA-LU regarding the conduct of a 
``comprehensive'' National Tribal Transportation Facility Inventory. 
Despite the mandatory nature of this statutory requirement, FHWA has 
decided to conduct merely a ``windshield survey'' sampling of IRR 
roads. This approach and methodology falls far short of the statutory 
requirement. We urge the Congress to insist that FHWA complete a 
``comprehensive'' inventory of the IRR system as intended.
    The Land Based and rural tribes continue to lose millions of 
dollars of IRR funding because the BIA and FHLO are misinterpreting the 
provisions of SAFETEA-LU and 25 CFR 170. The mileage of the IRR system 
has grown from approximately 62,000 miles in 2004 to over 126,000 miles 
in 2010. This growth can be directly attributed to the addition of 
roads that are the responsibility of other public authorities (i.e. 
States and Counties). It is very apparent that these roads are being 
added to system only to generate funding for a particular tribe with no 
intention of ever constructing these roads. We have verifiable proof 
that many of these roads are being added to the IRR inventory with 
bogus data. This practice is favoring tribes whose lands are located 
near urban areas with high volume traffic and is harming rural tribes 
with large land bases whose system is comprised mainly of BIA and 
tribal roads. We have tried to correct this problem administratively 
and have met with no success. Critical funding continues to hemorrhage 
from Land Based reservations and people to those tribes with high 
volume State and County roads included in their IRR inventory. The IRR 
program has become a state and county roads program.
    This fact has been further substantiated by the United States 
Department of the Interior, Office of the Inspector General's 
evaluation report on the Department of the Interior roads programs, 
dated February 1, 2010. That report specifically states ``We found 
significant inaccuracies in roads inventories that affect the ability 
of bureaus to identify needs correctly and inefficiencies in the 
process that bureaus use to prioritize their needs''. The report 
further states ``All bureaus have project implementation plans and the 
ability to track spending. Two of the bureaus, however, Bureau of 
Indian Affairs (BIA) and Bureau of Land Management (BLM), lack 
sufficient safeguards to adequately detect misuse and mismanagement of 
funds.'' Although the problems have been identified, it appears that 
the BIA is ignoring these findings and the diversion of critical road 
construction funding for Land Based Tribes continues.
    The issue remains urgent to land based tribes since we deal with 
critical on-reservation vehicular transportation needs. Our needs arise 
from tribal and BIA roads, and meeting them relies primarily on IRR 
funding. The geographic isolation of most land based tribes prohibit 
them from competing in a system of adding Interstates/NHS highways, 
State and County roads onto the IRR system just to reap the inflated 
formula amounts. Also most land based tribes' priorities are not 
others' interstate or state roads, but the very roads they must travel 
to get the basic medical and educational services. On the BIA system 
alone, there is a documented backlog of $13 Billion just to improve the 
system to a safe and adequate standard. At present funding levels, and 
without further deterioration of the system, it would take 28 years to 
address this need. Allowing State and County roads into the IRR system 
simply to generate funding is siphoning off critical road construction 
funding for tribes whose only source of funding is the IRR program.

BIA/FHWA Proposed Fix to 25 CFR 170 Question 10
    The BIA and the FHWA are proposing an administrative fix to 25 CFR 
170 Appendix C to sub-Part C Question 10. Of particular concern to the 
Shoshone/Arapaho Tribes is the Bureau of Indian Affairs and Federal 
Highway Administration's interpretation of certain critical items of 
Question 10 which we feel are flawed and should be reassessed to ensure 
that they are interpreted correctly and in accordance with the intent 
of the original regulation as negotiated and agreed to by the Tribes 
and the Federal Government. Of particular concern are the following 
items:

  <bullet> The proposed fix fails to correct the problems that are 
        negatively affecting the Land Based Tribes in that non-BIA 
        system and non-Tribal facilities will still be able to generate 
        funding at 100 percent.

         23 USC 120(l) clearly restricts the use of IRR funds to the 
        non-Federal share for any project that is funded with section 
        104 funds of this title or chapter 53 of title 49.

  <bullet> The proposed fix will allow local roads and minor collectors 
        to generate IRR funding at 100 percent.

         23 USC 101(5) clearly indicates that local roads or rural 
        minor collectors are not classified as ``Federal Aid Highways'' 
        therefore are not eligible for federal funding. For a non-
        Federal or non-Tribal road to be eligible to IRR funding, it 
        has to be eligible for other Federal funding. (See 25 CFR 170 
        appendix C to subpart C--question 10).

  <bullet> The proposed fix will change the process of determining 
        eligibility of non-BIA or non-Tribal eligibility form weather 
        it meets the definition of a Federal aid highway to determining 
        eligibility by Functional Classification.

         It is our understanding that a Federal Regulation can only be 
        changed through the negotiated rulemaking process. We find that 
        changing a non-BIA or non-Tribal facility's eligibility from 
        whether it meets the definition of a Federal aid highway to 
        determining eligibility by Functional Classification is a major 
        change in the regulation. We question the legality in this 
        change as well as the matrices for the transition year and the 
        final cannot be implemented as proposed.

  <bullet> The BIA made significant changes to Question 10 from what 
        was proposed by the negotiated rulemaking committee. These 
        changes, although subtle, allowed thousands of miles of non-BIA 
        and non-Tribal miles to generate funding at 100 percent.

    The proposed BIA/FHWA administrative fix should not be implemented 
until all of the questions and concerns of Land Based tribes are 
satisfactorily answered and resolved.

Road Maintenance
    Protection of the investment in any type of infrastructure requires 
proper maintenance. Historically, the IRR maintenance system has been 
chronically under-funded which has caused safety hazards and premature 
failure of many roads on the IRR system. Roads usually have a 20 year 
design life but, because of inadequate maintenance, many of the IRR 
system roads last only about half of their design life and have to be 
reconstructed much sooner. The BIA is responsible for maintaining BIA 
system roads; however the funding BIA provides is approximately 25 
percent of what is required to properly maintain the system. The IRR 
maintenance situation has become even more critical with the increase 
of IRR funding through SAFETEA-LU. While IRR construction funding is 
increasing, BIA road maintenance funding is declining.
    The BIA Road Maintenance Program has been chronically underfunded 
under the U.S. Department of the Interior. This program is included in 
the Tribal Priority Allocation (TPA) and must compete with other Tribal 
social programs for funding. The funding invested in Road and Bridge 
Construction on Indian Reservations is being compromised due to 
inadequate maintenance funding. While funding for Road Construction has 
increased the amount of funding available for Road Maintenance has 
declined. Consequently, roads and bridges constructed on Indian 
Reservations last about half of their design life. The maintenance of 
these facilities is a Federal responsibility and the health and welfare 
of Tribal members who have to use these roads is at risk on most 
reservations.
    The BIA receives approximately $25 million per year as part of its 
lump sum appropriation for road maintenance activities. BIA now 
estimates that $120 million per year is actually what is needed to 
properly maintain roads on the BIA system. At present levels, the BIA 
spends less than $500 in maintenance funding per mile; most state 
transportation departments spend approximately $4,000 to $5,000 per 
mile each year on maintenance of state roads. Of course, states receive 
highway taxes based upon the sale of gasoline within that state. While 
users of tribal roads pay these same state highway fuel taxes, tribal 
roads receive little or no benefit from state fuel taxes. Tribes are 
unable to impose gas taxes in addition to, or in lieu of, those imposed 
by the surrounding states.
    The only practical solution we see for this problem is that since 
the roads on the BIA system are considered Federal roads, the BIA road 
maintenance program should be provided extra funds out of the Highway 
Trust Fund as are other Federal Lands Highway Programs roads.
    It seems inevitable that a gas tax increase will be required to 
fund the nearly bankrupt Highway Trust Fund. If a gas tax is 
implemented the Shoshone/Arapaho would advocate for a portion of the 
increase (probably a half or one cent) be set aside for the Federal 
Lands Programs and include funding for the BIA road maintenance system 
out of this amount.

Conclusion
    On behalf of the Shoshone/Arapaho Joint Business Council, I thank 
the Committee for its attention to and support for the Indian 
Reservation Roads program. We have attempted to provide the Committee 
with a few examples of what is happening with the current 
interpretation by the BIA and FHWA that is having negative impact on 
the funding for Land Based Tribes. We are confident that with your 
help, the IRR program will be restored to what it was originally 
intended-building and maintaining infrastructure on Indian Lands. Thank 
you for inviting the Shoshone/Arapaho Tribes to present this testimony. 
If we can answer any questions, now or at some future date, please do 
not hesitate to ask.

Attachment

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Tester. Thank you, John. I appreciate your respect 
for the time. I thank you for your comments.
    Before we get into questions, once again I would just ask 
if you've got a comment during our public comment time, raise 
your hand so Virginia can get you. Anybody that's not on this 
list, if you still want to comment, get ahold of Virginia.
    Let's go to questions. So I'm going to make the assumption 
that you've all been involved with the Q-10 consultations. Fair 
assumption?
    Mr. Steele. Yes.
    Senator Tester. Good. So I'll just start with you, Chairman 
Moran. What did you learn from the Q-10 consultations?
    Mr. Moran. The main thing I picked up on that was that the 
funding that's there is not done in an ethical manner. It's not 
done in a sharing that comes from data that's from an Indian 
reservation. It comes from data that's put together there from 
past records, and records sometimes aren't current. And it's 
used accordingly.
    Senator Tester. Okay. Jim, same question. What'd you learn 
at the Q-10 consultations?
    Mr. Steele. I think one of things that we've learned in 
this whole process, including the Q-10 and other things and 
other meetings, is that one thing for sure is we need some sort 
of standard quality assurances to submission of the numbers 
into the data. What kind of data is being submitted? Is it 
accurate?
    And we had a meeting just before you arrived, Senator, on 
this issue, and it was very telling.
    Our region is going by the book. We report on the 
conditions of our roads, and that's what we submit. There's 
regions that submit the quality of roads, but it's not the 
actual on-the-ground quality of those roads. And so that's 
troublesome when you have inaccuracies in the Bureau 
reporting--the people in different regions reporting 
inaccuracies and entering inaccuracies into the system to gain 
the extra dollar over other regions. That's not fair, and 
that's not equitable, and that's not Indian Reservation Roads.
    And so I would contend, Senator, that we either need to 
change the IRR name to something else. It's obviously not 
Indian Reservation Roads. But if we're going to keep the name 
IRR, we need to put it back the way it was.
    And I would contend once again that if we're going to keep 
this system the way it is, it's unfair, inaccuracies being 
reported and not being corrected, then change the name from IRR 
to something else, State Highway Fund or Extra County Fund for 
their roads. But it's certainly not Indian Reservations Roads.
    Senator Tester. Thanks, Jim. Tim, what did you learn from 
the Q-10 consultations?
    Mr. Rosette. It's complicated, you know, very complicated. 
There's a lot of issues out there outstanding. I've been doing 
this for over five years, and I'll tell you, Senator Tester, 
we've been writing letters for years and years and years, and 
I'll tell you what, nobody listens. Nobody cares. I don't know. 
Toss them over to the side. I don't know what they do with it. 
You know, until finally this year with Assistant Secretary Echo 
Hawk. He finally tried to grab that bull by the horns. But, you 
know, it's a big bull, and he does need help.
    Senator Tester. Okay. John Smith, same question. What have 
you learned from the Q-10 consultations?
    Mr. Smith. We still have a long way to go in resolving the 
issues that intertwine with Q-10. Q-10 is a conglomerate of 
various factors that are very technical in nature.
    When you talk about the cost to construct, when you talk 
about vehicle miles traveled, when you talk about the integrity 
of submission of information, it is very complex.
    I think we need to look at a possible simpler solution that 
would not be quite as ambiguous and be as broad as it is now to 
narrow it down to simple activities, such as population, land 
base, and road miles, rather than VMT.
    VMT is a very subjective matter, which comes to vehicle 
miles traveled. We cannot compete here in Montana and Wyoming 
with vehicle miles traveled as they can in a small-acre 
reservation in, say, eastern Washington, which is on I-5. They 
have an interstate and a turn-off into their reservation, and 
it's considered an Indian road. When you have 28,000 vehicles 
per day times 365, the VMT escalates at an enormous rate.
    We need to have factors that are very essential to Indian 
reservation way of life and our needs for assistance. We have, 
in some cases, lost tribal members who have called for 
emergency services, which then the ambulance has to come for a 
maybe 45-minute tour. And then they to have a police officer 
come and verify it is a sound accident, which takes time. And 
then they have to be retrieved and put in an ambulance to get 
to town. That's more than an hour. Most fatalities are 
considered, effectively, if they're treated within the first 
hour, the golden hour of life. We don't have that luxury, sir.
    Senator Tester. Okay. Each one of you represent different 
entities, and I think you're fully aware that they're in the 
process of working on a new Highway Bill coming up this next 
year. Do you have priorities for that bill?
    And we'll start with you once again, Chairman Moran, if you 
have priorities for the upcoming Highway Bill reauthorization?
    Mr. Moran. The biggest priority I think would be to get 
Section 10 of that bill, rename the bill, get Section 10 into 
an accurate distribution-type formula so that the way the funds 
are going to be distributed, are distributed equally. To ensure 
that that's done, I think that has to be.
    There's a lot of discomfort among us tribal leaders. And we 
don't want to say that some tribes are treated because of the 
noise they make. But sometimes that formula is distributed and 
it happens that way. I think it will make everybody happy.
    Senator Tester. Okay. Jim, priorities for the next Highway 
Bill reauthorization?
    Mr. Steele. I think if there's a way to get over this big 
hurdle or the bill that Mr. Smith was talking about, I think 
each individual reservation has their own specific priorities 
in terms of the bill. And usually we take the lead of our 
member tribes, so I'll defer to Mr. Smith and Mr. Rosette. They 
deal a little more specifically on those areas. And so they 
bring those to our body and will push those forward. Generally, 
we're united on our priorities. And as Mr. Smith and Mr. 
Rosette are working on them and they come up to our council, 
we're going to be standing 100 percent behind their efforts. So 
I'd defer to them to answer more specifically.
    Senator Tester. Good, Jim.
    Tim.
    Mr. Rosette. I agree with Big John on one of the proposals. 
You know, it has to be fair and equitable distribution of 
funding. And please don't consider me an advocate of the 
solutions for any tribe, because I'm not. We need to be fair 
and equitable. But fair and equitable has not been the case 
over this last Highway Bill, especially for rural land-based 
tribes. The distribution of their distribution is not there, 
sir.
    And I think it needs to be toned down and simplified. One-
third, one-third, one-third. Vehicle miles traveled has its 
places, but not with us, because we cannot equitably distribute 
on vehicle miles travelled. That in itself, even with the 
proposed changes to Question 10 right now, vehicle miles 
traveled even at the non-federal share are massive amounts that 
we can't compete.
    We don't have--You know where we live. You know.
    Senator Tester. I do.
    Mr. Rosette. We don't have it. What we have is what we 
have, you know. There's just nothing, you know, unless we come 
down to that realization and we can get NCAI and the rest of 
them and they can come aboard and say, Hey, let's just do this 
and do it right. Because it comes down to what's right and 
what's wrong. And what's going on is wrong.
    Senator Tester. Okay. John.
    Mr. Smith. Thank you, sir. I think we've maintained the 
program pretty much as it is. We do have road construction. We 
have road maintenance. We do have the need for safety 
improvements. Also with that, we have needs in transit. The 
ability of getting our elders to and from the clinics, 
treatment, pay their bills in town, give them a ride with this 
current economic condition. Our seniors pay people to take them 
to town. They give them gas money to take them to town and come 
back, pay their bills. And senior citizens are the ones who are 
the best bill payers in the world. Our water departments have 
delinquency rates among younger people, but very little with 
the senior citizens. They have their lives budgeted, they take 
care of themselves, and they need assistance. And we as Indian 
people have always prided ourselves on taking care of our 
elderly.
    And I think that also we would recommend that we would work 
through the Montana-Wyoming Tribal Leaders Association, our 
council, in preparing our issues and our needs for 
transportation improvements. We do have a committee chairman 
who currently serves as our representative in our 
transportation committee. And we usually work most of our 
issues through that process. Thank you.
    Senator Tester. Thank you. And I want to thank you all for 
your presentation and your answers to the questions.
    We've got 110 people at this hearing. That's more than 
probably any D.C. hearing we've had in a while. So we 
appreciate the public being here. I want to express my 
appreciation to this panel and the preceding panel for their 
honesty and their eloquence. Thank you for being here.
    We're going to move now to the public comment section. So 
while this group disbands, we will do that.
    Yes, Bud.
    Mr. Moran. Senator, I want to thank you and thanks for your 
support people. They've been very helpful here. And it's been a 
pleasure to have you here and have this meeting with them. It's 
been really good.
    Senator Tester. I think we're going to make a proposal to 
have all our Senate Indian Affairs hearings here; how's that?
    The public comment section, and I would ask everybody to 
try to keep it to three minutes. If some of you came so well 
prepared that you have a written statement, that's outstanding. 
You can turn that in, too. I have a list here that Virginia has 
given me. There's a mic in the center of the room. And so we'll 
ask you to go to it.
    I'm going to start with Jim Lynch, who's Director of the 
Montana Department of Transportation. Jim, you'll get the ball 
rolling. And then after Jim gets done, if Kevin Howlett wants 
to get in line, we'll go to Kevin. Then we'll just kind of go 
down the list. Okay. Jim, good to have you here.

    STATEMENT OF JIM LYNCH, DIRECTOR, MONTANA DEPARTMENT OF 
                         TRANSPORTATION

    Mr. Lynch. Senator Tester, thank you very much for asking 
me to speak. I want to thank Chairman Moran and the Salish-
Kootenai people who have opened up their home for us all here 
today to have this hearing.
    I listened to the panel and I've heard some of the 
concerns, and I think the common denominator here is Indian 
Reservation Road investment is very important to the land-based 
reservations here in the state of Montana.
    And to give you a little bit of a highlight of the Montana 
Department of Transportation and our relationship with the 
existing land-based reservations in the state of Montana, it's 
been a very positive one over the last five years. The 
Department of Transportation, and I'm saying this for an 
important point to make, since 2006 we've invested $325 million 
in highway infrastructure on state highways that are inside the 
exterior boundaries of Montana reservations. We've included $4 
million in transit, $3 million in training grants, $1 million 
in highway safety investment, $6 million in community 
transportation enhancement projects, and $150,000 for safe 
roads to school programs.
    And I'm saying that not to make the point that they don't 
need Indian Reservation Road investment, but just the opposite. 
I am making that point to let you know that state highway 
departments in Montana have taken a very responsible road in 
using its core highway dollars to take care of its highways, 
even the highways within the existing boundaries of the Native 
American Indian reservations in Montana. That allows the Indian 
Reservation Road Program revenue that the reservations receive 
to be spent on their roads. And I think it also demonstrates 
the importance of that investment for those roadways.
    We have a great relationship with the seven land-based 
reservations in the state of Montana. And I can assure you as 
the Director of Transportation who's been on every one of those 
reservations, I can assure you there's tremendous need for 
highway infrastructure investment. And it's not state highways, 
but actually truly Indian reservations roads. Thank you for 
your time.
    Senator Tester. Thanks, Jim. Before you give up the mic, 
tell your name and position, that way you got it on the record.
    Mr. Lynch. I am sorry, Senator. My name is Jim Lynch. I'm 
the Director of the Montana Department of Transportation.
    Senator Tester. Thank you very much. Kevin, you're up next. 
He's coming up. Saw a great heath care facility. Kevin, man, 
it's spectacular. We appreciate the tour today, Kevin. You're 
up next.

 STATEMENT OF KEVIN HOWLETT, COMMISSIONER, DISTRICT 1, MONTANA 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Howlett. Thank you, Mr. Chairman. For the record, I'm 
Kevin Howlett. I'm a Transportation Commissioner for the 
Department of Transportation. I'm also the Director of Health 
and Human Service for the Salish-Kootenai tribes.
    Thank you, Mr. Chairman, for holding the the transportation 
hearing today here in Indian country, Flathead reservation, my 
home.
    First, let me say that my testimony does not represent the 
State of Montana, but reflects my service and observation as a 
Native American who has the privilege of sitting with this 
distinguished group of Montana citizens who represent the 
entire state.
    I was first appointed to the commission by Governor Judy 
Martz and was subsequently reappointed by Governor Brian 
Schweitzer. It has been a very challenging role, but one that I 
feel a great sense of accomplishment and pride in the projects 
that we've been able to do.
    The issue of transportation in Indian country is one that I 
have become increasingly observant. The specific needs that are 
present, including isolation and financial resources all need 
to begin to address the long overlooked infrastructure that has 
and continues to add to the many social and economic issues 
confronting tribal nations today.
    The purpose of my presentation today is two-fold. I would 
like to see the operations of the IRR Program be more 
reflective of the needs on ground. Methods by which scarce 
funds are distributed tend to ignore the needs of tribes who 
are large land-based and favor former Indian country. The 
reality is that most of the country was formally Indian 
country.
    As you are aware, tribal governments have very little 
ability to generate resources to meet the needs. There are many 
areas of our state that need repair and reconstruction. And the 
resources, as well as we can plan, are insufficient to meet the 
need. This is especially true for many Indian reservations that 
are not part of the Interstate System, National Highway System 
or State Secondary System.
    In addition to roads, there are issues of bridges, 
pedestrian walkways, et cetera. While I know very little about 
the operation and infrastructure of the BIA Roads Program, I 
can reflect upon a very concerted effort that I led as a 
commissioner to work with the BIA on projects on the Cheyenne 
Reservation. We and the Transportation Commission were able to 
utilize an agreement with the BIA that would have allowed them 
to use their force account equipment, et cetera, to complete 
the project. They were not able to deliver the project, and the 
state had to complete the project. This put a cold shoulder on 
further discussions about agreements on Indian land between the 
BIA and the state.
    I would hope that the issue of Indian reservation roads is 
further discussed and consideration be given to the formulation 
of an infrastructure and necessary resources to accommodate and 
utilize funds the state may have utilizing the reservation 
workforce.
    I would also like to recommend that the Bureau of Indian 
Affairs create an entity that can provide Reservation Roads 
Programs with the needed technical assistance to provide Indian 
contractors the expertise, including financial bargaining to 
compete for projects on the reservation, that they can within 
the scope of their resource and capacity achieve.
    The issue of financing could be expanded within the scope 
of this technical review and structure. My concern is that 
because the state has contracting law and regulations, there's 
oftentimes no opportunity for local contractors or for that 
matter tribes the ability to compete. It might also be worth 
examining the potential for Legislative Land Reach, the new 
transportation bill, that would provide a preference on federal 
projects on Indian lands to tribes capable of competing on 
construction jobs, again, within the scope of their capacity.
    A final issue, I would like to ask for your support for 
federal resources to complete the Highway 93 project on this 
reservation.
    Again, thank you for holding the hearing and for your 
continued support for Indian country and the citizens of 
Montana.
    [The prepared statement of Mr. Howlett follows:]

Prepared Statement of Kevin Howlett, Commissioner, District 1, Montana 
                      Department of Transportation

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Tester. Kevin, thank you for your testimony.
    Scott Russell, part of the Crow Nation will be next. After 
him will be Jay St. Goddard.

       STATEMENT OF SCOTT RUSSELL, SECRETARY, CROW NATION

    Mr. Russell. Thank you, Senator Tester. For the record my 
name is Scott Russell, Secretary of the Crow Nation.
    Once again, thank you, Senator, for holding the hearing 
here. Also, we'd like to extend our gratitude to the Flathead 
Nation for hosting this event and also for having the hearing 
here.
    Senator Tester, we do have written testimony that we've 
given to your staff already. But just to highlight a little 
bit. For the Crow reservation, at one time in the Fort Laramie 
Treaty of 1851, the Crow reservation accomplished 38 million 
acres. Since that time, it has dwindled down to 2.2 million 
acres. In the 1920 Crow Allotment Act, our reservation now is 
the highest fractionated reservation in the country. Ten 
percent of the all fractionation--The problem with 
fractionation is right here on the Crow reservation in Montana.
    And we need technical assistance to help us deal with 
right-of-way issues. We need technical assistance to help us 
deal with some 200 landowners on one tract of land. And on our 
Crow reservation we have 184 interstate highway miles. We also 
have 3,500 miles of reservation roads.
    Now, you know Montana weather. It does not compare with 
southwest. It does not compare to anything in the south. We 
need more money for maintenance. And some of these roads are 
impassable during that time.
    We had a premeeting prior to this hearing this morning, and 
I was quick to add that this nation is at war in Iraq and 
Afghanistan. And I was also proud to mention that per capita 
Native Americans are the highest minority group that enlist in 
times of war since World War I. We feel that we have given and 
given and given way too much. And we do appreciate what we get, 
but we have still kept giving. And yet we defend this country 
proudly.
    The United States Government has given billions upon 
billions of dollars to rebuild a foreign country in Iraq and 
Afghanistan. We feel that it's about time that the United 
States Government rebuilt Native America. It's only right.
    Any amount of money is good, but regardless, you start 
putting dollar amounts, it's hard. Who's to say who gets more. 
And it boils down to a divide and conquer theory, and it's not 
right.
    But we do thank you for being here.
    Senator Tester. Thank you, Scott. We appreciate your 
testimony.
    Jay St. Goddard following. After Jay will be Jacque 
Hostler.
    Jay's part of the Blackfeet Tribal Council.
    Jay.

STATEMENT OF JAY ST. GODDARD, BLACKFEET TRIBAL BUSINESS COUNCIL

    Mr. St. Goddard. Thank you, Mr. Tester. For the record my 
name's Jay St. Goddard, Blackfeet Tribal Business Council, Land 
Chairman in our Resources and Roads Department.
    Also I want to thank Mr. Echo Hawk for being here with his 
staff. Once again, I think it's great that you come out to the 
state of Montana to hold these kind of hearings. When you're 
very sincere in your work, it shows the Montanans that you want 
to get the job done.
    As stated earlier, Mr. Echo Hawk does have a big bull by 
the horns, but I've seen a John Deere tractor slow a bull down, 
too.
    But there was a lot of talk this morning, and I made a 
comment in our session earlier about dollars. A lot of them to 
me were millions of dollars being spent on federal, state and 
county roads. But the need is still not being met in Indian 
country. And safety is an issue. And the roads all need to be 
rebuilt that were built in the 1970s.
    Right now our roads are over 1,200 miles of BIA roads. 
State roads run through our reservations as Mr. Smith has 
stated. But off of those turns those other roads are BIA roads 
and are in poor shape. To the west of us is Glacier National 
Park. $20 million are being put into a road, and yet our needs 
are still being underfunded each year.
    You talk about the formula, Question 10. I've been to these 
consultations. Everyone who went to those consultations, they 
drove onto a nice interstate off of a nice state highway road. 
Maybe one of these consultations needs to be held in Heart 
Butte, Montana, where your car would fall apart on half of that 
BIA road.
    Anyway, I'd like to get to the point. And I'd like to point 
out that the graphs that were shown by these gentlemen that 
worked for the that seven to eight years--Mr. Rosette, John 
Smith, Donny White from the Blackfeet--that they be listened 
to. As you heard, they've been writing letters for years. 
Tribal politics, councilmen like myself come and go, but these 
gentlemen work diligently and hard. They got the statistics. 
They know. And we can only bring this to you as tribal leaders. 
These gentlemen need to be listened to by the Interior. These 
people sitting right here.
    Mr. LeRoy stated that things were going good. That's not 
true. I wasn't happy with the consultation. I went to the one 
in Billings.
    Question 10 is being avoided. They don't know how to answer 
it. The formula is so complex. Some of the people still don't 
know how to figure it out today. And yet we're hurting for 
dollars in Indian country.
    Seventy-eight percent of the roads since 2004 and 2009 have 
went to state and county roads, not BIA roads. So this formula 
is not working. If they don't want to use Question-10, then we 
should go back to the old way. There was no problems then.
    And right now maintenance is hurting. We build roads in 
Indian country, but there's no maintenance. You take the 
dollars away from the maintenance workers.
    Thank you and thank you for all your help and the other 
three senators that help you.
    Senator Tester. Thank you, Jay. Next up is Jacque Hostler. 
Jacque will be followed by Pete Red Tomahawk. Jacque is a 
representative of the Indian Reservation Roads Program from 
California, so thanks for being here, Jacque.

STATEMENT OF JACQUE HOSTLER, CALIFORNIA PRIMARY REPRESENTATIVE; 
                   VICE CHAIRPERSON, INDIAN 
            RESERVATION ROADS COORDINATING COMMITTEE

    Ms. Hostler. Thank you very much. Distinguished Senator 
Tester, honored witnesses, guests and staff, I would like to 
thank Chairman Dorgan, Vice Chairman Barrasso, the Senate 
Committee Leadership and express appreciation for the 
successful work this year and major accomplishments on 
transportation and other issues, as well as the Salish-Kootenai 
tribe. Good afternoon. My name's Jacque Hostler. I'm the 
California Primary Representative and the Vice Chairperson of 
the Indian Reservation Roads Coordinating Committee. I am the 
Chairperson of the North Coast Tribal Transportation Commission 
and the Chief Executive Officer of the Trinidad Rancheria. 
Today I bring you comments from the North Coast Tribal Transit 
Association, which represents eight tribes. In addition, I'm 
speaking on behalf of 110 California tribes.
    As of 2005, California was the state with the largest 
native America population according to the census, and we 
received historically less than 2 percent of the IRR funding.
    Historically California treaties were negotiated setting 
aside 7.5 million acres of land for California tribes. These 
treaties were never ratified with the state or the senate and 
kept hidden until 1905.
    During the termination era, 43 tribes were terminated in 
California and lands were taken out of trusts and often lost. 
Through litigation settlement and congressional action many 
tribes have been restored, but the scars still remain and 
continue to affect the ownership of tribal land.
    Eventually many executive reservations and rancherias were 
established in California, although they were much smaller than 
the original treaty land. Because of this history, many lands 
that were constructed by the tribes and the Bureau of Indian 
Affairs were conveyed to state, county and local ownership.
    I bring this to you to bring the other perspective. This is 
why we have county and state roads on the Indian Reservation 
Roads Program.
    Today, history is repeating itself. Tribes do not have 
ingress and egress to the reservations and rancherias. Palm 
Springs is one example of stretching limits of the IRR program, 
and there may be others in California as well as every region 
in the nation. However, this perception is incorrect, and 
California should not be judged as building roads to 
Disneyland.
    While there are a handful of urban tribes with large 
casinos located on and near interstates, there are thousands of 
tribal dirt and gravel and unimproved roads that provide access 
to tribal reservations, villages and communities.
    Many tribes in California are located in remote areas 
without safe access to basic services such as health services, 
emergency services, jobs and schools. People die because they 
cannot get to medical services just as they do in every other 
region. It does not matter who owns the right-of-way. What is 
critical is that the ambulance can get through, that the school 
bus can travel safely, that people can get to safety if their 
land is consumed by wildfire, that the roads can support a 
tribal economy on a reservation, and that tribal members can 
get to jobs located off the reservation. SAFETEA-LU recognizes 
this and funding was based on relative need.
    You have my written comments. We do support the directive 
the agencies are putting forward. The BIA and Federal Highways 
are contracting with a private consultant to review the IRR 
inventory and address roads that are incorrectly classified. 
The process must be transparent and provide an opportunity for 
tribes to be part of the process. We're pleased with the 
agencies in trying to resolve it.
    In closing, as I speak to you today, I am not only speaking 
as a transportation leader, I'm speaking from the heart of our 
people. I was born and raised in northern California. I went to 
school on the Hoopa reservation. I married a Hoopa tribal 
member. I have two tribal member children, four tribal member 
grandchildren. Our tribal elders, our grandmothers are cultural 
and spiritual leaders, and all of our tribal members depend on 
roads to access, not only basic necessities, but also 
spiritual, ceremonial and religious sites. We live in the 
mountains, in the river valleys, in the deserts and on the 
coast. We all ask you to visit California and see California 
tribes and lands through our eyes.
    Thank you again on behalf of California's Pacific Region, 
110 tribes and tribal people. Thank you for your dedication.
    [The prepared statement of Mr. Hostler follows:]

       Prepared Statement of Jacque Hostler, California Primary 
Representative; Vice Chairperson, Indian Reservation Roads Coordinating 
                               Committee

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Tester. Thank you, Jacque. I appreciate you coming 
all the way from California.
    Next we have Pete Red Tomahawk from the Standing Rock Sioux 
Tribe. Behind Pete will be Sampson Begay.

STATEMENT OF HON. PETE RED TOMAHAWK, DIRECTOR OF TRANSPORTATION 
 PLANNING AND DEVELOPMENT; GREAT PLAINS REGION PRIMARY MEMBER, 
   INDIAN RESERVATION ROADS PROGRAM COORDINATING COMMITTEE, 
                   STANDING ROCK SIOUX TRIBE

    Mr. Red Tomahawk. For the record, my name is Pete Red 
Tomahawk. I am the Director of Transportation Planning and 
Development, and also I'm the Great Plains Region Primary 
Member on the Indian Reservation Roads Program Coordinating 
Committee representing the 16 tribes in North Dakota, South 
Dakota and Nebraska.
    On behalf of the Standing Rock Sioux Tribe, I want to 
express my appreciate to the Committee of Indian Affairs, to 
you, Senator Tester, and to the retiring Committee Chairman, 
Byron Dorgan for convening today's hearing concerning tribal 
transportation. Thank you for your advocacy on behalf of the 
Indian tribes.
    With all of the problems facing our country today, 
transportation needs have been overlooked. We are grateful that 
you are taking a leadership role to address the most basic 
protection that we can afford for our members today, safe 
transportation through our lands.
    Over the past five years, as a result of significant 
increases, Congress--through Indian Reservation Roads Program, 
tribes have achieved many successes and improved transportation 
infrastructure throughout our communities and helped educate 
our members about road safety.
    Infusion of the American Recovery and Reinvestment Act and 
stimulus funds put our members to work and accelerated roads 
reservation improvements. Funds Congress had provided to tribes 
have saved lives and made a change for the betterment of our 
communities. Our tribe is doing our part to make road safety 
our number one priority along with the Federal Highway 
Administration.
    For the record, Mr. Chairman, I did leave a copy with your 
staff, you know, on our testimony. But what we would ask for 
is, you know, for the past two winters, we had back-to-back 
disasters. We had some severe winters. So what we've asked is 
to look at the road maintenance issue. The number one issue is 
to look at Congress--looking your direction to champion through 
the highway trust funds. $100 billion in looking at this issue 
of road maintenance. We need your help in this area. And with 
that, you know, for the record, you have my testimony.
    Senator Tester. Thank you, Pete.
    And for everybody else, if you have written documents, it 
will be part of the record if you turn it into us.
    Pete Red Tomahawk. Thank you very much. Appreciate you 
coming.
    Sampson Begay, and after Sampson it will be Richard Palmer.
    Sampson.

             STATEMENT OF SAMPSON BEGAY, CHAIRMAN, 
           TRANSPORTATION AND COMMUNITY DEVELOPMENT 
                    COMMITTEE, NAVAJO NATION

    Mr. Begay. Thank you, Senator and members of the Committee. 
My name is Sampson Begay. Please accept these comments on 
behalf of the Navajo Nations from the state of Arizona and in 
support of today's testimony by John Smith, the Transportation 
Director for the Shoshone Arapaho tribe. I am also Chairman of 
the Transportation and Community Development Committee of the 
Navajo Nation. I am also a member of the Indian Reservation 
Roads Program Coordinating Committee. I joined Mr. Smith in the 
stages of the Navajo Nation disagreement with and opposition to 
the Bureau of Indian Affairs and Federal Highway Administration 
new interpretive policy on Question 10 in which they seek to 
justify the expenditure of scarce indian reservation roads and 
state and county roads.
    On February 4 and 5, 2009, in Denver, Colorado, the Navajo 
Nation hosted a meeting attended by leaders from eleven small 
rural tribes whose exterior boundaries encompass an excess of 
30,000 square miles. These were and are the tribes for which we 
believe the Indian Reservation Roads Program was created. 
Tribes whose locations are so remote that they cannot rely on 
state and county transportation infrastructure.
    Yet, it was these very same tribes who by 2009 had lost the 
most under the BIA and the Federal Highway Administration's 
implementation of the 2004 program regulations. The funds 
allocated to the land-based tribes loss were from 76 percent in 
2004 to 28 percent in 2008. Because of these staggering drops 
in funding to rural tribes, was a staggering increase in the 
miles of state and county roads allowed into the Indian 
Reservation Roads Program inventory.
    From 2005 to 2007, the miles of the State Interior and 
miles of Tribal and BIA roads increased from 30,000 to 39,000. 
Clearly the BIA and the Federal Highway Administration were 
improperly using scarce Indian Reservation Road monies as a 
second source of funding for roads improperly using scarce 
monies that should have been used for reservation roads.
    At the meeting in Denver, the land-based and small tribes 
agreed----
    Senator Tester. Sampson, I've got four or five more folks 
who want to speak, and we're going to run out of time, so I'll 
ask you to wrap up. Your full written testimony that you turned 
in will be a part of the record, so----
    Mr. Begay. That being the case, I also have a written 
comment, so I will turn it in. I thank you very much.
    [The prepared statement of Mr. Begay follows:]

   Prepared Statement of Sampson Begay, Chairman, Transportation and 
             Community Development Committee, Navajo Nation

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Tester. No, I want to thank you very much for 
coming up. I appreciate it very much. Thank you for your 
testimony.
    Richard Palmer is next. Richard, before you get up, I just 
ask that you be concise or we're going to run out of time, as 
much as possible. I should have cut the other ones off earlier, 
I guess. But be as concise as possible.
    After Richard Palmer will be Harvey Spoonhunter.
    So go ahead, Richard.

    STATEMENT OF RICHARD PALMER, WHITE MOUNTAIN APACHE TRIBE

    Mr. Palmer. Thank you, sir. My name is Richard Palmer. I'm 
from the White Mountain Apache Tribe from Arizona.
    I've been involved in transportation for a long time. I 
know most of the members in here. Served with them. Sat with 
them. Laughed with them. And we all have the same problem. We 
need more money. My reservation is 1.6 million acres. We are a 
large land-based tribe. We are from Arizona, northeastern 
Arizona. And we suffer the same problems everybody else here 
does. We need money. We need interpretations of the Q-10. We 
need to look at reauthorization. A whole lot of this stuff is 
not just talk. We need to see action.
    Thank you very much.
    Senator Tester. Thank you. Thank you for being concise, 
too, Richard. Thank you very much.
    Next is Harvey Spoonhunter followed by Rick Kirn.
    Harvey, you're up.

  STATEMENT OF HON. HARVEY SPOONHUNTER, CHAIRMAN, WIND RIVER 
                       INDIAN RESERVATION

    Mr. Spoonhunter. Thank you, Senator. I'd also like to also 
thank Assistant Secretary Larry Echo Hawk and his staff. And I 
had the privilege of meeting with them at these consultations 
meetings. I appreciate the candor of the discussions and their 
view on all these complex issues.
    Mine is more of a comment, as John Smith has submitted our 
testimony and the panel, too.
    For the record, my name's Chairman Harvey Spoonhunter from 
the Wind River Indian Reservation.
    And I'd just like to comment that before we can go forward 
on this road on resolve, we need to look at the past. When I 
say we need to look at the past, on April 29th, 1994, the 
Clinton Administration, we had the same memorandum where all 
federal agencies consulted with tribes. So we cannot wait any 
longer. We need to address these issues. I think we're at a 
crossroads now. We had the opportunity to. Tribes are united 
together. And I would like to commend the President for setting 
up these consultation meetings so that we can have a voice in 
resolving a lot of these issues.
    Senator Tester. Thank you. I Appreciate it. Thank you very 
much.
    Next is Mr. Kirn followed by Wilford.

           STATEMENT OF RICK KIRN, MEMBER, FORT PECK 
        ASSINIBOINE AND SIOUX TRIBE; MEMBER, FORT PECK 
                         TRIBAL COUNCIL

    Mr. Kirn. Good afternoon, Senator Tester.
    For the record, my name is Rick Kirn. I'm a member of the 
Fort Peck Assiniboine and Sioux Tribe. I'm also a member of the 
Fort Peck Tribal Council.
    And I'll be brief, Senator Tester. I think I can't add too 
much to what people have said about the importance of tribal 
transportation.
    But do want to thank you for what you've done in 
Washington, D.C. We want you there and we need you there, but 
it's also nice to have you home. I've been to several listening 
sessions you've had, and I know that you don't only listen, but 
you also hear what people are trying to say. I want to thank 
you for that.
    And I think the main thing I wanted to talk about was the 
importance of the tribal transportation system. I think 
everybody here know what's happening in western North Dakota 
and also southeastern Montana. It's what they call Rockin' the 
Bakken. And it's one of the biggest in the country right now, 
and it's heading for Fort Peck. And I can't stress the 
importance of transportation in great economic development to 
our reservation, and actually to all of northeastern Montana.
    Fort Peck Reservation has four counties that we basically 
support up there as a reservation. Anything that happens with 
our transportation system has benefited all of northeastern 
Montana.
    And again, I just want to thank you for being here and 
listening to us.
    Senator Tester. Thank you, Rick. I appreciate you being 
here, too. Wilford, you're up next.

 STATEMENT OF HON. WILFORD WHATONAME, SR., CHAIRMAN, HUALAPAI 
                             TRIBE

    Mr. Whatoname. Senator Tester, we want to thank you. I am 
Wilford Whatoname from the Hualapai Tribe out in Arizona.
    The day before we celebrated the Hoover Dam overpass that 
was constructed and built and now the public can travel over 
the Hoover Dam. Anyway, I was there yesterday and so was Mr. 
Tester, yes, and I want to say that we want to thank you, 
Senator Tester, for convening this meeting today, since 
Chairman Dorgan has been retired. And I want to thank you for 
your advocacy on behalf of many tribes.
    With all of the others problem with our country today, 
reservation needs seem to be overlooked. We are grateful that 
you have taken a leadership role to address the most basic 
protection that can afford our members today and safe 
transportation through lands.
    I have a book here. And one is a letter that was sent 
September 22, 2010. And also Inner-Tribal Council of the 
Arizona Resolution, 1710, addressing the methodology for the 
distribution of funding questioning Question 10. Also 
Resolution No. 1710, also in support of the distribution of 
funding.
    And also I have here a testimony of the Hualapai Tribe, 
July 12, 2007. Which was done by Erin Forrest, 2007, and he is 
a director for the Hualapai Tribe on transportation. And he was 
a member of the committee that was working on the new TRIP Act 
that we had, and he finally said, I can't get them to all agree 
on one thing, you know, all tribes are not agreeing, so 
therefore, he resigned from that committee.
    And, sir, I want to thank him and the other tribal members 
that were on that committee. And I just want to hand this in to 
you today. And hopefully we can get something done.
    Today the biggest thing that seems to bother very tribe is 
Question 10. It affects us and impacts us as well.
    Thank you for your time.
    [The prepared statement of Mr. Whatoname follows:]

 Prepared Statement of Hon. Wilford Whatoname, Sr., Chairman, Hualapai 
                                 Tribe
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Tester. Thank you, Wilford, for being here.
    I think it's about time to wrap this up. We had a good 
hearing. And I want to thank you everybody for traveling, some 
of you very long distances, here to the Flathead Valley for 
today's hearing. I very much appreciate that. And I want to 
thank you for sharing your thoughts. And it's good to hear 
about how the Recovery Act has created jobs and improved 
transportation infrastructure throughout Indian country. And I 
appreciate the work you've done to find common ground on the Q-
10 issue.
    It's reassuring to hear that tribal leaders and 
administration officials are committed to working together 
closely. As we craft the next highway bill, it is critically 
important. And I appreciate your ideas. I appreciate the 
constructive thoughts that were offered. But it's more 
important to know we don't want the dialogue to end here. As we 
approach time to reauthorize the highway bill, we need to make 
sure Indian country is included in that process from the very 
beginning.
    Committee staff and my staff will be here for the next hour 
or so to keep today's conversation open. And it's important to 
know that this hearing will remain open for written testimony 
for two weeks, until October 29th. In case you have other folks 
out there that want to get their testimony in, there's some 
time to do that. So please keep in touch with the 
administration and individual advocates on your particular 
priorities. We'll keep the Committee's official hearing record 
open, as I said, for two weeks.
    We saw here today that transportation is vital in Indian 
country. Whether it's a fire truck trying to reach a rancher, a 
single lane road covered with ice or snow, or someone trying to 
navigate 12 miles of 12 lanes of gridlock in southern 
California. Each tribe has its unique challenges, and we need 
to keep all of those challenges in mind. Rather than fighting 
against each other, I challenge everybody, as always, to work 
together. We're fighting wars in the Middle East, we have 
troops deployed worldwide to keep our enemies at bay, so it's 
essentially critical that we treat our neighbors as neighbors 
and not as enemies.
    We have a lot in common, including our community 
challenges, whether it's tribes working with cities and 
counties to improve access or rural tribes working with urban 
tribes to protect all our members. Working together on these 
issues is absolutely critical. We need to keep talking 
together. We need to keep working these issues out with one 
another. We need to keep defining our priorities together, 
building alliances.
    By working together, we will improve tribal transportation. 
By improving tribal transportation, we will create jobs, we 
will make communities safer, and we will rebuild our public 
infrastructure.
    I want to thank you, again, all for being here. And I also 
want to thank Vice Chair, Senator John Barrasso, my friend out 
of Wyoming, for his contribution to this Committee. But it is 
of particular significance for me to point out somebody who we 
all know sitting in this room who has been a great leader for 
Indian country over all the time I've been in the U.S. Senate, 
which hasn't been that long, but many years before that. 
Chairman Dorgan is going to be retiring from this Committee as 
Chairman of it. He has done nothing short of an incredible job 
addressing the issues in Indian country. If you take a look at 
what's transpired in the last two years on this Committee under 
the leadership of Byron Dorgan, it has been absolutely 
incredible. So when you see him, if appropriate, give him a 
kiss.
    I want to thank you all for being at this Senate Committee 
on Indian Affairs Hearing, and we are now adjourned.
    [Whereupon, at 4:10 p.m., the proceedings were in recess 
and subsequently reconvened at 4:23 p.m., and the following 
proceedings were entered for the record:]


                           LISTENING SESSION

          STATEMENT OF ALLISON BINNEY, MAJORITY STAFF 
          DIRECTOR/CHIEF COUNSEL, SENATE COMMITTEE ON 
                         INDIAN AFFAIRS

    Ms. Binney. I'd like to ask everybody to take their seats, 
please.
    So for everyone that's still here, I wanted to make sure 
that you knew that we're going to keep the hearing record open 
until the end of the month. And so if anyone wants to submit 
written comments or written testimony to be a part of the 
hearing record, you have until the end of the month to get that 
to the Committee. I would fax it to us or e-mail us, and we'll 
make sure it's part of the record. It can be any length and it 
can include charts, anything like that. So feel free to do 
that.
    Senator Tester had to leave, and he wanted to make sure if 
there were any people who wanted to continue to get comments on 
the record today, that we had a listening session afterwards. 
So I know there's only a few people here, but if any of you did 
want to go ahead and provide more oral comments, please go 
ahead and do those. We have our court reporter over here who is 
going to go ahead and keep track of the comments so they can 
become part of the official record. My name's Allison Binney, 
by the way. I'm the Staff Director of the Senate Committee on 
Indian Affairs underneath Senator Byron Dorgan. This is Denise 
Desiderio. She's our Senior Counsel for Chairman Byron Dorgan. 
And then Jim Hall, over here in the red tie, he is Counsel for 
Vice Chairman Barrasso from Wyoming. He's the Vice Chairman of 
the Committee.
    And so with that, I don't know if anybody here wants to 
provide any oral comments, but let me go ahead and open up the 
microphones. I'm going to ask that people use the microphone 
here in the middle. And I know it's not there, because it's 
right over here.
    Is there anybody who would like to provide any oral 
comments for the record? Anyone?
    Well, Chairman, we know you always have lots of comments. 
And then, Chairman, did you hear when I said that we're going 
to leave the hearing record open until the end of the month?
    Mr. Whatoname. Yes.
    Ms. Binney. Did you provide us any written testimony today?
    Mr. Whatoname. Yes. I gave you some, but I think we did it 
more hurriedly because when the notice came out that you were 
going to have this field hearing, about just a few days ago, 
and then they had the Window Rock hearing out there, and I 
missed that one, so we decided to come up here. So we gave you 
some information there, but that was on Question 10 and also in 
support of the new TRIP Act, what they're recommending in that.
    Ms. Binney. Well, we'll keep these, and then if you want to 
provide additional written testimony or revamp the whole 
thing----
    Mr. Whatoname. Yes. It was just more hurriedly thrown 
together, just kind of a mishmash of stuff. It does include the 
Intertribal Council's Resolution. They didn't authorize me to 
do that, but, you know, I just thought I'd do that for them as 
well. But I did talk to Esther Corbett, she's the Arizona 
person on that committee on transportation that represents the 
tribes in the Western Region.
    So anyway, we'll do that when we get back. And we do want 
to thank you for taking your time to come up here and meeting 
with us again, and Senator Tester being able to sit down and 
listen to us. Besides, getting all the BIA, Department of the 
Interior, that's great. You know, that's that the other 
Montana-Wyoming tribes have to get to do. I know it's with 
them, but I felt that we should come up and also address our 
concerns. It's very important that we do that. We do have, 
basically, the same issues, funding.
    So again, we just want to thank you. And whatever you can 
do on our behalf. I do want to thank Denise and the others on 
the Committee on the juvenile detention facility that was built 
in 2007. It's fully staffed now with 30-some staff people, and 
it's up and running. We were sitting there empty for almost a 
year, but now it's running and it's working. So we want to 
thank you for that.
    Ms. Binney. Good. That's great. One of your tribal judges, 
Joseph Flies-Away, testified on that. I think he submitted some 
written testimony looking into the fact that it was sitting 
there empty for so long. So I'm glad to hear that.
    Mr. Whatoname. Yes. We just recently got some funding for 
the Green Entry Program where the juveniles are being taught 
gardening and farming. They do grow produce, lettuce, tomatoes 
and stuff. They're kind of feeding the staff and themselves. 
They call it Green Entry Program for DOJ. So that's working for 
them.
    I want to thank you again for coming here and working with 
us. I appreciate that.
    Ms. Binney. Thank you, Chairman.
    Did anyone else want to provide any additional oral 
comments? Pete Red Tomahawk.
    Mr. Red Tomahawk. Yes. The areas that I didn't read for the 
record is the written testimony from Standing Rock Sioux Tribe. 
In looking at the advocacy for increase of annual probation for 
the IRR program to 800 million annually with step increases of 
50 million, we're likely to grow the IRR Program to just over 
one million at the end of the next reauthorization.
    And also to highlight the area of safety. And we need to 
lower the numbers. I'm presently a member of the FHWA Safety 
Committee and looking at the tribes' use throughout Indian 
country and looking at the educational component and doing the 
Tribal Safety Summits throughout the country. We just did one 
here in Oklahoma. We're going to be doing one here next week in 
the state of South Dakota at the Lower Brule Sioux Tribe on the 
26th and 27th, and looking at that.
    I shared with John Baxter. And Mr. Baxter is going to be 
present at the Safety Summit. And I shared the comments with 
the Montana MHWA Division administrators. And looking towards 
Montana and Wyoming having a Tribal Safety Summit also. So in 
looking in that direction, overall we've come back to national 
reports, and looking at lowering the numbers and lowering--At 
the present time, even looking at the national decrease in the 
numbers, still for Indian Country the numbers, they're still 
starting to--So looking at that issue, we advocate for two 
various safety--one though FHWA. And looking at these hearing 
components, we have a lot of roads that need new engineering 
component and looking at the slopes of these highways that we 
travel on a daily basis. So hopefully with looking at those 
corrections that can be done, we're able to make the, you know, 
increases and also these decreases of these things that are 
taking place.
    So the other area was enforcement. Looking at engineering, 
enforcement, education and EMS, emergency medical services. So 
in looking at the engineering, education, enforcement, we 
presently have a surge that's going on at Standing Rock. And 
it's working very well, looking at the amount of law 
enforcement officers being able to go to all communities. Yet, 
more importantly, looking at the deterrence towards these five 
issues that possibly couldn't have happened without them being 
there and actually happening. So in looking at that, it is 
working.
    And then the EMS, and looking at the emergency medical 
services. You know, from the rural side, there's no such thing 
as the golden hour. In looking at these crashes that happen 
that, you know, to the nearest trauma center, it's some 
distance away from these scenes that happen in Indian country.
    So looking at these issues, I share with you the advocacy 
of trying to get more funding to these areas. So with that, I 
want to thank you for allowing me to make additional comments 
and also to share the written testimony. I shared that with 
you, Denise.
    Also we wanted to share our congratulations to Senator 
Dorgan, looking at the excellent job that he's done throughout 
the years. It's very sad for us to see him go and wanting him 
to stay on, but Senator, even when he came to Standing Rock in 
June or July, you know, tribe was very honored for him to come 
and make that visit. But more importantly, congratulate him for 
the excellent work that he's done, not only for the tribe, but 
all of Indian country across the country.
    So with that, I want to thank you for taking time out of 
your schedule to be here with us. Thank you very much.
    Ms. Binney. Thank you. Would anyone else like to provide 
any additional oral comments?

    STATEMENT OF SHIRLEY KNAUS, VICE CHAIRPERSON, TRINIDAD 
                           RANCHERIA

    Ms. Knaus. Hi. My name is Shirley Knaus. I am the Vice 
Chairperson at Trinidad Rancheria in northern California.
    And I've testified before other hearings for transportation 
in the past couple of years. And I just wanted to say once 
again that we need to work together and not pit tribe against 
tribe, find that fair and equitable solution like everybody is 
saying, and not to lose sight of the commonalities and the 
common meanings that all the tribes have, and to sort out the 
extreme examples on both positions, no matter what stand a 
region has. Look at what a viable solution would be, and also 
what the law and the regulation states, and not leave it to be 
one or two persons' interpretation of--for instance, a BIA 
employee making an interpretation. Because that's one theme I 
heard throughout all these different hearings, is that the BIA 
differs from region to region and they interpret it 
differently. So the consultant and the analysis and just 
restructuring possibly within the BIA to make it more 
consistent, then we might not have as many different problems 
if each region was applying the regulation in a consistent 
manner.
    So I would just like to see that consultations continue, 
the town halls and the hearings and that whole process continue 
for tribes to get engaged and to help work in the manner that 
everybody talks about. And I would hope that everyone, the 
tribes and the administration, take that to heart and really be 
collaborative, not just when they're making their speeches. But 
if we really work together, I think we can come up with a good 
solution that meets the needs of tribal people, because that's 
all the same no matter where you go.
    Thank you.
    Ms. Binney. Thank you. Would anyone else like to provide 
some comments.

        STATEMENT OF TIM PENNEY, TRIBAL TRANSPORTATION 
         COORDINATOR, FEDERAL HIGHWAY ADMINISTRATION, 
                        OFFICE OF POLICY

    Mr. Penney. Yes. If I could make a couple comments to 
possibly for you and maybe to make it back to other members and 
staff and the Committee.
    My name's Tim Penney. I'm the Tribal Transportation 
Coordinator for Federal Highway Administration in the Office of 
Policy.
    You know, one thing that's really been focussed on here 
today and in a lot of these consultation sessions and different 
hearings that have been held, there's a real focus on the 
Indian Reservation Roads Program, and I think rightly so, 
because that is the dedicated source of funding. But what gets 
a little bit lost in that is all the other areas in which 
tribal governments are working in transportation and all the 
other needs that are out there in tribal transportation that go 
beyond IRR Program funding.
    And I wanted to touch on just a few of them to point them 
out that some of the activities that are happening and some of 
the needs that remain out there among tribal governments and 
transportation. Let me start with one. One of the items that 
we've worked on a lot in Federal Highways with tribes and with 
state DOTs is looking at state and tribal intergovernmental 
relations. How can we get tribes and states to better work 
together? Looking at cooperative projects. Looking at technical 
assistance and training. And really looking at building 
expertise of tribes. And that's sort of a theme that we've 
continued to push. And that's a desire that we've heard from 
tribes in wanting to build their own programs, sort of grow 
their own staff, take on as much of the program as they can, 
and not continue their dependence on the BIA to run the 
programs.
    And there's tribes all over the country that are at various 
stages of that. Some that are almost running complete 
transportation programs. Some that are taking it piece by 
piece, maybe just doing planning, maybe just doing the 
construction. But that's a common theme among tribes, of 
wanting to take over more of those programs.
    There is no actual sort of mandate to do that or dedicated 
funds to do that, but that's something we built into our 
program at the Federal Highways. We see that as a tremendous 
need. And from our administrator on down to really make that 
part of our mission, and not just an extra, not having working 
with tribes, just an extra piece. So when we talk about our 
primary mission on the federal aid side is working with states, 
but we also include tribal governments as part of that. So that 
would be one area.
    Another area--what I kind of mentioned--sort of jumping 
from the state/tribal intergovernmental relation to building 
capacity. You know, the main reason I want to look at that, is 
looking at that for the tribes and from the tribes, not just 
for them, but to sort of really support self-determination in 
transportation. They're really taking that on. If we can look 
at aspects of transportation with tribes, that's going to 
support self-determination and self-governments.
    this concept has been bounced around for 30-plus years. We 
talk about it a lot. We hear about it a lot. They talk about 
sovereignty and self-determination, but when it gets down to 
it, there's got to be some push from their end to take over 
these programs and the ability from the Federal Government-side 
in the programs to support that. And I think those two pieces 
have to meet.
    One of the other areas that I want to talk about, and this 
has come up because at one point in Federal Highways, we did 
have a little dedicated money for research funding. When people 
think of research, they think of some of the hard engineering 
research and crash testing and some of the things we've done in 
Federal Highways. But there's a real need for a dedicated 
research program within Tribal Transportation. There's a whole 
range of topics, from policy topics to technical topics. And 
especially now, as tribes are getting into building their own 
equipment and running their own programs. What does that mean 
and how does that work? There's funding out there, but again, 
it's always directed towards state DOTs or universities or 
transportation research boards or things like that. But there's 
no dedicated, sort of, line item for tribal transportation 
programs. And there's a tremendous need out there. We've been 
lucky to do a few things over the years, but it's really 
scraping and stealing from other pieces of programs to convince 
the folks in safety to do a safety research project on tribes. 
We've been able to convince some people in planning to do some 
tribal planning. But we aren't able to just, from my office, 
identify a problem statement and go after it. It takes a lot of 
work of pulling in other staff and, you know, to convince them 
to convince their superiors that this is really something 
worthy to fund, something they don't have to do within their 
own program. If it's a safety program or an infrastructure 
program, they think something's worth funding, they go after 
it. Within the tribal program, if we think something's worth 
funding, we have to convince a lot of people to tap into their 
resources, be it dollars or people, the expertise here.
    Really those are some of the program areas. You know, one 
of the things I wanted to say also is within Federal Highways, 
again, you heard a lot about the IRR and continue to hear about 
that.
    But I just want to say one of the things we've been trying 
to push is some of the themes within Federal Highways and when 
do we want to do the tribal transportation, not next year, not 
the next legislative cycle, but where are we looking? Ten, 
twenty years down the line? And this is really not just from 
Federal Highways, but based on some of the input and 
observations we have from the tribes that we've been working 
with and being able to get out around the country. But I think 
we really want to see, sort of, national support and self-
determination, tribal self-determination in transportation, is 
gonna really push that for tribes within the program 
development of the transportation program.
    The next piece is fulfilling that capacity and expertise 
where they can take on programs, where they're able to talk to 
state DOTs at the same level, have the same technical skills as 
all those transportation practitioners and understand the 
regulation side and the technical side of the program. And 
finally, in doing that, I think we'll finally see the 
improvement in transportation systems and highway safety out 
there among reservations and tribal communities.
    So those are kind of the themes, I think, we're trying to 
build on internally at Federal Highways, and I know that goes 
beyond a lot of IRR Program. Again, I know when you look at 
$450 million, it looks big, and that becomes a topic of 
discussion. I think there's a lot of other things that don't 
have large dollar amounts attached to them. Sometimes it's an 
idea rather than a dollar amount, and we have to push those 
ideas and concepts out among our divisions and state DOTs and 
tribal governments to accomplish some of theses things.
    So with that, I thank you for being out here and having 
this today. Thanks.
    Ms. Binney. I actually have a question. You had mentioned 
that, you know, there's a movement with some tribes toward 
starting up their own department of transportations.
    Mr. Penney. Right.
    Ms. Binney. Do you have any good examples where tribes have 
actually developed full department of transportations up and 
running?
    Mr. Penney. I don't know if I can say there's anybody that 
has a full department of transportation. Cherokee in Oklahoma 
has a lot of their work inhouse. They do design work. They do 
materials testing. I think they do some of their planning.
    And Navajo has a big program, even though technically 
they're considered a direct service tribe. They've got over 120 
people on staff within Navajo DOT. So they're building the 
planning side and technical side. So they're doing a lot of 
their work, doing a lot more maintenance, buying the equipment 
they need to take on some of these tasks.
    There's others that are sort of getting the piece work. For 
a while at Oglala Sioux at Pine Ridge, they were starting to 
build a department where they looked at, you know, what were 
their needs. They had a safety program. They had a maintenance 
group. They had a construction group.
    So I don't know if there's anyone that can really say from 
start to finish has done this. I'd like to hold up examples and 
say, here's the ten that we have right there. There's some that 
are getting there. There's some that are close. There's some 
that maybe say that they're there. I think it's a work in 
progress for the tribes. And that's something I think we need 
to focus on with those tribes that are doing it. Get some peer-
to-peer exchange on how they did it. Because there's a lot of 
considerations, not just getting program funding, political 
considerations of going through tribal chairmen saying, we need 
ten people, twenty people to run this program, and we've got 
salaries that are going to eat up this much. And how you go 
about that. What are the technical considerations? What are the 
job requirements for the people that you're bring on? How does 
that fit with the existing tribal government structure?
    So I think from the tribes that are doing that--and what 
we've tried to do is bring some of them together, to say, How 
did you do that? What were the consideration to sustain this? 
You know, might be, you can do this for one year, two years, 
but five, ten, twenty years down the line, are you still going 
to have a tribal DOT out there?
    Mr. Hall. One of the big things you said--I'm just kind of 
building on what Allison said, but, you know, within tribal 
capacity and what you were discussing in terms of building 
transportation departments. There's been a lot of folks in the 
United States Senate that have been interested in that. You 
kind of already kicked out a couple of examples, but do you 
have any other examples of what we could do legislatively to 
take a look legislatively that would help build capacity for 
tribal transportation departments?
    Mr. Penney. Well, you know, one thing we bounced around 
last go-round for SAFETEA-LU internally, and it got folded into 
another program and sort of disappeared. We talked about having 
a tribal capacity building program, and it got folded into this 
planning capacity building program that became a very generic 
thing. But I think something like that where we're looking at--
I mean, that's a big thing for a lot of the tribes, how do you 
start that program? If you now have the capability to do a 638 
Program, you know, where there is no start-up money, unless the 
tribes are putting in some other source of funds. And some 
tribes are. Some tribes are putting in tribal gas tax money or 
casino revenues or other tribal revenues. Jacque is over there. 
Up at Hoopa they had the gravel operation. Some of that went 
back into transportation. So, you know, people are building 
programs in those ways. But I think if there was a program 
where we could identify the tribes or really self-identify 
tribes and propose a plan on what they're trying to build to 
help with that sort of start-up cost where they can get into 
the same things that state DOTs do.
    I worked for a state DOT when I first started my career, 
and that was a thing every day, you wanted a project to charge 
to, something to charge your costs to every day. And tribes 
don't have that ability right now, and that's where they're 
stuck. They're not able to charge their planning costs or 
design costs or construction costs to something. And I think 
that's the idea to get them up to speed with the rest of the 
transportation profession, how things are done industry-wide, 
and not have, well, here's how states and counties do it, and 
tribes are a little bit different. I mean, we should have a 
program that's kind of seamless, even through there are vast 
differences on how things operate on the reservation. But I 
think in structuring a program, there's some good lessons out 
there on how things have been done from a lot of different 
sizes we're looking at for tribes. Anything from a small roads 
department to a public works department to a full blown DOT-
size operation. And, you know, tribes are going to fit into 
many of those models that are out there.
    Ms. Binney. Thank you.
    Mr. Penney. Thanks.
    Ms. Hostler. For the record, I'm Jacque Hostler. I'll just 
go with Trinidad Rancheria for now.
    You know, Tim brings up a lot of good points. You guys are 
asking some questions. Grassroots on the ground in Indian 
country, there are so many disconnects. There's a disconnect 
between the chairman and the tribal council to the staff and 
understanding SAFETEA-LU and understanding 25 CFR Part 170. It 
was said over and over today, it's extremely complex.
    I've been working in it since February of 2005. This is 
October of 2011. And I consider myself literate in the 
inventory in the system. The disconnect also--because the 
tribal chairmen and the tribal counsel don't understand what 
the staff understands. But then also our system is totally 
different than Federal Highways, state DOTs, than the counties, 
than the local governments. So we are like a six-category, and 
none of those categories totally interconnect.
    So we in northern California created the North Coast Tribal 
Transportation Commission to try and share our knowledge. And 
as Tim mentioned, I went to work for Hoopa in 2002 as their 
aggregates and ready-mix manager. And in that time I brought my 
private enterprise experience, and I taught them how to build 
capacity. We built an aggregate crushing plant. We came up with 
spec material. We delivered spec ready-mix. We went out and we 
used the new construction money that came through the IRR 
allocation to build projects. We supplied those projects with 
our own aggregates, our own ready-mix, and our own workers. If 
it needed to be bid out, then it was bid out, but our 
equipment, our men, our materials were put to work. It was an 
exemplary. And we were teaching the other tribes how to do that 
in northern California.
    We ended up with two counties, Humboldt and Del Norte 
County, and over 11 tribes participating in this consortia and 
beginning to understand and learn about 25 CFR Part 170 and how 
to update the inventory and how to section-by-section get your 
roads in.
    And our biggest disconnect was with the regional engineer 
and his not understanding 25 CFR, but then also with all of the 
other agencies within our county, within our state and 
nationally. Because it felt like we were fish out of water. It 
felt like we were the different ones, and nobody really 
understood what we had to go through in our county.
    So the first step was to build the North Coast Tribal 
Transportation Commission. The next step was to become part of 
the Regional Planning Authority, which in Humboldt County was 
Humboldt County Association of Governments. So within three 
years, we had five tribes sitting on that technical advisory 
committee, because money was coming in through that regional 
planning agency for tribes. We were part of the county, but we 
were never getting that money. They counted our populations. 
The tribal chairmen are at home slamming our fists on the table 
saying, the county doesn't do anything on the reservations, and 
they're right, they don't. Because the county cannot provide 
services for the rest of the county, and reservations are the 
last on the list.
    So as we became part of that association of governments, 
that regional planning authority, we were able to learn their 
system. We were able to say, wait a minute, this a county road. 
We have a project ready to go, and you need to give us money 
for this project. Slowly but surely over the past five or six 
years, we've gotten projects on that State Transportation 
Improvement Plan. Because we started really small, and we began 
developing that. You know, those baby steps of learning the 
system.
    Then we took it to Caltrans. The Native American Advisory 
Committee meets statewide southern California, northern 
California, central California. We began sharing this knowledge 
with them on how we were doing things in northern California. 
And I would say, over the last seven years, we've built a lot 
of our social networking has really, really improved. And we 
have a direct line now to the director at Caltrans.
    We agree the states and the counties need to step up and do 
what they need to do. California's in a budget crisis. There's 
all of these issues. So how do we become part of the solution? 
How do we leverage funds with the other funds that are 
available? Those are the things we are teaching the tribes in 
northern California.
    And you can go in and build a transportation department. I 
love doing that. That's easy. The hard part is understanding 
the system, getting those systems to all coexist and not having 
the systems say, well, I can't help you with that.
    So then we wind up at the Indian Roads Coordinating 
Committee. And the regions that have lost their lands and have 
county and state roads bisecting traditional lands, it's not 
our fault that that happened. We still have to deliver services 
to Indian country. So they don't understand our situation. As 
we go and visit their regions, we understand their situation. 
They need to come and understand our situation.
    And one of the reasons that it's difficult to speak, is my 
husband's been over twenty years building that relationship in 
Hoopa. And, you know, it takes a long time to move forward 
before a tribe. They don't want to give up that sovereignty, 
that self sufficiency, that self determination, and go over to 
the county and the state and say, you know, we're a sovereign 
nation and in California not be recognized. There's so many 
issues.
    So, you know, we won't go away. We keep showing up, you 
know, we keep being the underdog, but that's okay, because 
we're educating people.
    Ms. Binney. Thank you, Jacque. I just want to thank 
everyone for being here. Again, the oral comments that were 
just made now are going to be part of the hearing record. But 
the hearing record will stay open until the end of the month, 
so if you want to provide written testimony, get that to the 
committee by the end of the month, and we'll include that as 
part of the hearing record as well.
    And with that, thank you for being here. It was a great 
hearing. Thanks.
    [End of proceedings.]


                            A P P E N D I X

  Prepared Statement of Hon. Cedric Black Eagle, Chairman, Apsaalooke 
                             (Crow) Nation

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
 Prepared Statement of Hon. Charles W. Murphy, Chairman, Standing Rock 
                              Sioux Tribe

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
  Prepared Statement of the North Coast Tribal Chairmen's Association 
                                (NCTCA)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
Prepared Statement of Hon. Timothy P. Hinton, Sr., Vice Chairman, White 
                         Mountain Apache Tribe

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
  Prepared Statement of Tracy ``Ching'' King, President, Fort Belknap 
                        Indian Community Council

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
